Fiscal Year 2009 United States Army Annual Financial Statement




                      2009
The Noncommissioned Officer Corps:
The Strength of America’s Army

                                                                        U.S. Army Corps of Engineers - Civil Works Fund




                           U.S. Army Corps of Engineers - Civil Works

                                                                                   a
                                                                                                     The Florida Everglades




                  Since 1775, the Army has set apart its NCOs from other enlisted Soldiers by
                                         distinctive insignia of grade.


                     With more than 200 years of service, the U.S. Army’s Noncommissioned Officer
                      (NCO) Corps has distinguished itself as the worlds most accomplished group
                       of military professionals. Historical and daily accounts of life as an NCO are
                  exemplified by acts of courage, and a dedication and a willingness to do whatever
                 it takes to complete the mission. NCOs have been celebrated for decorated service
                    in military events ranging from Valley Forge to Gettysburg, to charges on Omaha
                   Beach and battles along the Ho Chi Minh Trail, to current conflicts in Afghanistan
                                                          and Iraq.


                     In recognition of their commitment to service and willingness to make great
                       sacrifices on behalf of our nation, the Secretary of the Army established
                                              2009 as the Year of the NCO.




ON THE COVER: A Soldier demonstrates to an Iraqi child how to properly take a knee during Operation Warhorse Scimitar in west
                 Mosul. The child was running up and down this alleyway giving high fives to Soldiers.

        *Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
FY 2009 Contents
Message from the Assistant Secretary of the Army
(Civil Works)	                                       iii


Message from the USACE Chief Financial Officer	       v


Management’s Discussion & Analysis	                   1


Civil Works Fund – Principal Financial Statements,
Notes, Supplementary Information and
Auditor’s Report	                                    33
                       Our NCO Corps is unrivaled by any Army
                            in the world, envied by our allies and
                         feared by our enemies. Throughout the
                     Army’s history, the NCO has been a pivotal
                       figure, but never more so than today with
                                our full spectrum of operations...
                                     the “backbone of our Army.”
                                              Kenneth O. Preston, Sergeant Major of the Army




ii Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
                                                           November 24, 2009

                                                           Since their support of our military forces at Bunker Hill and during
                                                           the Revolutionary War, the role and responsibilities of the Army
                                                           Corps of Engineers over time have evolved to reflect America’s
                                                           changing priorities. Through its Civil Works, military, contingency,
                                                           and reimbursable support for others missions, the Corps’
                                                           engineering and construction expertise today serves the nation both
                                                           at home and in over one hundred countries throughout the world.

                                                        As society’s requirements and values have changed, the Army Civil
                                                        Works mission has reflected those changing national priorities for
                                                        public water resources management. The Civil Works program
                                                        supports the President’s commitment to the goals of revitalizing
                                                        infrastructure, restoring the environment, and reducing dependence
                                                        on foreign, non-renewable energy sources. Corps projects and
                                                        programs enhance the environment; address the risks inherent
                                                        in aging water resources infrastructure through dam and levee
                                                        safety programs; advance flood risk reduction and management
                                                        in cooperation with other federal, state, and local agencies; invest
                                                        in inland and coastal navigation to ensure that the nation remains
                                                        competitive in international commerce; invest in hydropower, a
                                                        clean, renewable, domestic energy source; and respond to a myriad
of comprehensive water-related problems and opportunities facing the nation, including climate change.

The Army’s high priority goals for the Civil Works program are these: to provide sustainable development, restoration, and
protection of the Nation’s water resources by restoring degraded habitat and achieving no net loss of wetlands; to reduce the
nation’s risk of flooding that places individuals at risk of injury or loss of life and damages property and the environment; to
improve Inland Marine Transportation System (IMTS) reliability; and to generate 140 billion kilowatt-hours of hydroelectric
power in the next two years.

The Corps’ $3.4 billion in Civil Works supplemental fund execution in FY 2009 represents significant progress not only
in the upgrade of the New Orleans perimeter protection, but also in the restoration to a safe and functional level of a large
number of other storm-damaged projects in the mid-west, Gulf coast and Mississippi-Ohio valleys. In addition to executing
these supplemental appropriations and $5.1 billion for its regular program, this year the Corps Civil Works program
received $4.6 billion under the American Recovery and Reinvestment Act, and executed $2.2 billion in FY 2009, creating or
maintaining an estimated 58,000 jobs.

This unprecedented level of program execution was made possible by the use of innovative acquisition methods, by advance
planning with key contractor groups, and most of all by the dedication and commitment of the Corps team.


		
                                                                                                                                   Messages




	                                                                               Jo-Ellen Darcy
	                                                                               Assistant Secretary of the Army
	                                                                               (Civil Works)


                                                                                                                                    iii
                    “We have magnificent Soldiers, leaders and
                    civilians. They are ordinary people who are
                    doing extraordinary things for our country.”
                                             General George Casey, Chief of Staff of the Army




iv Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
November 24, 2009

Last year I began by noting that we received our first unqualified
clean audit opinion in fiscal year FY 2008 and that this news had
permeated the U.S. Army Corps of Engineers (USACE) financial
management community with a joyous sense of purpose and
optimism. During FY 2009, the USACE financial community
worked even harder to build on that success, made steady progress,
and demonstrated commitment to improve management controls.
I am proud that everyone at USACE assisted in laying the
groundwork for sustained excellence.

FY 2009 was historic with over $14B obligated. USACE was a
major player in American Recovery and Reinvestment Act with
an additional $2.8B in direct appropriations and another $166M
in reimbursable work. This annual financial report provides our
performance in delivering the Civil Works mission for FY 2009 and
our financial position.

I am proud to report that USACE received another unqualified
opinion on its FY 2009 financial statements. Our commitment
to provide transparency and accountability in budget and financial
management remains priority number one.




                    Wesley C. Miller
                    USACE Chief Financial Officer




                                                                     Messages




                                                                       v
                                                                       TM




                 Army NCOs trace their roots to the beginnings of American military history. They
                 helped Washington preserve the Continental Army at Valley Forge, stood with Winfield
                 Scott at Chippewa, and directed Zachary Taylor’s guns at Palo Alto. They carried the
                 Nation’s colors at Gettysburg and Vicksburg, fought yellow fever in Cuba with Walter
                 Reed, and led Pershing’s and Eisenhower’s legions into Germany. Whether helping
                 local populations build a village in Southeast Asia or teaching young Iraqi soldiers
                 to conduct operations, American NCOs are leading from the front and are some of
                 our nation’s best ambassadors. Over time, through various changes in tactics and
                 technology, Army NCOs have emerged as the Army’s small–unit leaders, trainers,
                 and guardians of standards.


vi Fiscal Year 2009 United States Army Annual Financial Statement
                                                         U.S. Army Corps of Engineers - Civil Works Fund
NCO TIMELINE
	 1775-1840	 | Revolutionary War & Early United States
	 1861-1885	 | Civil & Indian Wars
	 1902-1909	 | Early Twentieth Century
	 1930-1948	 | Post-WWI & the Interwar Years
	 1949-1959	 | World War II
	 1951-1970	 | Korean War & Pre-Vietnam Era
	 1970-2000	 | Vietnam, Post-Vietnam & Desert Storm
	2001-Present	 | September 11, 2001 to Present Day




                                                               vii
                   Docked at the Bay Model in Sausalito,
                   California, is the Corps of Engineers debris
                   removal boat Racoon.     It serves the San
                   Francisco Bay.




viii Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Overview                                                          Protecting, Restoring and Managing the
                                                                  Environment
Mission
                                                                  The Rivers and Harbors Act of 1890 required the Corps
The civil works mission of the United States Army Corps           to prevent the obstruction of navigable waterways. As
of Engineers (USACE) is 1) to contribute to the national          environmental concerns grew in the late 20th century, the
welfare and serve the nation with quality, responsive             National Environmental Policy Act of 1969 and the Clean
development and management of the nation’s water                  Water Act of 1972 greatly broadened the scope of the Corps’
resources; 2) protect, restore and manage the environment;        responsibility for regulating discharges into U.S. waters,
3) respond to disasters and aid in recovery; and 4)               including the country’s wetlands. The civil works program’s
provide engineering and technical services. This multi-           environmental responsibilities have continued to increase
faceted mission is accomplished in an environmentally             through legislation and now include aquatic ecosystem
sustainable, economically- and technically-sound manner           restoration, remedial activities at former defense sites, and
through partnerships with other government agencies and           overall stewardship responsibilities.




                                                                                                                                  U.S. Army Corps of Engineers - Civil Works Fund
nongovernment organizations.

                                                                  Responding and Assisting in Disaster
Developing and Managing Water                                     Relief
Resources
                                                                  Throughout the Corps’ history, the United States has relied
The original role of the USACE in civil works, as it related      on the civil works program for help both in times of natural
to developing and managing water resources, was to support        and man-made disasters. The Corps responds to natural
navigation by maintaining and improving federal navigation        disasters under the Flood Control and Coastal Emergency
channels. Over the years, and through subsequent                  Act (Public Law 84-99, as amended), and to man-made
legislation, the Corps’ role has expanded to include flood risk   disasters under the Robert T. Stafford Disaster Relief and
management, improvement of aquatic habitat, generation
of hydroelectric power, creation of recreation opportunities,
provision of water storage for municipal and industrial water
supplies, regulation of discharges into navigable waters, and
emergency planning and management.
                                                                             Two fox kits on Corps-made Spring
                                                                             Lake Islands, located near Buffalo City,
                                                                             Wisconsin.                                                      1
Emergency Assistance Act (PL 93-288, as amended). The            that receive direct appropriations, and the funds used for
civil works program’s primary role in emergency relief           executive direction and management of those programs.
and recovery operations is to provide public works and
engineering support.                                             Through the American Recovery and Reinvestment Act of
                                                                 2009 (ARRA), the Corps received $4.6 billion for its civil
                                                                 works programs. All of the Corps’ business lines, except
Providing Engineering Support and                                emergency management, have, or are designated to receive,
Technical Services                                               ARRA funding for various programs, projects, and activities.
                                                                 Specific information on ARRA funding may be found at the
In Titles 10 and 33 of the U.S. Code, Congress expresses its
                                                                 Corps’ Recovery Web site at http://usace.army.mil/recovery.
intent for the Corps to provide services on a reimbursable
basis to other federal entities; state, local and tribal
governments; private firms; and international organizations.     Navigation
Additional authority to provide services to all federal
agencies is found in Titles 15, 22 and 31, which includes        The navigation program is responsible for ensuring
providing services to foreign governments.                       safe, reliable, efficient, and environmentally sustainable
                                                                 waterborne transportation systems for the movement of
                                                                 commercial goods as well as for national security needs. The
Civil Works Programs                                             program meets this responsibility through a combination of
The Corps operates multiple programs to accomplish               capital improvements and the operation and maintenance
its mission. Each program specifically addresses a single        of existing infrastructure projects. The navigation program
mission component, but may also contribute to one or             is vital to the nation’s economic prosperity: 95 percent
more other program missions. Figure 1 lists the programs         of America’s overseas international trade moves through
                                                                 its ports. Our nation’s marine transportation system




Figure 1. FY 2009 Civil Works’ Initial Appropriation by Business Line
(Amounts in millions)
                           $6

                                                                                 Navigation
                                $184
                                                                                 Flood Risk Management
                          $27




                                                                                 Hydropower
                          7




$16                $3                                                            Regulatory
                     20
                                                                                 Environment-Ecosystem Restoration
          $1                                                                     Environment-Stewardship
            83
                                                    $1,892                       Environment-FUSRAP
       $140                                                                      Emergency Management
      $97                                                                        Recreation
                                                                                 Water Supply
                                                                                 Executive Direction and Management
               7
        $51                                                                Note: An additional $191 million (3.8 percent of the total
                                                                           appropriation) was received for environmental infrastructure
                                                                           projects, which are neither budgeted nor associated with
                                                                           any business line. This brings the total initial appropriation to
                                                                           $5,402 million.



                                $1,579




2 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
(MTS) encompasses a network of Corps-maintained                for the complexity and dynamics of flood problems—the
navigable channels, waterways, and infrastructure as well      interaction of natural forces and human development—as
as publicly- and privately-owned vessels, marine terminals,    well as for the federal, state, local, and individual
intermodal connections, shipyards, and repair facilities.      partnerships needed to thoroughly manage the risks caused
The MTS consists of approximately 12,000 miles of inland       by coastal storms and heavy rains.
and intracoastal waterways; approximately 13,000 miles
of coastal, Great Lakes and inland harbors; and channel        Risk management is the process of identifying, evaluating,
projects maintained by the Corps.                              selecting, implementing, and monitoring actions to
                                                               mitigate levels of risk. Its goal is to ensure scientifically
This program, estimated at $1.9 billion, accounted for         sound, cost-effective, integrated actions that reduce risks
35 percent of civil works initial appropriations in FY 2009.   while taking into account social, cultural, environmental,
                                                               ethical, political, and legal considerations. The Corps’
                                                               approach to flood risk management relies on productive
Flood Risk Management




                                                                                                                               U.S. Army Corps of Engineers - Civil Works Fund
                                                               collaborations with partners and stakeholders, i.e., the
                                                               Federal Emergency Management Agency, the Department
The flood risk management program reduces the risk to
                                                               of Housing and Urban Development, the National Oceanic
human safety and property damage in the event of floods
                                                               and Atmospheric Administration, affected state agencies,
and coastal storms. The civil works program has constructed
                                                               sponsors and citizens. Effectively and efficiently, these
8,500 miles of levees and dikes, 383 reservoirs, and more
                                                               collaborations heighten the nation’s awareness of flood risks
than 90 storm damage reduction projects along 240 miles
                                                               and consequences.
of the nation’s 2,700 miles of shoreline. Upon completion,
with the exception of reservoirs, most infrastructure built
                                                               The flood risk management program has compiled an
under this program is transferred to the sponsoring cities,
                                                               impressive record of performance, yielding a six-to-one
towns, and special use districts that own and operate the
                                                               return on investment; that is, the program saves six dollars
projects.

Over the years, the Corps’ mission of addressing the
causes and impacts of flooding has evolved from flood
control and prevention to more comprehensive flood risk
                                                                          Looking northwest across Locks 27 at
management. These changes reflect a greater appreciation
                                                                          the southern end of the Chain of Rocks
                                                                          Canal in Illinois. The 110’ x 1200’ main
                                                                          chamber is in the foreground with the                           3
                                                                          600’ auxiliary chamber behind.
                                                                               Saylorville Lake emergency spillway
                                                                               being lowered


for each dollar spent. The program also has helped reduce
the risk to human safety by providing timely flood warnings
that afford sufficient time for evacuation.

In FY 2009, this $1,579 million program accounted for
slightly more than 29 percent of civil works appropriations.     personnel monitor water quality at Corps’ dams and operate
                                                                 fish hatcheries in cooperation with state wildlife agencies.
                                                                 The environmental program encompasses compliance
Environment                                                      measures to ensure Corps’ projects 1) meet federal, state and
                                                                 local environmental requirements; 2) sustain environmental
The Corps has three distinct programs that are focused on
                                                                 quality; and 3) conserve natural and cultural resources. In
the environment: aquatic ecosystem restoration; stewardship
                                                                 FY 2009, the environmental stewardship program received
of Corps’ lands; and the Formerly Utilized Sites Remedial
                                                                 $97 million, an amount comprising 1.8 percent of the total
Action Program (FUSRAP).
                                                                 initial appropriation.

Aquatic Ecosystem Restoration. The Army’s mission in
                                                                 FUSRAP. Under the FUSRAP, the Corps cleans up former
aquatic ecosystem restoration is to help restore aquatic
                                                                 Manhattan Project and Atomic Energy Commission
habitat to a more natural condition in ecosystems whose
                                                                 sites, making use of expertise gained in cleansing former
structures, functions and dynamic processes have become
                                                                 military sites and civilian hazardous waste sites under the
degraded. The emphasis is on restoration of nationally- or
                                                                 Environmental Protection Agency Superfund program. In
regionally-significant habitat where the solution primarily
                                                                 FY 2009, the FUSRAP program received $140 million, or
involves modifying the hydrology and geomorphology. In
                                                                 approximately 2.6 percent of the total initial appropriation.
FY 2009, the aquatic ecosystem restoration program received
$517 million, which translates to almost 10 percent of the
total initial appropriation.                                     Regulation of Wetlands and Waterways

Environmental Stewardship. The environmental stewardship         In accordance with the Rivers and Harbors Act of 1890
program focuses on managing, conserving, and preserving          (Sec. 10) and the Clean Water Act of 1972 (Sec. 404),
natural resources on 11.5 million acres of land and water        as amended, the Corps regulatory program regulates the
at 456 multipurpose Corps’projects. In addition, program         discharge of dredged and fill material into U.S. waters,




4 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
including wetlands. The Corps implements many of its              Hurricanes Katrina, Rita, Wilma, and Ophelia caused
oversight responsibilities by means of a permit process.          significant damage to the flood and hurricane protection
Throughout the permit evaluation process, the Corps               projects along the Gulf Coast and South Atlantic states.
complies with the National Environmental Policy Act and           Hurricane Katrina, alone, resulted in federal costs of
other applicable environmental and historic preservation          approximately $125 billion in Louisiana, Mississippi, and
laws. In addition to federal statutes, the Corps also considers   Alabama. USACE costs to repair and upgrade the New
the views of other federal, tribal, state and local governments   Orleans Hurricane and Storm Damage Risk Reduction
and agencies, and interest groups, as well as the general         System (HSDRRS) will be approximately $14 billion.
public when rendering its final permit decisions.                 Major damage to the storm protection system in the New
                                                                  Orleans area included overtopping of 47 sections of levees
In FY 2009, this $183 million program accounted for a little      and the failure of three floodwalls along Lake Pontchartrain
more than 3 percent of civil works appropriations.                and vicinity. In addition, several New Orleans-to-Venice
                                                                  projects required extensive repairs prior to the beginning of




                                                                                                                                  U.S. Army Corps of Engineers - Civil Works Fund
                                                                  the 2006 hurricane season.
Emergency Management
                                                                  Coupled with its repair efforts, the Corps studied ways
Throughout Corps’ history, the United States has relied on
                                                                  to improve hurricane protection in the vicinity of Lake
the civil works program for help in times of national disaster.
                                                                  Pontchartrain. Shortly after Hurricane Katrina, it
Emergency management continues to be an important
                                                                  commissioned a Hurricane Protection Decision Chronology
part of the civil works program, which directly supports
                                                                  (HPDC) to collect, record and analyze project memoranda
the Department of Homeland Security in carrying out the
                                                                  and reports and related documentation. This material was
National Response Framework. It does this by providing
                                                                  used to better understand how complex social and political
emergency support in public works and engineering, and by
                                                                  decision-making processes contributed to the HSDRRS,
conducting emergency response and recovery activities under
                                                                  and to determine how processes might be improved.
authority of Public Law 84-99. In a typical year, the Corps
responds to more than 30 presidential disaster declarations,
and its highly-trained workforce is prepared to deal with
both man-made and natural disasters.
                                                                             A U.S.       Army Corps of Engineers
                                                                             employee inspects an emergency levee
                                                                             in Valley City, North Dakota, during the
                                                                             2009 spring flooding of the Red River of                        5
                                                                             the North.
                                                                               Aerial view of hydropower plant at the
                                                                               Youghiogheny River, near Confluence,
                                                                               Pennsylvania.

Subsequently, a report provided an explanation—as opposed
to an evaluation—of the way in which Corps’ policies
and organization, legislation, financial and other factors
influenced decisions that led to the HSDRRS protective
structures in place when Hurricane Katrina struck.
                                                                 control and coastal emergencies for support of preparedness
                                                                 activities, repairs to eligible flood-damaged projects,
The HPDC focus on project decision-making complemented
                                                                 emergency operations and flood fighting. This program did
the engineering forensics investigations conducted by the
                                                                 not receive funding in the regular civil works appropriation.
Interagency Performance Evaluation Task Force and other
institutions. The HPDC’s purpose is to make predictions
about the future by looking at historical data, and it           Hydropower
demonstrated that no single individual, agency, organization,
or decision was solely responsible for the development of the    The Corps’ multipurpose authorities provide hydroelectric
HSDRRS over the course of its 50-year history. The Corps         power as an additional benefit of projects built for navigation
is committed to open, transparent communication with             and flood control. The Corps is the largest owner-operator
the American public regarding the lessons learned in the         of hydroelectric power plants in the United States, and
aftermath of Hurricane Katrina.                                  one of the largest in the world. The Corps operates 350
                                                                 generating units at 75 multipurpose reservoirs, mostly in
The Corps not only contributes to domestic emergency             the Pacific Northwest; they account for about 24 percent of
management efforts, but also plays a major role on the           America’s hydroelectric power and approximately 3 percent
international stage through its participation in the civil       of the country’s total electric-generating capacity. Its
military emergency preparedness program. In support of           hydroelectric plants produce nearly 70 billion kilowatt-hours
the Department of Defense, the Corps shares emergency            each year—sufficient to serve nearly 7 million households
management knowledge and expertise with U.S. allies and          equal to twenty-four cities the size of Seattle, Washington.
partners in the former Soviet Republics and Eastern Europe.      Hydropower is a renewable source of energy and one of the
This valuable program brings together key leaders and builds     least environmentally disruptive sources of electric power,
relationships among nations in direct support of the national    producing none of the airborne emissions that contribute to
defense strategy.                                                acid rain or the greenhouse effect.

In FY 2009, this program received approximately                  In FY 2009, this $320 million program accounted for
$1.4 billion in supplemental appropriations for flood            almost 6 percent of civil works appropriations.




6 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Recreation                                                       modification of federal navigation; flood damage reduction;
                                                                 and multipurpose projects.
The Corps is an important provider of outdoor recreation,
which is an ancillary benefit of its flood prevention and        In FY 2009, this $6 million program accounted for less than
navigation projects. The Corps’ recreation program provides      1 percent of civil works appropriations.
quality outdoor public recreation experiences in accordance
with its three-part mission: 1) serve the needs of present and
future generations; 2) contribute to the quality of American     Organizational Structure
life; and 3) manage and conserve natural resources consistent
with ecosystem management principles.                            The Workforce
                                                                 The Corps employs approximately 35,000 people, including
The Corps administers 4,488 recreation sites at 423 projects
                                                                 650 military officers and 24,800 civilians who perform civil
on 12 million acres of land. During fiscal year 2008,
                                                                 works duties. It is funded through the energy and water
10 percent of the U.S. population visited a Corps’ project




                                                                                                                                   U.S. Army Corps of Engineers - Civil Works Fund
                                                                 development appropriation and executes programs through
at least once. These visitors spent $18 billion pursuing
                                                                 eight regional divisions and 38 of the Corps’ 41 districts; the
their favorite outdoor recreation activities, which, in turn,
                                                                 three remaining districts are dedicated to military-related
supported some 350,000 full- and part-time jobs.
                                                                 missions. There is a ninth provisional division in the Gulf
                                                                 Region that supports operations in Iraq and Afghanistan,
In FY 2009, this $277 million program accounted for just
                                                                 which has three embedded provisional districts. In addition,
over 5 percent of the civil works budget.
                                                                 there is a provisional district in Afghanistan that reports
                                                                 directly to Corps’ headquarters.
Water Storage for Water Supply
Conscientious management of the nation’s water supply is
critical to limiting water shortages and lessening the impact
of droughts. The Corps has an important role in ensuring
that homes, businesses and farms, nationwide, have enough
water to meet their needs. It retains authority for water
                                                                            More than 60 recreation boats dropped
supply in connection with construction, operation and
                                                                            anchor on a sand bar at the north end of
                                                                            U.S. Army Corps of Engineers Carlyle
                                                                            Lake, Illinois. Carlyle Lake, at 26,000
                                                                            acres, is the largest man-made lake in                            7

                                                                            Illinois.
Figure 2. Civil Works Boundaries

                                                                                                                                       North
                                                                                          Great Lakes                                 Atlantic
                           Seattle
                                                                                          & Ohio River
    Alaska                                                                                                                           New
                                                                      St.                                                           England
                Portland      Walla         Northwestern              Paul                                 Buffalo
                              Walla
                                                                                             Detroit
                                                                              Rock                         Pittsburgh           New York
                                                                              Island
                                                           Omaha                                  Chicago                    Philadelphia
                      Sacramento                                                                   Cincinnati      Baltimore
                                                          Kansas City                 St. Louis                  Huntington
San                                                                                                                         Norfolk
Francisco                   South Pacific                                                     Louisville
                                                                                               Nashville
                                                                             Little
                                                               Tulsa         Rock                                         Wilmington
           Los                                                                              Memphis
           Angeles                                        Southwestern                                                  Charleston
                                          Albuquerque                                                  Atlanta
                                                          Ft. Worth                                                  Savannah
                                                                                                  Mobile
                                                                                 Vicksburg                           Jacksonville
    Honolulu                                                       Dallas
                                                              Galveston                       New                             South
                               Pacific Ocean                                                  Orleans                        Atlantic
Key: Follows Watershed Boundaries
  Div./Regional HQ location
                                      Division boundary
                                      District boundary
                                                                         Mississippi Valley
  District HQ location                State boundary




Figure 2 shows the division boundaries, which are defined by             The Leadership
watersheds and drainage basins and are reflective of the water
resources nature of the civil works’ mission. Through its                Oversight of civil works is provided through four levels of
Pacific Ocean and South Atlantic Divisions, the Corps also               authority. As shown in Figure 3, the Assistant Secretary
has civil works responsibilities in the Territory of American            of the Army for Civil Works (ASA(CW)) is appointed by
Samoa, the Territory of Guam, the Commonwealth of the                    the President and is responsible for civil works policy. The
Northern Mariana Islands, the Commonwealth of Puerto                     chief of engineers is a military officer who reports to the
Rico, and the U.S. Virgin Islands.                                       ASA(CW) and is responsible for mission accomplishment;
                                                                         however, he delegates the management of this program
The distribution of civil works employees again highlights               to the director of civil works. The Chief of Engineers,
the civil works program’s customer focus: 95 percent of                  through the Director of Civil Works, is responsible
employees work at the district level (in labs or field operating         for the leadership and management of the civil works
agencies) and demonstrate the fact that project management               program and for ensuring that policies, established by the
and operations and maintenance activities are performed                  ASA(CW), are applied to all phases of the mission. Corps
at the local (district) level. The program contracts out all             divisions, commanded by division engineers, are regional
of its construction, and most of its design work, to civilian            offices responsible for the supervision and management
companies. As many as 150,000 people are indirectly                      of subordinate districts, to include oversight and quality
employed in support of civil works projects, and the Corps’              assurance. Districts are the foundation of the civil works
contractual arrangements have served the nation well in                  mission, managing water resource development over a
times of emergency.                                                      project’s life cycle.




8 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Figure 3. Civil Works Levels of Authority                                          goals support the Corps’ strategic direction over the five-year
                                                                                   period, FY 2004—FY 2009. Key performance measures,
                                                                                   developed in conjunction with the Office of Management
                          ASA (CW)                                                 and Budget, are presented below.
                    Provides policy guidance


                                                                                   Goal 1: Provide Sustainable Development and
                                                                                   Integrated Management of the Nation’s Water
                   Chief of Engineers
                     Applies policy guidance
                                                                                   Resources.


                                                                                   Navigation
                      Director of CW                                               Objective: To invest in navigation infrastructure that is fully
           Acts on behalf of the Chief of Engineers
                     in policy guidance                                                       capable of supporting maritime requirements
                                                                                              in environmentally sustainable ways where
                                                                                              economically justified.
                         8 Divisions
               Supervise and manage districts                                      Funding History: The first row of Table 1 indicates funding
            Perform district-level quality assurance
                                                                                   for the investigations, major rehabilitation and construction
                                                                                   program.

     Plan                38 Districts                 Operate                      Performance Indicators: To measure progress in meeting
     Design       Construction Management             Maintain                     the Goal 1 objectives, the Corps uses performance indicators
                                                                                   related to investigations and construction activities for inland
                                                                                   and intracoastal waterways and coastal ports and harbors, as
                                                                                   well as to the efficiency of the overall, combined navigation
Civil Works Fund Performance                                                       system. Indicators are described below and their measures
Results                                                                            are shown in Tables 1.

Civil works directly impacts America’s prosperity,
                                                                                   Construction measures for the navigation system
competitiveness, quality of life and environmental
stability. In March 2004, the Corps’ leadership published a
                                                                                   In FY 2008, the Corps instituted new performance measures
strategic plan that provides a framework for enhancing the
                                                                                   and began gathering data, which will be reported pending




                                                                                                                                                      U.S. Army Corps of Engineers - Civil Works Fund
sustainability of America’s resources. The plan’s strategic
                                                                                   availability of a complete year’s worth of data.


Table 1. Navigation Program Construction and Investigation Performance Indicators

                                                                                                                                  FY 2009
                                                                                          FY 2006 FY 2007 FY 2008            Target     Actual
                        Expenditures in millions of dollars                                  $916         $609    $490        $628       $597
 Inland                 Percentage of funds to high-return
 Waterways              investments (BCR > 3)                                                                     59%                     42%
                        Percent of reports recommending projects                                                 100%
                                                                                                   Note 1                    Note 3
 Coastal Ports          reflecting watershed principles                                                          Note 2                   0%
 and Harbors            Average annual benefits attributable to PEDs
                        completed in current FY ($ millions)                                                     $28.1                    $7.9
Note 1: New performance measure for FY 2008, which was the first year data were collected.
Note 2: Represents the completion of one report.
Note 3: Performance targets will not be established until FY 2010, after 2 years of data are collected.


                                                                                                                                                                 9
     n	 High-return investments. The percent of funding           Construction funding for inland waterways was used to
         to rehabilitate, construct, or expand projects that is   continue: 1) major repairs, construction, or replacement of
         allocated to high-return investments. High-return        locks and dams; 2) dam safety assurance; 3) seepage control
         investment projects are defined as those with a          and static instability corrections; and 4) construction or
         benefit-to-cost ratio of 3.0 or greater.                 replacement of locks and dams. While 42 percent of funds
                                                                  programmed for high-return investments seems low at first
     n	 Percent of reports recommending projects                  glance; it is important to understand that more than one-
         reflecting watershed principles. The percent of          half of the remaining 58 percent of construction funds was
         Chief of Engineer’s reports recommending projects        used for mandatory dam safety assurance, seepage control,
         for authorization that meet criteria for industry-       and static instability correction projects—all of which have
         accepted watershed principles. This measure              BCRs less than 3.0. As the Corps continues to assess the
         expresses a long-term goal and assesses progress         condition of the nation’s dams, it must address the human
         achieved in watershed-based planning.                    safety issues that are being found. These dam-safety projects
                                                                  are given funding priority, necessitating the deferral or delay
     n	 Average annual benefits attributable to
                                                                  of other critical projects
         preconstruction engineering and design (PED)
         work completed in current fiscal year. The total
                                                                  Construction funding for coastal navigation projects was
         average annual benefits (present value) attributable
                                                                  used for channel deepening and improvement projects.
         to PEDs. This measure assesses the effectiveness of
                                                                  Additional construction funding was used to construct
         PED in enabling transportation savings.
                                                                  dredged material and beneficial use placement sites as well as
     n	 Average annual benefits realized by construction          to mitigate shoreline damages caused by navigation projects.
         projects completed in current fiscal year. The
         total average annual benefits (present value)            The American Recovery and Reinvestment Act of 2009
         realized by construction projects completed.             provided the Corps an additional $4 million in investigation
         This measure assesses the effectiveness of the           funds and $740 million in construction funds, which will be
         construction program in realizing transportation         spent on navigation projects through FY 2011. Specifically,
         savings.                                                 expenditures will be allocated for: 1) the advancement
                                                                  and completion of studies, 2) engineering and design, 3)
     n	 Percent change in funds required to complete              construction, and 4) the major rehabilitation of navigation
         all programmed work. The percent change in               projects.
         constant-dollar balance to complete programmed
         work on all ongoing, budgeted construction
         projects. This measure assesses progress in reducing     Flood Risk Management
         the backlog of ongoing, budgetable construction
         projects.                                                Objective: To invest in environmentally-sustainable flood
                                                                             and coastal storm damage reduction solutions
Performance Results—Construction and Investigations                          through the safe operation of flood reduction
                                                                             infrastructure when benefits exceed costs.
Funding for investigations was used at various locations
throughout the nation to continue the study and design of         Funding History: The first row of Table 2 displays
navigation improvements to increase the economic benefits         investigation and construction program funding for flood
of navigation systems and to reduce transportation costs.         risk management.

Two PEDs were completed: 1) Gulf Intracoastal                     Performance Indicators: To measure its progress in
Waterway—High Island to Brazos River, TX project—                 meeting the Goal 1 objective, the Corps uses performance
and 2) Akutan Harbor, AK. They realized average annual            indicators related to the construction program for flood risk
benefits of $3.2 million and $4.7 million, respectively. There    management. The construction indicators are described
were no Chief of Engineer reports completed for navigation        below and their measures are shown in Table 2.
projects in FY 2009.



10 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Construction measures for the flood risk management                                   n	 SPRA assessments completed. The number of
program                                                                                     SPRA screening-level assessments completed in the
                                                                                            applicable year.
          n	 Additional people protected. The increase in
                   total affected population, with reduced risk at              Performance Results—Construction
                   project design, attributed to project completion in
                   the current fiscal year.                                     A portion of FY 2009 budgeted funds were targeted to
                                                                                complete four projects; however, due to a variety of reasons,
          n	 Flood damage prevented. The estimated annual                       only Antelope Creek, NE, was completed in FY 2009. The
                   dollars of property damage avoided through Corps’            new schedules call for completion of the three remaining
                   flood control projects completed during the fiscal           projects by the end of FY 2011. Although not originally
                   year.                                                        scheduled for completion in FY 2009, the dam safety
                                                                                portion of the Mud Mountain Dam, WA, was also finished.
          n	 Ten-year moving average. The 10-year moving
                   average of actual flood-damage reduction benefits
                                                                                The work on the SPRA continued during FY 2009, and
                   attributable to all completed Corps’ flood control
                                                                                the total number of flood damage reduction dams with
                   projects.
                                                                                completed SPRAs increased to 343. The percentage of
          n	 Dam safety projects. The percent of dams in the                    dams in DSAC I, II, and III increased from 45.0 percent in
                   screening portfolio risk assessment (SPRA) that fall         FY 2008 to 46.2 percent at the end of FY 2009 due to the
                   in Dam Safety Action Class (DSAC) I, II or III.              identification of additional dams. Dams with completed
                                                                                SPRAs fell short of the target due to extensive spring
          n	 Relative loss of life. The total relative annualized               flooding in the Red River and Missouri Basins; however,
                   loss of life per dam.                                        estimated relative loss of life per dam decreased. An
                                                                                additional 70 dams will be counted as FY 2010 completions
          n	 DSAC I, II, and III projects. The number                           and, in that fiscal year, all SPRAs will be concluded and
                   of DSAC I, II, and III projects underway or                  interim risk reduction plans implemented at the DSAC I, II,
                   completed during the applicable year.                        and III dams.




Table 2. Construction & Investigation—Flood Risk Management

                                                                                                                                       FY 2009




                                                                                                                                                              U.S. Army Corps of Engineers - Civil Works Fund
                                                                                 FY 2006        FY 2007        FY 2008         Target         Actual
                                                                                   Note 1         Note 1

                   Expenditures in millions of dollars                            $1,512         $1,774         $1,107         $1,130         $1,343
                   Additional people protected (in thousands)                       121            142              0            741             645
                   Flood damage prevented (in millions of dollars)                 $56.1          $55.6           $0.0          $19.7          $10.4
    Construction




                   Ten-year moving average (in millions of dollars)                $20.1          $20.1          $22.3                  Note 2
                   Dam safety projects                                                           55.7%          45.0%          45.0%          46.2%
                   Relative loss of life                                          Note 3          0.81            0.95           0.95            0.95
                   DSAC I, II, and III projects                                                     10             56             80             56
                   SPRA assessments completed                                        61             71            185            220             66
Note 1: Prior-year funds were for the total of all expenditures in the coastal and flood damage reduction program and should not be compared to the FY 2008
construction expenditures.
Note 2: Data are collected from actual floods occurring throughout the year, and data become available in March following the year of interest. The Corps
makes no predictions or targets year-to-year; data are used for trend analysis only.
Note 3: Data not available prior to FY 2007.



                                                                                                                                                                11
                                                                            One of the two miter gates of the auxiliary
                                                                            Locks 27 in Granite City, Illinois. Each
                                                                            gate (also refered to as a leaf) is 61-feet
                                                                            wide by 70-feet tall and weighs 430,000
                                                                            pounds.
In FY 2009, the USACE Levee Safety Program initiated
periodic inspections of levees to 1) verify proper operation
and maintenance; 2) evaluate operational adequacy and
structural stability; and, 3) identify components and
features to monitor over time. Also, a new Web-based
Levee Screening Tool is being used to 1) rank levees by         Goal 2: Repair Past Environmental Degradation and
risk factor; 2) communicate issues to drive actions; 3)         Prevent Future Environmental Losses
recommend interim risk reduction measures to improve
public safety; and 4) prioritize next steps to focus highest
                                                                Aquatic Ecosystem Restoration
risk areas. USACE initiated a one time, accelerated program
of periodic inspections of federal levees under the ARRA.       Objective: Restore the structure, function and process of
Concurrently, during FY 2008 and FY 2009, the USACE                        significantly degraded ecosystems to allow them
chaired and provided staff support to the National Levee                   to revert to a more natural condition. Invest in
Safety Committee. The recommendations of this committee                    restoration projects or features that positively
are consistent with USACE levee safety activities and future               contribute to the nation’s environmental
plans.                                                                     resources in a cost-effective manner.

                                                                Funding History: The first row of Table 3 displays the
Hydropower
                                                                funding for aquatic ecosystem restoration.
Objective: To invest in hydropower solutions when benefits
           exceed costs.                                        Performance Indicators: The Corps has established four
                                                                indicators to assess progress in meeting this objective. It
Performance Indicators: The availability of hydroelectric       began collecting performance data for three of these
generating units during peak power-demand periods.              indicators during fiscal years 2005 and 2006. Data are
Indicators of successful performance in meeting this            shown in Table 3.
objective are measured by generating capacity and forced
outage rates.                                                        n	 Acres of habitat restored, created, improved,
                                                                          or protected—annual. The number of acres of
Performance Result: The Corps uses the same indicators as                 habitat restored in degraded ecosystems.
in Goal 3; please see Table 9.




12 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
      n	 Nationally-significant acres of habitat restored,                        and Ship Canal, which prohibits Asian carp from entering
           created, improved or protected—annual. The                             the Great Lakes from the Mississippi River. Physical
           number of acres of habitat restored each year that                     construction was completed at 14 projects resulting in
           have high-quality outputs as compared to national                      10,480 restored acres, approximately 13 percent of which are
           needs.                                                                 nationally significant. Advancements were also made on a
                                                                                  significant number of studies exploring ecosystem restoration
      n	 Cost per acre to restore, create, improve or                             options in a variety of diverse ecosystems across the
           protect nationally-significant habitat. The                            country, to include the Louisiana Coastal Area Ecosystem
           per-acre cost of projects that produce nationally-                     Restoration.
           significant acres in any given year. Over the long
           term, through efficiencies in project execution or
           other actions, the goal is to restore the most acres                   Regulatory
           per dollar expended.
                                                                                  Objective: To administer the regulatory program in a
      n	 Number of projects or separate elements                                             manner that protects the aquatic environment
           physically completed. The actual number of                                        (ensures zero net-loss of wetlands) while making
           projects or separate elements physically completed                                timely, fair permit decisions.
           in the current fiscal year. Performance of the
           other measures is directly dependent upon this                         Funding History: The first row of Table 4 displays the
           performance factor.                                                    program’s funding.

Performance Results Significant progress was made on                              Performance Indicators: Table 4 lists eight measures that
Everglades South Florida/Central and South Florida projects,                      serve as performance indicators in determining progress in
most notably the restoration of the Kissimmee River, the                          meeting this objective.
Seminole Big Cypress Restoration, Manatee Pass-Through
Gates and the South Dade County C-111 modification                                      n	 Individual permit compliance. The percent of all
as well as the response to the biological opinion on the                                      individual permits on which the Corps completed
Columbia River system and Missouri River. Construction                                        an initial compliance inspection; measures permits
progressed on the restoration of Poplar Island, MD,                                           issued during the previous fiscal year when
Hamilton Airfield Wetlands, CA, Upper Mississippi River                                       authorized work began.
Restoration, and modifications to the Chicago Sanitary




                                                                                                                                                                 U.S. Army Corps of Engineers - Civil Works Fund
Table 3. Aquatic Ecosystem Restoration Indicators

                                                                                                                                        FY 2009
                                                                             FY 2006         FY 2007          FY 2008           Target           Actual
                                                                                                                Note 1

 Expenditures in millions of dollars                                           $516             $340             $429            $517             $492
 Acres of habitat restored, created, improved or
 protected (annual)                                                           6,600            4,838            2,435           10,200           10,480
 Nationally significant acres of habitat restored,
 created, improved or protected (annual)                                      5,500            2,987            1,986            1,700            1,380
 Cost per acre to restore, create, improve or protect
 nationally significant habitat                                               $9,800          $6,800           $6,700           $8,000           $6,600
 Number of projects/separable elements physically
                                                                                               Note 2
 completing                                                                                                                        16               14
Note 1: Beginning in FY 2008, this business program credits acres in the year physical construction is completed instead of the last year that the project was
budgeted in the construction account. This is due to the increased use of fully-funded contracts and funding of the out-year monitoring requirements.
Note 2: New measure; FY 2009 will be first year of reporting.



                                                                                                                                                                   13
        n	 General permit compliance. The percent of all                       jurisdictional determinations. The regulatory program
              general permits on which the Corps completed an                  continues to experience high levels of scrutiny from the
              initial compliance inspection; measures permits                  public, elected officials, and interest groups as development
              issued during the previous fiscal year when                      pressures mount and national public awareness of the
              authorized work began.                                           importance of aquatic resources increases. Court decisions at
                                                                               the local, state, regional, and national levels continue to drive
        n	 Mitigation site compliance. The percent of                          program adjustments. In addition, heightened sensitivity
              field compliance inspections completed on active                 to the functions and value of wetlands has brought about
              mitigation sites each fiscal year. Active mitigation             greater direct input from the public, environmental and
              sites are those authorized and monitored through                 development interest groups, and from federal and state
              the permit process, but which have not met final                 resource agencies. This fact has led to greater scrutiny, and
              approval under the permit special conditions.                    subsequent controversy, in the review of permit proposals.
        n	 Mitigation inspections or audits. The percent
                                                                               The Corps has implemented several initiatives to speed the
              of compliance inspections or audits completed
                                                                               permit decision process and improve environmental review
              on active mitigation banks and in-lieu-of-fee
                                                                               and documentation. In several districts, the regulatory
              programs.
                                                                               program arranged Lean Six Sigma analyses of the individual
        n	 Resolution of non-compliance issues. The                            permit process in an effort to streamline it and reduce
              percent of non-compliance issues identified                      waste. The program continues to improve a nationwide
              during the fiscal year in which the Corps reached                spatial database that tracks all Corps’ permits, thereby
              resolution. This addresses non-compliance with                   enabling better decision-making and more efficient permit
              permit conditions.                                               processing. Through a nationwide network of subject matter
                                                                               experts, the Corps is implementing a program to increase
        n	 Resolution of enforcement actions. The percent                      use of programmatic general permits, which will expand
              of pending enforcement actions, i.e., unauthorized               overall technical expertise and reduce the number of routine
              activities, identified during the fiscal year in which           Corps actions. All these initiatives directly support the
              the Corps reached resolution.                                    Corps’ efforts to expedite permit review while improving
                                                                               environmental analysis and documentation.
        n	 General permit decisions. The percent of general
              permit application decisions made within 60 days.
                                                                               Environmental Remediation (Formerly Utilized
        n	 Individual permits. The percent of general
                                                                               Sites Remedial Action Program-FUSRAP)
              individual permit application decisions made
              within 120 days. This standard does not include                  Objective: To achieve the cleanup objectives of the
              individual permits with formal Endangered Species                           FUSRAP, the Corps uses three outcome
              Act consultations.                                                          measures to indicate progress: 1) minimize
                                                                                          risk to human health and the environment; 2)
Performance Results
                                                                                          maximize the cubic yardage of contaminated
                                                                                          material disposed in a safe and legal disposal
Fiscal year 2009 funds were used to hire and support
                                                                                          facility; and 3) return the maximum number of
regulatory personnel analyzing projects and making permit
                                                                                          affected individual properties to beneficial use.
decisions, completing necessary compliance efforts on issued
permits, and investigating and resolving instances of alleged
                                                                               Funding History: The first row of Table 5 displays funding
unauthorized activities within the nation’s waters.
                                                                               for environmental remediation.
Promulgation of guidance associated with the Supreme
                                                                               Performance Indicators: The measures listed in Table
Court decision on the Carabell and Rapanos1 cases
                                                                               5 serve as indicators to help Corps’ personnel determine
significantly increased the staff workload for many


1
    Rapanos v. United States and Carabell v. Army Corps of Engineers 126 S. Ct. 2208 (2006).


14 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Table 4. Regulatory Indicators

                                                                                                               FY 2009
                                                                       FY 2006 FY 2007 FY 2008            Target      Actual
 Expenditures in millions of dollars                                     $158       $159       $176        $183        $190
 Percent of compliance inspections on individual permits                 41%        11%        22%         10%         25%
 Percent of compliance inspections on general permits                    7%          7%         7%          5%         11%
 Percent of active mitigation sites inspected                            10%         7%        18%          5%         37%
 Percent of compliance inspections on active mitigation banks            26%        63%        39%         20%         44%
 Percent resolution on non-compliance with permit conditions
 or mitigation requirements                                              37%        56%        28%         20%         38%
 Percent resolution on pending enforcement actions                       60%        82%        34%         20%         37%
 Percent of general permit application decisions made within 60
 days                                                                    82%        78%        82%         75%         88%
 Percent of standard permits and letter of permission permit
 decisions made within 120 days                                          61%        53%        51%         50%         64%



progress in meeting this objective. In addition to the                 n	 Individual properties returned to beneficial
indicators explained below, the Corps has begun to measure                 use. Number of properties released for general use
both the cumulative percentage of FUSRAP funding                           following remediation.
expended on actual cleanup activities as well as the total cost
of disposing of contaminated material.                                 n	 Number of remedies in place or response
                                                                           complete. As select portions of sites or complete
     n	 Number of records of decision (ROD) signed.                        sites meet their remedial action goals, risks to
          As studies are completed and best alternatives                   human health and the environment are reduced
          for cleanup activities are decided, the number of                to within acceptable levels. Properties may
          RODs increases. A final ROD establishes the                      be used within a community without fear of
          final cleanup standard, which controls the actual                increased cancer risk or further degradation of the
          estimate of the remaining environmental liability                environment.




                                                                                                                                 U.S. Army Corps of Engineers - Civil Works Fund
          for each site.
                                                                       n	 Percentage of funding expended on cleanup.
     n	 Number of remedial investigations (RI)                             The cumulative percentage of FUSRAP funding
          completed. The RI establishes the baseline risk                  expended on cleanup activities rather than
          assessment whereby the level of risk to human                    on studies. The baseline for this measure was
          health and the environment is identified.                        established in FY 2004; results are reported every
                                                                           three years.
     n	 Number of action memorandums signed.
          Where warranted by risk or other limiting factors,           n	 Remediation of contaminated material. The cost
          action memorandums allow the Corps to move                       to dispose of contaminated material as measured
          toward reducing risk more rapidly than through                   in cubic yards. Data for this measure will not be
          production of a ROD. No action memorandums                       available until late FY 2009.
          are presently identified.
                                                                  Performance Results
     n	 Cubic yardage of contaminated material
          disposed. Target soil amounts are dependent on          Fiscal year 2009 funds were used to continue remedial
          previous-year funding and scheduled activities.         activities at the Linde, Maywood, Shpack, St. Louis Vicinity
                                                                  Property, St. Louis Downtown, Iowa Army Ammunition


                                                                                                                                   15
Table 5. Remedial Action Indicators

                                                                                                                                  FY 2009
                                                                                  FY 2006        FY 2007       FY 2008      Target     Actual
 Expenditures in millions of dollars                                                 $139          $138             $132    $140        $127
 Number of RODs signed                                                                 2              5              2        3             1
 Remedial investigations completed                                                     4              0              2        2             1
 Action memos signed                                                                   1              0              0        0             0
 Contaminated material removed (in thousand cubic yards)                            225.0          185.6            153.8   105.0      142.9
 Individual properties returned to beneficial use                                     15             27              40      52             61
 Remedies in place or response complete                                                0              4              0        1             0
 Percentage of funding expended on cleanup                                                 Note 1               84.3%             Note 1
 Cost of remediation of contaminated material per cubic yard                                      Note 2                    $600        $496
Note 1: This was a new measure for FY 2008. The measure is cumulative and data will be reported every third year.
Note 2: Data collection on this measure began in FY 2009.



Plant, HISS/Latty, and W.R. Grace sites. The actual amount                     The program implemented a new approach to cost and
of contaminated soil or material removed was increased due                     schedule risk analysis using a Monte Carlo approach to
to the availability of ARRA funds. Approximately 142,899                       predict and quantify cost and schedule risks. This approach
cubic yards of contaminated material were removed and,                         has improved, and will continue to greatly improve,
of this amount, 7,874 cubic yards were a direct result of                      the Corps’ future performance and ability to repair past
ARRA funding. Remedial investigations continued at all                         environmental damage.
other FUSRAP sites. A record of decision document was
completed at the Seaway site. The Corps set a goal of $600
for the cost of remediating one cubic yard of contaminated                     Goal 3: Ensure that Projects Perform to Meet
material. The program successfully met this goal; the current                  Authorized Purposes and Evolving Conditions
cost to remediate one cubic yard of contaminated material
is $496. As a result of remedial activities completed in                       Navigation
FY 2009, 21 (61 cumulative) properties have been returned
to beneficial use.                                                             Objective: Improve the efficiency and effectiveness of
                                                                                          existing Corps’ water resource projects by
The program met or exceeded four of seven FY 2009                                         maintaining justified levels of service to
performance indicators. The exceptions were the metrics                                   commercial traffic of high-use infrastructure,
that measured the number of RODs signed, remedy in place                                  e.g., waterways, harbors, channels.
(RIP), and number of remedial investigation documents
signed. The Corps did not complete the RODs for the                            Objective: Address the operations and maintenance
Colonie and Harshaw sites as planned, and the ROD for the                                 (O&M) backlog on all operating projects
Colonie site is expected to be completed in FY 2010. At this                              by funding high-priority operations and
time, there is no updated schedule for the completion of the                              maintenance projects.
Harshaw site IA-6 operable unit ROD. The Linde site was
scheduled to have an RIP in FY 2009; however, this did not                     Funding History: The first row of Table 6 displays funding
occur, and there is no updated schedule for its completion.                    for the operation and maintenance of the navigation
An RI document was completed as scheduled at the Dupont                        program.
site. The Guterl RI document was not completed, but
completion is expected in FY 2010.                                             Performance Indicators: To measure progress in meeting
                                                                               Goal 3 objectives, the Corps uses performance indicators


16 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
that 1) relate to operation and maintenance activities               n	 Efficiency measure. Operation and maintenance
for inland and intracoastal waterways and coastal ports                   costs per ton of cargo shipped. Assesses the
and harbors, and 2) relate to the efficiency of the overall,              efficiency of the commercial navigation system at a
combined navigation system. Indicators are described below                particular coastal port or harbor.
and their measures are shown in Table 6.
                                                                 The Corps developed new performance measures and began
Operation and maintenance measures for inland and                data-gathering in FY 2008. Data will not be reported until
intracoastal waterways                                           FY 2010.

     n	 Ton-miles. The sum total of movement of cargo                n	 Channel availability, high-use projects. The
         on the waterways; this measure is a roll-up of tons              percent of time that inland and intracoastal
         of cargo transported by a vessel multiplied by the               waterway segments with high commercial activity
         miles that vessel traveled on the inland waterways.              are available when customers want to use them.
         Although there is no specific Corps-generated                    The focus is to minimize vessel draft restrictions




                                                                                                                                U.S. Army Corps of Engineers - Civil Works Fund
         target, this indicator is used for trend analysis.               due to shoaling of the channels, and to minimize
                                                                          local closures due to mechanical failures.
     n	 Segment availability. Number of hours, over 24,
         that mechanical-driven failure or shoaling results          n	 Percent of high-use segments with a good service
         in the closure of all or part of a high- or moderate-            level. Percent of high commercial-use segments
         commercial-use segment. The measure includes                     with sufficient preventive maintenance to achieve
         only failures on the main chamber of a lock (rather              a good level of service. High-use segments are the
         than an auxiliary chamber), and on shoaling due to               upper- and lower- Mississippi, the Illinois, Ohio
         inadequate dredging (rather than low water levels                and Tennessee Rivers and the Gulf Intracoastal
         from droughts or channels closed due to floods). It              Waterway.
         also tracks closures of more than one week.

     n	 Total funds expended per segment ton-mile
         (five-year rolling average). Total O&M funds
         expended per segment ton-mile averaged over a
         five-year period, including major rehabilitations.
                                                                            The U.S. Army Corps of Engineers’ St.
                                                                            Paul District dredging fleet in front of St.
                                                                            Paul, Minnesota.                                      17
Operations and maintenance measures for coastal ports             waterway width and depth through dredging operations has,
and harbors, including major repairs                              by far, the greatest impact.

     n	 Tons of cargo. Total sum of cargo in tons moved           Performance Results—Operation and Maintenance
         in and out of coastal ports and harbor systems.
         This measure indicates system use; data collected        The O&M appropriations and the Mississippi River and
         are for the purpose of trend analysis. No specific       Tributaries appropriations were used to fund 1) continued
         target is generated by the Corps.                        operation and maintenance of 241 locks at 195 locations,
                                                                  and 2) maintenance dredging of critical and high
     n	 Channel availability, high-use projects. The              commercial-use reaches of the 11,000 miles of inland and
         percent of time that high commercial-traffic             intracoastal waterways. Not all waterways were maintained
         navigation channels are available to commercial          at authorized dimensions. Many locks and dams forewent
         users. There are a total of 59 high-use projects,        all but the most critically-needed maintenance, and some
         defined as those that pass 10 million or more tons       locks, dams, and waterways were only maintained in
         of cargo per year.                                       caretaker status. The overall condition of the inland and
In FY 2008, the Corps instituted new performance                  intracoastal waterways is expected to decline, and projects
measures and began gathering data. Data will be reported as       will continue to experience lock closures due to mechanical
beginning in FY 2010.                                             breakdowns and failures.


     n	 Channel availability, moderate-use projects. The          Funding also enabled maintenance dredging of high-use,
         percent of time that moderate commercial-traffic         commercially important coastal ports, harbors and channels;
         navigation channels are available to commercial          critical harbors of refuge; and subsistence harbors. Many
         users. There are a total of 100 moderate-use projects    moderate- and low-commercial-use harbors and channels
         that are defined as those passing 1-10 million tons of   were not dredged and continue to shoal, further limiting
         cargo per year.                                          vessel drafts. For the 59 highest-use coastal ports and
                                                                  harbors, channel conditions are expected to continue to
     n	 Channel availability, low-use projects. The               decline due to large increases in the costs of doing business,
         percent of time that low commercial-use channels,        particularly as they relate to fuel, steel and labor. Dredging
         harbors and ports are available to all current users.    costs have increased an estimated 27 percent over the past
         There are about 1,000 low-use projects that are          three years. For these projects, authorized channel depths
         defined as those passing less than one million tons      (for the channel’s center half) were available approximately
         of cargo per year.                                       35 percent of the time during fiscal years 2005-2007. The
                                                                  condition of moderate-and low-use inland and intracoastal
Performance Results                                               waterways, as well as coastal ports and harbors, is expected to
                                                                  continue to decline.
The program continues to be successful in providing
significant navigation benefits to the nation; however, the       The ARRA provided an additional $1 billion in O&M
program faces significant challenges in its efforts to maintain   funding that will be expended by the end of FY 2010.
the reliability of the inland and intracoastal waterways and      Numerous contract awards were made during the second
coastal navigation system. The system’s aging infrastructure      half of FY 2009 to perform additional maintenance of
requires more repairs than the Corps can accomplish given         inland and intracoastal waterways and to perform additional
the historical level of program appropriations. These same        dredging and maintenance of coastal ports and harbors.
funding shortfalls, coupled with increased costs in dredging      These funds should help improve the overall condition of the
operations and construction, are affecting the Corps’ ability     inland and intracoastal waterways, help reduce lock closures
to properly maintain its infrastructure and channels. There       due to mechanical breakdowns and failures, and help
has been a 27-percent increase in dredging costs in recent        improve the conditions of high and moderate use coastal
years, which corresponds to the near doubling of fuel             ports and harbors.
purchasing costs and similarly significant increases in steel
and labor costs. Although other factors may limit or control
channel availability, the ability to maintain an acceptable

18 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Table 6. Navigation Program, Operation and Maintenance Activities Performance Indicators

                                                                                                                               FY 2009
                                                                                        FY 2006 FY 2007         FY 2008    Target     Actual
                       Expenditures in millions of dollars                               $1,211        $1,298   $1,296     $1,264     $1,653
 Inland                Segment Availability—closures over 24 hours
 waterways             (thousands of hours)                                                 19            20      32         30          19
                       Total O&M funds expended per segment ton-
                       mile (5 year rolling average)                                    $0.0018       $0.0019             $0.0020
                       Ton-miles (in billions of ton—miles by fiscal
                                                                                                                Note 1     Note 2     Note 3
                       year)                                                               264           258
                       Efficiency—Cost per ton                                            $0.92         $0.92               $0.95
 Coastal ports         Tons of cargo (in billions of tons)                                2.042        2.042               Note 2
 and harbors
                       Channel availability, high use projects                            35%           32%      32%        32%       Note 1
Note 1: Data not available at time of printing.
Note 2: The Corps does not set targets for these measures.
Note 3: Waterborne Commerce Statistics Center data for FY 2009 will not be available until late spring 2010.




Flood Risk Management                                                                  n	 Marginal cost of operations. The marginal
                                                                                            cost of operations and maintenance for all
Objective: To reduce the risk to public safety and risk of                                  operating projects (dams, levees, channels, flood
           damages due to flooding and coastal storms                                       gates) relative to damages prevented; shown as a
           through the safe operation of flood damage                                       percentage, i.e., the cost of O&M divided by the
           reduction projects, as authorized.                                               cost of damages prevented.

Funding History: The first row of Table 7 presents                               Performance Results
operation and maintenance funding for flood risk
management.                                                                      FY 2009 funds were used to operate and maintain federal
                                                                                 projects and to inspect federal projects turned over to local
Performance Indicators: To measure progress in meeting                           sponsors. These resources supported coordination of federal
Goal 3 objectives, the Corps uses performance indicators                         reservoir operating schedules with private reservoirs within




                                                                                                                                                 U.S. Army Corps of Engineers - Civil Works Fund
that relate to operation and maintenance activities for flood                    the basin. Projects operated in their targeted relative risk
risk management. The indicators are described below and                          zones as represented by the indicator performance measures
their measures are shown in Table 7.                                             found in Table 7.

Operations and maintenance measures for the flood risk                           Funding was also used to support dam safety program
management program                                                               functions. This included: 1) monitoring and evaluating
                                                                                 performance (instrumentation) of all dams; 2)
      n	 Operating projects in zones 21-25 (High Risk).                          accomplishing routine dam safety-related maintenance and
           The percent of operating projects ( dams, levees,                     repairs; 3) performing all required inspections (periodic,
           channels, flood gates) in zones 21-25 of the relative                 post-earthquake, high-pool, etc.); 4) preparing emergency
           risk ranking matrix.                                                  action plans; 5) performing site-specific dam safety training
                                                                                 of project personnel; and 6) implementing force protection
      n	 Operating projects in zones 1-6 (Low Risk).                             security features.
           The percent of operating projects (dams, levees,
           channels, flood gates) in zones 1-6 of the relative
           risk ranking matrix.



                                                                                                                                                   19
Table 7. Operations and Maintenance—Flood Risk Management
                                                                                                                                         FY 2009
                                                                                     FY 2006       FY 2007        FY 2008        Target        Actual
                                                                                       Note 1         Note 1

                       Expenditures in millions of dollars                            $1,512         $1,774         $678          $449          $858
                       Operating projects in zones 21-25 (High Risk)                                                  96            68           50
 Operations &
                       Operating projects in zones 1-6 (Low Risk)                             Note 2                  49            28           74
 Maintenance
                       Marginal cost of operations                                                                  1.3%          1.2%          3.7%

Note 1: Prior-year funds were for the total of all expenditures in the flood risk management program and should not be compared to the FY 2008 and following
year’s O&M expenditures.
Note 2: New measure for FY 2008, the first year data were collected.




Environmental Stewardship                                                                   the total number of acres of designated Corps-
                                                                                            administered mitigation lands. The measure
Objective: To improve the efficiency and effectiveness of                                   can also be the number of pounds of fish (or
           existing Corps water resources projects.                                         the number of individual fish) produced in a
                                                                                            mitigation hatchery, divided by the number of fish
Objective: To ensure healthy and sustainable lands and                                      required to be produced at a mitigation hatchery in
           waters and associated natural resources on                                       order to meet the mitigation requirement.
           Corps lands in public trust to support multiple
           purposes.                                                                  n	 Endangered species protection. The percent of
                                                                                            Corps operating projects with Endangered Species
Objective: To protect, preserve, and restore significant                                    Act responsibilities that meet those responsibilities.
           ecological resources in accordance with master
                                                                                      n	 Cultural resources management. The percent
           plans.
                                                                                            of Corps operating projects that meet federally-
                                                                                            mandated cultural resource management
Objective: To ensure the operation of all civil works                                       responsibilities in relation to the number of
           facilities and management of associated lands—                                   projects with such responsibilities.
           including out-granted lands—complies with the
           environmental requirements of relevant federal,                            n	 Healthy and sustainable lands and waters. The
           state and local laws and regulations.                                            number of Corps fee-owned acres classified in a
                                                                                            sustainable condition divided by the total number
Objective: To meet the mitigation requirements of                                           of Corps fee-owned acres. Sustainable is defined
           authorizing legislation or applicable Corps                                      as being healthy and viable, not significantly
           authorization decision documents.                                                impacted by any unmanageable factors, and not
                                                                                            requiring intensive management to maintain
Funding History: The first row of Table 8 shows the                                         health. The acreage also meets operational
funding for environmental stewardship.                                                      goals and objectives established in applicable
                                                                                            management documents.
Performance Indicators: To measure success in attaining
the objectives above, the Corps developed seven performance                           n	 Level-one natural resources inventory
indicators. Data on these indicators may be found in                                        completion index. This measures the Corps’
Table 8.                                                                                    efforts in completing basic, level-one natural
                                                                                            resource inventories required by USACE
                                                                                            Environmental Regulation 1130-2-540,
      n	 Mitigation compliance. A percentage of the acres
                                                                                            Environmental Stewardship Operations and
           of designated Corps-administered mitigation lands
                                                                                            Maintenance Policies. These inventories are
           that meet mitigation requirements, divided by


20 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
           necessary to effect sound resource management                          Performance Results
           decisions and strategy development. The
           percentage of acres for which level-one inventories                    The environmental stewardship program achieved
           are necessary and completed is used to evaluate the                    100 percent of its performance targets in both the mitigation
           relative performance in this measure.                                  and endangered species. Of the projects with cultural
                                                                                  resources requirements, 67 percent were able to meet all
      n	 Master plan completion. A master plan is                                 their responsibilities and the other 33 percent were able to
           completed, per regulation, to foster an efficient                      meet some of their responsibilities. The Corps inventoried
           and cost-effective project for natural resources,                      approximately 50 percent of the lands for which it needed
           cultural resources and recreational management                         to complete level one natural resources inventories; the
           programs. This measure demonstrates the Corps’                         other 50 percent typically had some information gathered,
           commitment to fully integrate environmental                            but were incomplete, e.g., wetlands mapped, but soils not
           stewardship in the management of operating                             catalogued.
           projects. The measure is expressed as a percentage
           derived by dividing the number of required master                      In this fiscal year, lands and waters in healthy and sustainable
           plans in compliance with regulation by the total                       condition are estimated at only 38 percent of total Corps
           number of required master plans.                                       fee-owned acres, due in part to insufficient funding levels to
      n	 Efficiency. This concept is represented by                               achieve significant improvement after meeting the critical
           program costs recovered in cents-on-the- dollar.                       requirements of mitigation compliance and endangered
           The objective is to manage projects in an efficient                    species protection.
           manner. This measure is an assessment of
           federal costs avoided in relation to the program                       The master plan completion rate is 27 percent, primarily due
           cost. Revenue recovered each year, equivalent                          to insufficient funding coupled with the fact that complete
           to the federal costs avoided, will vary due to the                     revision of a master plan for a large project typically costs
           nature and extent of the sustainability practices                      $200,000 and takes several years.
           implemented. The program emphasis, however,
           is on resource sustainability as opposed to revenue                    The program efficiency was $0.11 per dollar as revenues
           generation.                                                            generated were minimal.




Table 8. Environmental Stewardship Indicators




                                                                                                                                                                U.S. Army Corps of Engineers - Civil Works Fund
                                                                                                                                         FY 2009
                                                                                 FY 2006         FY 2007         FY 2008          Target          Actual
 Expenditures in millions of dollars                                               $124            $113            $134             $97            $105
 Mitigation compliance                                                             61%             86%            100%            100%            100%
 Endangered species protection                                                            Note 1                  100%            100%            100%
 Cultural resource management                                                     Note 2           63%             72%             67%             67%
 Healthy and sustainable acreage                                                   21%             18%             24%             38%             39%
 Level-one natural resources inventory completed                                   38%             40%             46%             50%             50%
 Master plans completed                                                            27%             27%             27%             27%             24%
 Efficiency (in cents-on-the-dollar)                                               $0.10           $0.12           $0.11          Note 3           $0.11
Note 1: This measure became effective in FY 2008.
Note 2: This measure was added at the end of FY 2006; FY 2007 is the first year of complete data.
Note 3: In order to ensure that revenue generation is not emphasized at the expense of sustainability, the Corps does not set annual efficiency targets. This
indicator is used for trend analysis.



                                                                                                                                                                  21
                                                                            Sails line the beach at Black Butte Lake
                                                                            near Chico, California.


Hydropower

Objective: To improve the efficiency and effectiveness of
           existing Corps water resource projects. The
           Corps seeks to maintain a high level of reliability
           and peak availability of hydroelectric power-                  outage rate, the more reliable and less expensive the
           generating capability at multipurpose reservoir                electrical power provided to the customer.
           projects.
                                                                      n	 Electrical reliability standards met. The percent
Funding History: The first row of Table 9 shows capital                   of Federal Energy Regulatory Commission (FERC)
improvements and operation and maintenance expenditures                   and the National Electric Reliability Council-
for the hydropower program over the past three-year period.               approved electric reliability standards that are
                                                                          met or exceeded by the program. The FERC
Performance Indicator: Performance indicator results and                  has no jurisdiction over the Corps’ hydropower
targets for the year are displayed in Table 9.                            program; however, the Corps takes reliability
                                                                          seriously and has voluntarily chosen to comply
                                                                          with all applicable FERC standards, subject to the
     n	 Percent of time units are available to produce
                                                                          availability of resources.
         power. The amount of time during a given year
         that hydroelectric generating units are available       Performance Results
         to the Power Marketing Administration’s (PMA)
         interconnected system.                                  Table 9 shows an increase in FY 2009 funding for
     n	 Percent of time available during periods of peak         the hydropower program. Approximately 40 percent
         demand. The amount of time during daily peak-           of appropriations did not go toward performance
         demand periods that hydroelectric generating units      improvements, e.g., replacements, major maintenance, or
         are available to the PMA’s interconnected system.       reduction in backlogged maintenance. Instead, these funds
                                                                 were used to mitigate impacts on endangered fish species in
     n	 Percent of forced outages. The percent of                the Pacific Northwest.
         time generating units are in an unscheduled or
         unplanned outage status. The lower the forced           The length of time hydropower generating units were
                                                                 actually available to produce power increased slightly when




22 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Table 9. Hydropower Indicators

                                                                                                                                         FY 2009
                                                                                   FY 2006        FY 2007        FY 2008          Target         Actual
    Expenditures in millions of dollars                                              $288           $228            $237           $320           $299
    Percent of time units are available                                             87.0%          84.4%           85.9%          87.4%          86.4%
    Percent of time available during periods of peak demand                         88.7%          84.3%           86.1%          87.1%          87.8%
    Percent of time units are out of service due to unplanned
    outage                                                                           3.7%           4.7%           5.1%            4.5%           4.3%
    Electric reliability standards met                                                                             Note 1
Note 1: This measure was added during FY 2007 and developed during FY 2008 and FY 2009; FY 2010 will be the first year to report data.




compared to the previous year, while availability during                          Objective: To provide continued outdoor recreation
peak power-demand periods increased above the target                                         opportunities to meet the needs of present and
for FY 2009. This slight improvement, when compared                                          future generations.
to recent historical trends, speaks to successes associated
with increased funding. The industry standards for                                Objective: To provide a safe and healthful outdoor
availability and peak availability are 98 and 95 percent,                                    recreation environment for Corps’ customers.
respectively. Table 9 shows FY 2009 program performance
for availability and peak availability to be approximately                        Funding History: The first row of Table 10 shows the
10 and 6 percentage points below the industry standard,                           funding, in actual expenditures, for the recreation program.
respectively. The hydropower program standard metric used
for forced outages is 2 percent. Due primarily to funding                         Performance Indicators: The measures listed in Table
constraints, the program’s forced outage performance is                           10 determine progress in meeting the Corps’ recreation
2.27 percentage points above the industry standard; however,                      efficiency, service, and availability objectives. These
it is 0.23 percentage points below the FY 2009 target.                            indicators are explained below.

The Corps’ corporate electric reliability plan was approved                             n	 Total National Economic Development (NED)
in September 2009. When fully implemented, it will                                           benefits. NED2 benefits are estimated using




                                                                                                                                                                U.S. Army Corps of Engineers - Civil Works Fund
provide guidance for the program’s voluntarily compliance                                    the unit day-value method, which was originally
with FERC electric reliability standards. Compliance                                         developed by the Water Resources Council.
performance will be fully measured for the first time in
FY 2010.                                                                                n	 Benefit-to-cost ratio. This is the ratio of NED
                                                                                             benefits to actual program expenditures or budget.

Recreation                                                                              n	 Cost recovery. Measures the percent of total
                                                                                             recreation receipts to the recreation budget.
Objective: To provide justified outdoor recreation
           opportunities in an effective and efficient                                  n	 Park capacity. Measures the capacity of facilities
           manner at all Corps-operated water resources                                      to provide recreation opportunities, expressed in
           projects.


2
 NED benefits arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation opportunity.
The unit-day-value method relies on expert or informed opinion and judgment to approximate the average user’s willingness to pay for federal or federally-
assisted recreation resources. The unit-day-value is estimated at the park (recreation area) level by evaluating each park according to a set of published
criteria. By applying a carefully thought-out and adjusted unit-day-value to estimated use, an approximation can be obtained for use as an estimate of
project recreation benefit, i.e., NED benefits = Unit Day Value X Recreation Use in Visitor Days.



                                                                                                                                                                  23
Table 10. Recreation Indicators

                                                                                                                                               FY 2009
                                                                                    FY 2006          FY 2007         FY 2008           Target           Actual
    Expenditures in millions of dollars                                                $291            $299             $309            $277             $297
    Total NED benefits (in millions of dollars)                                      $1,271           $1,353           $1,452          $1,171           $1,424
    Benefit-to-cost ratio                                                              4.46             4.49            4.70             4.32             4.61
    Cost recovery                                                                      16%             16%              16%              16%             16%
    Park capacity (in millions of days)                                                 74               74               74              74               74
    Number of visitors (in millions of visits)                                         131              132              137             127              132
    Visitor health and safety services                                                 50%             50%              48%              47%             47%
    Facility service                                                                   48%             48%              47%              44%             45%



            millions of days/nights that recreation units were                       Performance Results
            available for use.
                                                                                     Program funding decreased in inflation-adjusted terms
        n	 Number of visitors. Total number of visitors to                           from FY 2008 to FY 2009. As a result, some performance
            Corps-managed parks, expressed in millions of                            measures increased slightly or, at best, remained the same.
            people.                                                                  Only 47 percent of people who visited Corps’ parks were
        n	 Visitor health and safety services. This measure                          served at acceptable health and safety service levels. Also,
            is expressed as a percentage of visitors to Corps-                       just 45 percent of visitors at Corps’ parks rated the facilities
            managed recreation areas who reported acceptable                         in acceptable condition.
            service.3 (Formerly titled, Customer Satisfaction,
            this measure has been revised to focus on the                            In an attempt to mitigate the combined results of reduced
            visitor’s experience related to service as opposed to                    funding and increasing demand, the Corps resorted to
            the condition of the facility. A separate measure,                       reductions in contract services and daily operating hours, as
            referencing visitor centers, is no longer used; visitor                  well as shortened recreation seasons.
            centers are a component of the recreation area.)

        n	 Facility service. The percentage of visitors served                       Water Storage for Water Supply
            at a Corps-managed recreation area with a facility
                                                                                     Objective: To provide municipal and industrial (M&I)
            condition score of 4 or better,4 who indicate their
                                                                                                water supply storage in a cost-efficient and
            experience was fair to good. (Formerly titled,
                                                                                                environmentally responsible manner in
            Facility Conditions, this measure was renamed
                                                                                                partnership with non-federal water management
            and slightly modified to emphasize service to the
                                                                                                plans, consistent with law and policy.
            public. The quality of a visitor’s experience and
            satisfaction with Corps’ facilities are directly related
                                                                                     Funding History: The first row of Table 11 displays funding
            to the facility condition.)
                                                                                     for water storage under the water supply program.




3
 A typical park in peak season for the region provides cleaning five days a week, two to three ranger patrols and visitor contacts daily, contract law
enforcement, periodic public safety programs, and ability to correct urgent repairs within one to three days.
4
  A facility condition score of 4 means the facility requires no more than routine maintenance (e.g., painting, caulking, asphalt patching, filling cracks) to
reduce visitor health and safety risks and environmental degradation.



24 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Performance Indicator: To assist in gauging program                                     n	 Percent of cost recovered. The percentage of cost
progress, the Corps uses measures relating to the acre-feet of                                 available for recovery compared to cost recovered.
water stored and cost-recovery measures. These are shown in
Table 11.                                                                               n	 Administrative yearly cost. Annual cost to collect
                                                                                               fees and administer contracts.
      n	 Acre-feet available. Of the total acre-feet of water
                                                                                        n	 Administrative yearly cost (input) per acre-
            stored in a reservoir, this number represents the
                                                                                               foot of storage under contract (output). This
            total acre-feet available for water supply.
                                                                                               efficiency measure describes the cost to provide
      n	 Acre-feet under contract. Of the acre-feet                                            water storage.
            available for water supply, this number represents
                                                                                  Performance Results
            the total number of acre-feet, for present and
            future use, under contract with state and local
                                                                                  Database development for the Corps’ M&I water supply
            interests.
                                                                                  projects and contracts transformed between the start of
      n	 Percentage under contract. The percentage                                FY 2006 and the end of FY 2009. This transformation
            of the acre-feet of water supply storage space                        changed the way the Corps collects data on its M&I
            under contract compared to the acre-feet of space                     contracts from a periodic paper data call to a computer
            available for water storage.                                          database. The loading of the M&I contract data required
                                                                                  an extensive review of all the documents, which, in turn,
      n	 Cost available for recovery. The Corps seeks                             resulted in changes to the performance indicators. The
            proportional reimbursement of capital cost for that                   database now includes 136 reservoir projects with 316
            portion of the reservoir allocated for water supply.                  agreements for M&I storage in 26 states. FY 2009 funding
            Cost available for recovery is the total estimated                    permitted completion of the National Portfolio Assessment
            capital cost of water supply allocations.                             for Reallocations. This study developed 1) a portfolio of
                                                                                  approximately 106 Corps reservoir projects suitable for
      n	 Cost recovered. Costs assigned to the water                              reallocation, 2) a list of 35 projects recommended as prime
            supply storage space that has been, or is, in the
                                                                                  candidates for reallocation within the next few years, and
            process of being recovered through repayment
                                                                                  3) a report addressing alternative funding for reallocation
            agreements.
                                                                                  studies.




                                                                                                                                                       U.S. Army Corps of Engineers - Civil Works Fund
Table 11. Acre-Feet of Water Storage

                                                                                                                                      FY 2009
                                                                                     FY 2006        FY 2007        FY 2008       Target     Actual
 Expenditures in millions of dollars                                                    $2.0            $2.5          $3.0        $6.0       $7.0
 Acre-feet available (in millions of acre-feet)                                          9.9            9.4            9.2         9.3       11.1
 Acre-feet under contract (in millions of acre-feet)                                     9.9            9.1            8.9         9.0       10.5
 Percent under contract                                                               94.5%          96.8%           96.7%       97.0%      94.6%
 Costs available for recovery (in millions of dollars)                               $1,492.9       $1,282.3       $1,285.2      $1,300.0   $1,429.0
 Costs recovered (in millions of dollars)                                            $1,117.9        $868.4         $932.2       $949.0     $935.0
 Percent recovered                                                                    74.9%          67.8%           72.2%       73.0%      65.5%
 Administrative yearly cost (in millions of dollars)                                                                  $1.2         $1.3       $1.0
 Administrative yearly cost per acre-foot of storage under                                     Note 1
 contract                                                                                                            $0.13        $0.14      $0.10
Note 1: These efficiencies measures were established at the end of FY 2007; FY 2008 is the first year that data are available.


                                                                                                                                                         25
The current funding level provides the minimum amount                          Funding History: The first row of Table 12 indicates
necessary to continue the water supply program on a                            funding for emergency preparedness and response and
caretaker basis. It does not commit the funds required to                      recovery operations.
generate the benefits that could be produced with adequate
funding. For example, funds are not available to conduct                       Performance Indicators: The four primary measures, listed
required sedimentation surveys, yield analysis studies to                      in Table 12, assist in determining progress toward meeting
assess the effect of recent droughts, or conduct studies of                    the Corps’ emergency management objectives. Indicators
water supply reallocation possibilities. These studies would                   are explained below.
help solve the water supply needs in many communities
across the nation.                                                                     n	 Planning response team readiness. The Corps
                                                                                           established designated planning and response
                                                                                           teams (PRT) that are organized to provide rapid
Goal 4: Reduce Vulnerabilities and Losses to the                                           emergency response within a specific mission area.
Nation and the Army from Natural and Man-Made                                              This measure is calculated as a percentage of time
Disasters, Including Terrorism                                                             during the fiscal year that PRTs are fully staffed,
The goal’s purpose is to manage the risks associated with all                              trained and ready to deploy.
types of hazards, and to increase the civil works emergency                            n	 Project inspection performance. The Corps
management program’s responsiveness to disasters in                                        performs inspections of flood control works
support of federal, state and local emergency management                                   operated and maintained by public sponsors to
efforts. Disaster preparedness and response capabilities are                               ensure and assess their operations and maintenance
not limited to water-related events, but also draw on the                                  condition. This measure is determined by the
Corps’ engineering skills and management capabilities in                                   percentage of scheduled inspections completed
responding to a broad range of natural disasters and national                              during the fiscal year.
emergencies. The Corps is mindful that emergency readiness
contributes to national security.                                                      n	 Damaged project restoration. The Corps repairs
                                                                                           flood control projects damaged by floods or
Objective: To attain and maintain a high, consistent state of                              storms under authority of Public Law 84-99. This
           preparedness.                                                                   measure is the percentage of projects damaged
                                                                                           during a fiscal year and repaired prior to the next
Objective: To provide a rapid, effective, and efficient all-                               flood season.
           hazards response.
                                                                                       n	 Project condition ratings. Under the Corps’
                                                                                           rehabilitation and inspection program, inspected
Objective: To ensure effective and efficient long-term
                                                                                           projects are given condition ratings characterizing
           recovery operations.


Table 12. Emergency Preparedness Indicators

                                                                                                                               FY 2009
                                                                            FY 2006         FY 2007        FY 2008      Target       Actual
                                                                              Note 1         Note 1          Note 1     Note 2        Note 1

 Expenditures in millions of dollars                                         $5,408         $1,561           $847        $40         $1,405
 Planning response team readiness                                             92%             72%             85%        91%          83%
 Project inspection performance                                               93%             97%             58%        93%          67%
 Damaged project restoration                                                  65%             29%             90%        35%          14%
 Project condition ratings                                                    95%             90%             79%        91%          79%
Note 1: Funding was provided in supplemental appropriations to repair projects damaged by coastal storm and flooding.
Note 2: The funding target for FY 2009 was to fund preparedness activities.



26 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
         their state of maintenance. This measure is the        plastic, and 136 pumps; it entered into 50 contracts to build
         percentage of total projects inspected during          approximately 70 miles of emergency levees during spring
         the fiscal year that received a rating of at least     floods.
         minimally acceptable.
                                                                Overall, the Corps achieved a 14 percent performance
Performance Results                                             rating for the completion of project repairs prior to the next
                                                                flood season. Repairs for all damaged projects have been
During FY 2009, the Corps maintained 41 national                funded, and construction will be completed during the fall
planning and response teams at a readiness rate of 85 percent   and winter of calendar year 2009, prior to the spring flood
fully manned, trained, and equipped. Teams are trained and      season.
prepared to deploy to a disaster area and provide assistance
for temporary power and housing, debris management,             In response to the severe Midwest flooding of 2008, the
water and ice commodities, temporary roofing, and               Corps created a Regional Interagency Levee Task Force,




                                                                                                                                 U.S. Army Corps of Engineers - Civil Works Fund
infrastructure assessment. The readiness rating exceeded the    which established an interagency partnership with regional
target rating due to increased focus on team training and       federal, state and local agencies in flood-impacted areas.
team reorganization for more efficient disaster response.       Its mission is to expedite and evaluate levee repairs and,
                                                                where applicable, provide nonstructural solutions to reduce
During FY 2009, the Corps conducted 67 percent (total           future flood risks and improve coordination of floodplain
of 294) of the scheduled inspections of flood damage            management. One non-structural solution was requested in
reduction projects. Performance below the target objective      Iowa.
resulted from the application of more technically rigorous
inspections, which limited the number of scheduled
inspections that could be conducted. Of the total projects
inspected, 79 percent received minimally acceptable or better
project condition ratings. Major flooding in Washington
resulted in damages to 38 projects. As of the printing
of this report, investigation, engineering, and design are
ongoing for all the damaged projects; interim repairs have
been completed on six critical projects. In North Dakota,
                                                                           Helping the city of Clarksville fight the
the Corps distributed 11.3 million sandbags, 4,201 rolls of
                                                                           Mississippi’s rising waters, and pointing
                                                                           out where the sandbag levee ties into
                                                                           higher elevation.                                       27
                                                                                Inland Waterways: Eleven inland waterway locks are over
Possible Future Effects of Existing                                             100 years old, and 122 are over 50 years old. In recent years,
Conditions                                                                      maintenance deferrals and delays in repairs and replacement
                                                                                of aging locks have driven up the number of unscheduled
Flood Risk Management                                                           lock closures. For example, closures due to mechanical
                                                                                breakdowns increased from less than 10,000 hours per year
The program’s goal is to reduce the nation’s risk to life                       in FY 2000 to more than 30,000 hours per year in FY 2008.
and damages due to flooding and coastal storms. The                             These closures have a negative effect on the economy by
nation faces increasing flood hazards, putting existing                         imposing costs on shippers, carriers, and electric utilities.
developments5 at risk. This is compounded by the fact                           For example, an unscheduled 52-day closure at Greenup
that new development continues to occur in flood-prone                          Locks and Dams in Ohio, cost shippers and carriers over
areas, often behind aging flood-control structures, which                       $53 million. Additionally, rehabilitations and improvements
include levees designed to provide agricultural rather than                     to inland waterways are jeopardized by the low balance in
urban protection. National flood damages, which averaged                        the Inland Waterways Trust Fund because half of the cost of
$3.9 million annually in the 1980s, nearly doubled in the                       improvements are derived from this fund.
decade 1995 through 2004. Total disaster assistance for
emergency response operations, and subsequent long-term                         Coastal Channels and Harbors: Existing high-volume
recovery efforts, increased from an average of $444 million                     channels and harbors were available only 35 percent of the
during the 1980s to $3.75 billion over the period 1995—                         time in FY 2006, and 32 percent of the time in FY 2007.
2004.                                                                           Inadequate channels negatively affect the economy by
                                                                                imposing costs on vessel operators that, in turn, are reflected
Significant investments are required to identify, evaluate,                     in the cost of imports and the price of U.S. exports. On
and maintain existing flood infrastructure, e.g., levees,                       average, failure to maintain one foot of channel depth
dams, beaches. This includes accounting for changes                             increases container shipping costs by about 6 percent.
in the frequency, magnitude, and location of storms, as                         Additional economic costs will accrue by postponing
well as changes in land use. The Corps is responsible for                       investment in deeper and wider channels that address
maintaining some of this infrastructure, while other entities                   projected future demand.
are responsible for the remaining infrastructure. Regardless
of ownership, all infrastructure elements must function as a
holistic system to be effective. In addition to infrastructure                  Environment: Aquatic Ecosystem
maintenance, new flood-risk management measures must be                         Restoration
studied, evaluated, and implemented in a timely fashion.
                                                                                The Aquatic Ecosystem Restoration sub-program’s goal is to
                                                                                restore to a more natural condition, aquatic habitat whose
The Marine Transportation System (MTS)                                          structure, function and dynamic processes have become
The MTS system is comprised of 1,000 harbor channels,                           degraded. To achieve its objectives, the Corps designs and
25,000 miles of inland, intracoastal and coastal waterways,                     constructs cost-effective projects that modify hydrologic and
and 241 lock chambers. The national MTS goal is to                              geomorphic characteristics.
provide a safe, secure, and globally-integrated network
that, in harmony with the environment, ensures reliable                         The call for aquatic ecosystem restoration is great; however,
movement of people and commerce along waterways, sea                            the challenge is to strike a sustainable balance between the
lanes, and intermodal connections. Today, approximately                         often conflicting demands for use and control of water
20 percent of the gross domestic product of the United                          resources. Climate change may make this balancing act
States is generated by foreign trade, and approximately                         even more difficult in the future. In FY 2009, the Corps
95 percent of that trade is moved by water. The value
                                                                                continued its research and development effort to field
of foreign tonnage is over $900 billion and it generates
                                                                                environmental benefit assessments that more objectively
16 million jobs. Current forecasts predict that maritime
trade will double, or possibly triple, in the next 20 years.                    evaluate aquatic ecosystem restoration projects. This will
                                                                                facilitate more consistent results as well as the ability to
                                                                                effectively build and evaluate a national program. In the


5
 Development in this context refers to cities, towns, houses, businesses, infrastructure, and other man-made objects that have been constructed in low-lying
areas or floodplains.


28 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
                                                U.S. Army Corps of Engineers - Civil Works Fund




Carlyle Lake Dam, near Carlyle, Illinois.
Looking southeast, this dam forms the
U.S. Army Corps of Engineers Lake Carlyle,
Illinois’ largest man-made lake, at 26,000
acres. The floating barrier in the foreground
provides added security for the facility and
safety for boaters.



                                                  29
absence of a standard metric, the Corps continues to work          Fund Balance with Treasury increased $9.7 billion
with other agencies and invest in research and development         (64 percent). The USACE received $5.8 billion of Disaster
to objectively evaluate disparate ecosystem restoration            Relief and Recovery Supplemental Appropriations during
projects and prioritize restoration needs. The Corps               1st Quarter, FY 2009, primarily for increased disaster relief
continues to try to fund a balanced program that addresses         and recovery efforts along the Gulf of Mexico. The USACE
the variety of resources needed across the country.                also received $4.6 billion under the American Recovery
                                                                   and Reinvestment Act during 2nd Quarter, FY 2009, and
                                                                   $797.2 million for navigation channel dredging and recovery
Analysis of Financial Statements                                   efforts related to hurricanes, floods, and other natural
                                                                   disasters during 3rd Quarter, FY 2009.
Civil Works Fund Balance Sheet
                                                                   Total liabilities are approximately $7.3 billion. They are
The USACE balance sheet includes total assets that exceed
                                                                   comprised primarily of other liabilities, accounts payable
$60 billion, which is an approximate 24 percent increase
                                                                   and environmental liabilities, which represent approximately
over FY 2008. Two asset categories—Fund Balance with
                                                                   64 percent of the total amount.
Treasury and General Property, Plant and Equipment
(GPP&E)—make up just over 86 percent of total assets,
with values of $24.9 billion and $27.0 billion, respectively.




Figure 4. Select Civil Works Fund Assets and Liabilities
5%
            9%
                                  General Property, Plant and Equipment                                 Other Liabilities
                                                                             36%
                                  Fund Balance with Treasury                              35%           Accounts Payable
                    45%           Accounts Receivable                                                   Environmental Liabilities
     41%                          Remaining Assets                                                      Remaining Liability

                                                                                14%   15%



 Civil Works Fund Assets                                                  Civil Works Fund Liabilities


Table 13. Select Civil Works Fund Assets and Liabilities
($ in billions)
                                                      2009                2008                              Percentage of
Asset Type                                        Consolidated        Consolidated           Change         FY 2009 Assets
General Property, Plant and Equipment                $26.98              $26.61                $0.37             45%
Fund Balance with Treasury                            24.94               15.24                 9.70             41%
Accounts Receivable                                    3.01                1.82                 1.19              5%
Remaining Assets                                       5.36                4.92                 0.44              9%
Total Assets                                         $60.29              $48.59               $11.70            100%

                                                                                                               Percentage
                                                     2009                2008                                  of FY 2009
Liability Type                                    Consolidated        Consolidated           Change             Liabilities
Other Liabilities                                     $2.55               $2.16               $0.39                35%
Accounts Payable                                       1.05                1.24                (0.19)              15%
Environmental Liabilities                              1.03                0.98                 0.05               14%
Remaining Liability                                    2.64                1.17                 1.47               36%
Total Liabilities                                     $7.27               $5.55               $1.72               100%
Columns and rows may not sum due to rounding.


30 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Stewardship Information                                           characteristics. Heritage assets are expected to be preserved
                                                                  indefinitely.
The properties of stewardship assets resemble those of
GPP&E assets that are traditionally capitalized in the            The Corps accounts for heritage assets in three categories:
financial statements. Due to the nature of these assets,          buildings and structures, archeological sites, and other
however, valuation would be difficult, and matching costs         heritage asset. As of September 30, 2009, the Corps
with specific periods would not be meaningful. Stewardship        reported the following heritage assets: (1) 353 buildings and
PP&E includes land and heritage assets. Heritage assets           structures, (2) 587 archeological sites, and (3) 217 other
are items of historical, natural, cultural, educational, or       heritage assets comprised of artifact on display in cases.
artistic significance, and items with significant architectural




                                                                                                                                  U.S. Army Corps of Engineers - Civil Works Fund




                                                                                                                                    31
32 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
        Limitations
        Limitations of the Financial Statements
        The financial statements have been prepared to report the
        financial position and results of operations for the entity,
        pursuant to the requirements of Title 31, United States
        Code, section 3515(b).

        While the statements have been prepared from the books
        and records of the entity, in accordance with the formats
        prescribed by the Office of Management and Budget, the
        statements are in addition to the financial reports used
        to monitor and control budgetary resources which are
        prepared from the same books and records.

        The statements should be read with the realization that they
        are for a component of the United States Government, a
        sovereign entity.




Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   33
 U.S. Army Corps of Engineers - Civil Works

 CONSOLIDATED BALANCE SHEET
 As of September 30, 2009 and 2008 (Amounts in thousands)                         2009 Consolidated     2008 Consolidated
 ASSETS (Note 2)
 Intragovernmental:
      Fund Balance with Treasury (Note 3)                                     $            24,939,624   $        15,235,393
      Investments (Note 4)                                                                  5,228,046             4,789,604
      Accounts Receivable (Note 5)                                                            594,679               881,283
      Total Intragovernmental Assets                                          $            30,762,349   $        20,906,280


 Cash and Other Monetary Assets (Note 6)                                      $                 1,356   $              121
 Accounts Receivable, Net (Note 5)                                                          2,415,554               940,308
 Operating Materials and Supplies, Net (Note 7)                                               128,169               126,665
 General Property, Plant and Equipment,Net (Note 8)                                        26,983,742            26,614,893
 Other Assets (Note 1.N.)                                                                         363                  663
 TOTAL ASSETS                                                                 $            60,291,533   $        48,588,930


 LIABILITIES (Note 10)
 Intragovernmental:
      Accounts Payable (Note 1.O.)                                            $               115,319   $           302,141
      Debt (Note 11)                                                                            8,074                12,130
      Due to Treasury - General Fund (Note 13)                                              2,396,351               900,089
      Other Liabilities (Notes 13 & 14)                                                     1,004,908               757,948
      Total Intragovernmental Liabilities                                     $             3,524,652   $         1,972,308


 Accounts Payable - Public                                                    $               932,095   $           934,993
 Federal Employee and Veterans' Benefits (Note 10)                                            233,867               253,651
 Environmental and Disposal Liabilities (Note 12)                                           1,034,792               982,112
 Other Liabilities (Notes 13 & 14)                                                          1,545,417             1,403,270
 TOTAL LIABILITIES                                                            $             7,270,823   $         5,546,334


 NET POSITION
      Unexpended Appropriations - Other Funds                                 $            18,337,899   $        10,316,712
      Cumulative Results of Operations - Earmarked Funds (Note 19)                          7,735,168             7,583,975
      Cumulative Results of Operations - Other Funds                                       26,947,643            25,141,909
 TOTAL NET POSITION                                                           $            53,020,710   $        43,042,596


 TOTAL LIABILITIES AND NET POSITION                                           $            60,291,533   $        48,588,930


 The accompanying notes are an integral part of these financial statements.




34 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
U.S. Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2009 and 2008 (Amounts in thousands)                     2009 Consolidated             2008 Consolidated
Program Costs
Gross Costs (Note 15)                                                    $              11,160,800     $              9,521,316
(Less: Earned Revenue)                                                                  (3,599,070)                  (2,201,151)
Net Program Costs                                                        $               7,561,730     $              7,320,165
Net Cost of Operations                                                   $               7,561,730     $              7,320,165


The accompanying notes are an integral part of these financial statements.




                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   35
 U.S. Army Corps of Engineers - Civil Works

 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 As of September 30, 2009 and 2008                                2009 Earmarked              2009 All Other
 (Amounts in thousands)                                                Funds                     Funds               2009 Consolidated
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                               $       6,307,401       $         26,418,483       $      32,725,884
 Beginning balances, as adjusted                                  $       6,307,401       $         26,418,483       $      32,725,884
 Budgetary Financing Sources:
      Appropriations used                                         $                  0    $          7,584,873       $        7,584,873
      Nonexchange revenue                                                 1,411,612                        (40)               1,411,572
      Transfers-in/out without reimbursement                                  (841,355)                975,626                 134,271
 Other Financing Sources (Non-exchange):
 Donations and forfeitures of property                                             661                    2,164                   2,825
 Transfers-in/out without reimbursement                                        (63,524)                172,855                 109,331
 Imputed financing from costs absorbed by others                                    23                 275,762                 275,785
      Other (+/-)                                                                    1                         (1)                    0
 Total Financing Sources                                          $            507,418    $          9,011,239       $        9,518,657
 Net Cost of Operations                                                         80,038               7,481,692                7,561,730
 Net Change                                                       $            427,380    $          1,529,547       $        1,956,927
 Cumulative Results of Operations                                 $       6,734,781       $         27,948,030       $      34,682,811


 UNEXPENDED APPROPRIATIONS
 Beginning Balances                                               $                  0    $         10,316,712       $      10,316,712
 Budgetary Financing Sources:
      Appropriations received                                     $                  0    $         15,608,143       $      15,608,143
      Appropriations transferred-in/out                                              0                  (2,083)                  (2,083)
      Other adjustments (rescissions, etc.)
      Appropriations used                                                            0              (7,584,873)              (7,584,873)
 Total Budgetary Financing Sources                                $                  0    $          8,021,187       $        8,021,187
 Unexpended Appropriations                                                           0              18,337,899              18,337,899
 Net Position                                                     $       6,734,781       $         46,285,929       $      53,020,710


 The accompanying notes are an integral part of these financial statements.




36 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
U.S. Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2009 and 2008                                 2008 Earmarked             2008 All Other
(Amounts in thousands)                                                 Funds                    Funds             2008 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                $       6,310,601      $         25,580,027     $      31,890,628
Beginning balances, as adjusted                                   $       6,310,601      $         25,580,027     $      31,890,628
Budgetary Financing Sources:
     Appropriations used                                          $                 0    $          6,031,859     $        6,031,859
     Nonexchange revenue                                                  1,781,742                    12,741              1,794,483
     Transfers-in/out without reimbursement                                  (722,457)                881,449               158,992
Other Financing Sources (Non-exchange):
Donations and forfeitures of property                                               0                     320                    320
Transfers-in/out without reimbursement                                       (424,079)                349,148                (74,931)
Imputed financing from costs absorbed by others                                     0                 244,698               244,698
     Other (+/-)                                                                    0                         0                    0
Total Financing Sources                                           $           635,206    $          7,520,215     $        8,155,421
Net Cost of Operations                                                        638,406               6,681,759              7,320,165
Net Change                                                        $            (3,200)   $            838,456     $         835,256
Cumulative Results of Operations                                  $       6,307,401      $         26,418,483     $      32,725,884


UNEXPENDED APPROPRIATIONS
Beginning Balances                                                $                 0    $          8,336,552     $        8,336,552
Budgetary Financing Sources:
     Appropriations received                                      $                 0    $          8,004,306     $        8,004,306
     Appropriations transferred-in/out                                              0                  12,500                 12,500
     Other adjustments (rescissions, etc.)                                          0                  (4,787)                (4,787)
     Appropriations used                                                            0              (6,031,859)            (6,031,859)
Total Budgetary Financing Sources                                 $                 0    $          1,980,160     $        1,980,160
Unexpended Appropriations                                                           0              10,316,712            10,316,712
Net Position                                                      $       6,307,401      $         36,735,195     $      43,042,596


The accompanying notes are an integral part of these financial statements.




                            Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report    37
 U.S. Army Corps of Engineers - Civil Works

 COMBINED STATEMENT OF BUDGETARY RESOURCES
 As of September 30, 2009 and 2008 (Amounts in thousands)                         2009 Combined               2008 Combined
 BUDGETARY FINANCING ACCOUNTS
 Budgetary Resources:
 Unobligated balance, brought forward, October 1                              $           11,692,717      $            9,902,226
 Recoveries of prior year unpaid obligations                                                 862,852                     621,715
 Budget authority
      Appropriation                                                                       17,012,826                   9,566,609
      Spending authority from offsetting collections
      Earned
          Collected                                                                       11,886,071                   9,766,479
             Change in receivables from Federal sources                                     (246,081)                    (33,018)
             Change in unfilled customer orders
          Advance received                                                                   259,171                     596,564
             Without advance from Federal sources                                         (1,918,599)                  1,314,780
             Expenditure transfers from trust funds                                          862,543                     766,000
      Subtotal                                                                $           27,855,931      $           21,977,414
 Nonexpenditure transfers, net,  actual                                                      170,543                     182,838
 Temporarily not available pursuant to Public Law                                             (10,000)                   (10,000)
 Permanently not available                                                                      (4,056)                    (5,575)
 Total Budgetary Resources                                                    $           40,567,987      $           32,668,618

 Status of Budgetary Resources:
      Obligations incurred:
      Direct                                                                  $           12,428,730      $            9,336,767
      Reimbursable                                                                        10,621,196                  11,639,134
      Subtotal                                                                $           23,049,926      $           20,975,901
 Unobligated balance:
      Apportioned                                                             $           16,440,183      $           10,483,144
      Exempt from apportionment                                                            1,077,729                     998,075
      Subtotal                                                                $           17,517,912      $           11,481,219
 Unobligated balance not available                                                               149                     211,498
 Total status of budgetary resources                                          $           40,567,987      $           32,668,618

 Change in Obligated Balance:
 Obligated balance, net
      Unpaid obligations, brought forward, October 1                          $            9,392,894      $            5,791,649
      Less: Uncollected customer payments
      from Federal sources, brought forward, October 1                                     (5,418,018)                 (4,136,258)
      Total unpaid obligated balance                                          $             3,974,876     $             1,655,391
 Obligations incurred net (+/-)                                                           23,049,926                  20,975,901
 Less: Gross outlays                                                                     (20,453,837)                (16,752,941)
 Less: Recoveries of prior year  unpaid obligations, actual                                  (862,850)                   (621,715)
 Change in uncollected customer payments from Federal sources (+/-)                         2,164,679                  (1,281,760)
 Obligated balance, net, end of  period
      Unpaid obligations                                                      $           11,126,133      $            9,392,894
      Less: Uncollected customer payments from Federal sources                            (3,253,339)                 (5,418,018)
      Total, unpaid obligated balance, net, end of period                     $            7,872,794      $            3,974,876

 Net Outlays:
     Gross outlays                                                            $           20,453,837      $           16,752,941
     Less: Offsetting collections                                                        (13,007,784)                (11,129,045)
     Less: Distributed Offsetting receipts                                                  (583,187)                   (638,940)
     Net Outlays                                                              $            6,862,866      $            4,984,956

 The accompanying notes are an integral part of these financial statements.




38 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Note 1.	 Significant Accounting Policies
1.A.	 Mission of the Reporting Entity
The primary mission of U.S. Army Corps of Engineers Civil Works Program (USACE) includes maintaining navigation
channels, reducing flooding, assisting during natural disasters and other emergencies, and making waterways passable. The
Civil Works Program also supports the Department of Homeland Security in carrying out the National Response Plan. The
USACE’s primary role in support of this plan is to provide emergency support in areas of public works and engineering.
The USACE responds to more than 30 presidential disaster declarations in a typical year, and its highly trained workforce is
prepared to deal with both man-made and natural disasters.


1.B.	 Basis of Presentation and Accounting
These financial statements have been prepared to report the financial position and results of operations of the USACE, as
required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994. The
financial statements have been prepared from the books and records of the USACE in accordance with the U.S generally
accepted accounting principles (GAAP) for federal entities and the formats prescribed by the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements. The accompanying financial statements account for all
civil works resources for which the USACE is responsible.

The accounting structure of federal agencies is designed to reflect both accrual and budgetary accounting transactions. Under
the accrual method of accounting, revenues are recognized when earned and expenses are recognized when incurred without
regard to the receipt or payment of cash. The budgetary accounting principles, on the other hand, are designed to recognize
the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-based
transaction. The recognition of budgetary accounting transactions is essential for compliance with legal constraints and
controls over the use of federal funds.

The USACE has presented comparative financial statements for the Consolidated Balance Sheets, Consolidated Statements of
Net Cost and Changes in Net Position, and Combined Statements of Budgetary Resources, in accordance with OMB financial
statement reporting guidelines

The USACE’s financial management system meets all of the requirements for full accrual accounting. The USACE’s
transactions are recorded on an accrual accounting basis as required by GAAP.


1.C.	 Fund Types
General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving
fund resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further congressional action.

Special funds are used to record government receipts reserved for a specific purpose.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Contributed funds are received from the public for construction of assets under local cost sharing agreements.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   39
The USACE trust, contributed, and special funds are designated as earmarked funds. Earmarked funds are financed by
specifically identified revenues, required by statute to be used for designated activities, benefits or purposes, and remain
available over time. The USACE is required to separately account for and report on the receipt, use and retention of revenues
and other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They
are not USACE funds, and as such, are not available for the USACE’s operations. The USACE is acting as an agent or a
custodian for funds awaiting distribution.

Clearing accounts are used to record the amount of unprocessed intragovernmental payments and collections transmitted to
the USACE from other federal agencies.

Receipt accounts are used to record amounts such as interest, land lease proceeds, fines and penalties that are deposited in the
U.S. Treasury.

A summary of USACE accounts follows:

General Funds
	96X3112	 Flood Control, Mississippi River and Tributaries
	96X3121	 Investigations
	 96 3121	 Investigations (fiscal year)
	96X3122	 Construction
	96X3123	 Operation and Maintenance, General
	 96 3123	 Operation and Maintenance, General
	96X3124	 General Expenses
	 96 3124	 General Expenses
	96X3125	 Flood Control and Coastal Emergencies
	 96 3125	 Flood Control and Coastal Emergencies
	96X3126	 Regulatory Program
	96X3128	 Washington Aqueduct Capital Improvements
	 96 3129	 Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
	96X3130	 Formerly Utilized Sites Remedial Action Program
	 96 3132	 Office of Assistant Secretary of the Army, Civil Works
	96X6094	 Advances from the District of Columbia

Revolving Funds
	96X4902	 Revolving Fund

Special Funds
	96X5007	 Special Recreation Use Fees
	96X5066	 Hydraulic Mining in California, Debris
	96X5090	 Payments to States, Flood Control Act of 1954
	96X5125	 Maintenance and Operation of Dams and Other Improvements of Navigable Waters
	96X5493	 Fund for Non-Federal Use of Disposal Facilities
	 96 5493	 Fund for Non-Federal Use of Disposal Facilities

Trust Funds
	96X8217	 South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
	96X8333	 Coastal Wetlands Restoration Trust Fund
	96X8861	 Inland Waterways Trust Fund
	96X8863	 Harbor Maintenance Trust Fund

Trust Funds (Contributed)
	96X8862	 Rivers and Harbors Contributed and Advance Funds

40 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Deposit Funds
	96X6500	 Advances Without Orders from Non-Federal Sources
	96X6501	 Small Escrow Amounts

Clearing Accounts
	 96F3875	 Budget Clearing Account (suspense)
	 96F3880	 Unavailable Check Cancellations and Overpayments (suspense)
	 96F3885	 Undistributed Intragovernmental Payments

Receipt Accounts
	96R0891	 Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
	96R1060	 Forfeitures of Unclaimed Money and Property
	96R1099	 Fines, Penalties, and Forfeitures, Not Otherwise Classified
	96R1299	 Gifts to the United States, Not Otherwise Classified
	96R1435	 General Fund Proprietary Interest, Not Otherwise Classified
	96R3220	 General Fund Proprietary Receipts, Not Otherwise Classified, All Other
	96R5005	 Land and Water Conservation Fund
	96R5007	 Special Recreation Use Fees
	96R5066	 Hydraulic Mining in California
	96R5090	 Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
	96R5125	 Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of Dams, etc.,
          (50%)
	96R5493	 User Fees, Fund for Non-Federal Use of Disposal Facilities
	96R8862	 Contributions and Advances, Rivers and Harbors


1.D.	 Financing Sources
The United States Army Corps of Engineers (USACE) Civil Works Program receives federal funding through the annual
Energy and Water Development Appropriations Act. Funding also comes from nonfederal project sponsors who share in
project costs according to formulas established by project authorization acts. A third source of funding comes through the
Support for Others Program, which is conducted under reimbursable agreements with federal agencies.

The USACE Civil Works Program receives its appropriations and funds as general, revolving, trust, special, and deposit funds.
The USACE uses these appropriations and funds to execute its mission and subsequently report on resource usage.

The USACE received borrowing authority from the U.S. Treasury to finance capital improvements to the Washington
Aqueduct.

The USACE receives congressional appropriations as financing sources that expire annually, on a multi-year basis, or do not
expire. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods and
services. The USACE recognizes revenue as a result of costs incurred for goods or services provided to other federal agencies
and the public. Full cost pricing is the USACE’s standard policy for goods or services provided as required by the Office of
Management and Budget (OMB) Circular No. A-25, User Charges.

The USACE records two types of revenue: exchange and non-exchange. Exchange revenue is the inflow of resources that
the USACE has earned by providing something of value to the public or another federal entity at a price. The main sources
of exchange revenue are customer orders (reimbursable agreements), cost sharing revenue, and long-term water storage
agreements.

Customer orders are contracts where the USACE provides goods or services under a reimbursable agreement; the related
revenue and accounts receivable are recorded simultaneously along with the costs and payables. For non-federal entities, an
advance payment is required and the USACE records advances from others. The USACE reduces advances and recognizes
revenue as goods or services are provided.


                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   41
Cost-sharing revenue arises from agreements under which the USACE constructs assets, the cost of which will be borne in part
by another entity (sponsor). Throughout the life of a cost-share project, the USACE revenue is earned based on the sponsor’s
proportionate share of project costs incurred. Sponsors are generally required to provide funds in advance and the USACE
records deferred credits. The USACE withdraws the sponsor’s cash account, which is an escrow account. The USACE reduces
the deferred credits and recognizes revenue at the time of the withdrawal for costs incurred.

Non-exchange revenue represents resources received by USACE when a good or service is not provided in exchange for that
revenue. Non-exchange revenue generally consists of trust fund receipts, penalties, and donations.


1.E.	 Recognition of Expenses
The USACE recognizes expenses in the period incurred or consumed. The USACE’s expenditures for capital assets are
recognized as operating expenses as the assets are depreciated or amortized.


1.F.	    Accounting for Intragovernmental Activities
The USACE eliminates transactions within the USACE Civil Works Program in these consolidated financial statements.
Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial statements
in order to prevent overstatement for business with itself.

Generally, financing for the construction of USACE’s facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.
Treasury does not allocate such costs to the USACE.

In accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts
and Standards, the USACE recognizes imputed financing and cost for unreimbursed goods and services provided by others.
These costs include unreimbursed rent, interest during construction, Judgment Fund payments on behalf of the USACE and
employee benefits.


1.G.	 Entity and NonEntity Assets
The assets are categorized as entity or nonentity. Entity assets consist of resources that the USACE has the authority to use, or
where management is legally obligated to use funds to meet entity obligations. Nonentity assets consist of resources for which
the USACE maintains stewardship accountability and responsibility to report but are not available for USACE operations.


1.H.	 Funds with the U.S. Treasury
The USACE’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of the USACE
Finance Center (UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial service
centers process the majority of USACE cash collections, disbursements, and adjustments worldwide. Each disbursing station
prepares monthly reports that provide information to the U.S. Treasury on check issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, UFC and DFAS sites submit reports to the U.S. Treasury by appropriation on interagency transfers, collections
received, and disbursements issued. The U.S. Treasury records this information to the applicable Fund Balance with Treasury
(FBWT) account. Differences between the USACE’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT
accounts sometimes result and are subsequently reconciled on a monthly basis.




42 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
1.I.	    Investments
The USACE reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts are amortized over the term of the investment using the effective interest rate method or another method obtaining
similar results. The USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise
sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Bureau of Public Debt, on behalf of the USACE, invests in nonmarketable securities. Nonmarketable, market-based
intragovernmental securities mimic marketable securities, but are not publicly traded.

The USACE’s net investments are held by the South Dakota Terrestrial Habitat Restoration, Inland Waterways, and Harbor
Maintenance trust funds.


1.J.	    Accounts Receivable
Accounts receivable includes three categories: accounts, claims, and refunds receivable from other federal entities or from the
public. The USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages
per aged category of the cumulative balance of delinquent public receivables. The USACE regards its intragovernmental
accounts receivable balance as fully collectable.

Accounts receivable also includes amounts stemming from long-term water storage agreements based on the cost of
construction to be recouped by the USACE from the municipality. The USACE performs an analysis of the collectability of
the receivables periodically and recognizes an allowance for estimated uncollectible amounts from the municipality.


1.K.	 Operating Materials and Supplies
The USACE’s operating materials and supplies are stated at historical cost under moving average cost method and are
adjusted for the results of physical inventories. Operating materials and supplies are expensed when consumed. There are no
restrictions on the use of operating materials and supplies.


1.L.	    General Property, Plant and Equipment
With the exception of buildings and structures related to hydropower projects which are capitalized regardless of cost, USACE
General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost, plus capitalized improvements,
when an asset has a useful life of two or more years and the acquisition cost exceeds $25,000.

When it is in the best interest of the government, the USACE provides government property to contractors to complete
contract work. The USACE either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E exceeds the Department of
Defense (DoD) capitalization threshold, it is reported on the USACE’s Balance Sheet.

The USACE uses estimates to support the historical costs of its real property assets, including the administrative costs of land,
acquired prior to FY 1999, and personal property assets acquired prior to FY 2003. The alternate methods are necessary
because certain supporting documentation to substantiate recorded costs for those assets is no longer available. Management’s
alternate methods, which are consistent with the principles, relevant to USACE circumstances, as contained in SFFAS No. 6,
Accounting for Property, Plant and Equipment and SFFAS No. 23, Eliminating the Category National Defense Property, Plant
And Equipment, consist of using a combination of appropriation or engineering documents, or other available real estate,
financial and operations data, combined with written management attestation statements, to estimate and support the original
acquisition or construction costs recorded for each asset.

Construction in progress (CIP) is used to accumulate the cost of construction and accumulated costs are transferred from CIP
to the relevant asset category when an asset is completed.

                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   43
1.M.	 Leases
Lease payments for the rental of equipment and operating facilities are classified as operating leases. An operating lease does
not substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense over the
lease term as it becomes payable.


1.N.	 Other Assets
Other assets include travel advances that are not reported elsewhere on the USACE’s Balance Sheet.


1.O.	 Accounts Payable
Accounts payable are the amounts owed, but not yet paid, by the USACE for goods and services received from other
entities, progress in contract performance made by other entities, and rents due to other entities. The USACE has no known
delinquent accounts payable.


1.P.	     Debt
The USACE debt consists of the amount owed to the U.S. Treasury for capital improvements to the Washington Aqueduct.


1.Q.	 Due to Treasury – General Fund
The USACE reported an offsetting custodial liability for amounts Due to Treasury – General Fund for interest and accounts
receivable which, when collected, will be deposited in the U.S. Treasury.


1.R.	 Federal Employee and Veterans’ Benefits
The Federal Employees and Veterans’ Benefits liability consist of the actuarial liability for Federal Employees Compensation
Act benefits. The Department of the Army (DA) actuarial liability for workers’ compensation benefits is developed by the
Department of Labor and provided to the DA at the end of each fiscal year. The liability for future workers’ compensation
benefits includes the expected liability for death, disability, medical and miscellaneous costs for approved compensation cases,
plus a component for incurred but not reported claims. The liability is determined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ultimate payments related to that period.
Consistent with past practice, these projected annual benefit payments have been discounted to present value using the OMB’s
economic assumptions for 10-year U.S. Treasury notes and bonds.


1.S.	 Other Liabilities
The USACE reports a liability for funded payroll and benefits, to include civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the
accounting period reflects current pay rates.

The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent
Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances that involves
an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to
occur. The USACE recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable,
and the loss amount can be reasonably estimated. The USACE discloses contingent liabilities when conditions for liability
recognition do not exist but there is at least a reasonable possibility of incurring a loss or additional losses.




44 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Examples of loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible claims
and assessments. The USACE’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation or
claims and assessments due to events such as aircraft, ship and vehicle accidents; property or environmental damages; and
contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USACE assets. This type of liability has two components:
nonenvironmental and environmental. Consistent with SFFAS No. 6, Accounting for Property, Plant, and Equipment,
recognition of an anticipated environmental disposal liability begins when the asset is placed into service. Nonenvironmental
disposal liabilities are recognized for assets when management decides to dispose of an asset based upon DoD’s policy, which is
consistent with SFFAS No. 5.


1.T.	     Environmental and Disposal Liabilities
Environmental and disposal liabilities include future costs to address government-related environmental contamination at
USACE sites and other sites at which USACE is directed by congress to perform remediation work. The USACE recognizes
a liability for each site as the need for cleanup work becomes probable and costs, based on site-specific engineering estimates,
become measurable. Costs to address environmental contamination not caused by the government are recorded as incurred.
Cleanup remedies are selected from feasible alternatives using the decision-making process prescribed by the Comprehensive
Environmental Response, Compensation, and Liability Act.


1.U.	 Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities for which congressional action is needed before budgetary
resources can be provided.


1.V.	     Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations include the amounts of authority that are unobligated and have not been rescinded or withdrawn.
Unexpended Appropriations also include amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses, and
financing sources (including appropriations, revenue, and gains).


1.W.	 Allocation Transfers
The USACE is a party to allocation transfers with other federal agencies as a receiving (child) entity. Allocation transfers are
legal delegations by one agency of its authority to obligate budget authority and outlay funds to another agency. A separate
fund account (allocation account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and subsequent obligations and outlays
incurred by the child entity are charged to this allocation account as they execute the delegated activity on behalf of the
parent entity. Generally, all financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays)
is reported in the financial statements of the parent entity, from which the underlying legislative authority, appropriations
and budget apportionments are derived. Exceptions to this general rule affecting the USACE include certain U.S. Treasury-
Managed Trust Funds for which the USACE is the child in the allocation transfer, but per OMB guidance, will report all
activity relative to these allocation transfers in the reporting entity’s financial statements. The U.S. Treasury-Managed Trust
Funds, which are included in USACE financial statements, are South Dakota Terrestrial Wildlife Habitat Restoration, Inland
Waterways, and Harbor Maintenance trust funds.




                            Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report    45
In addition to these funds, the USACE received allocation transfers, as the child, from Departments of Agriculture, Interior,
Transportation, Energy and the Appalachian Regional Commission.


Note 2.	 Nonentity Assets
 As of September 30                                                              2009                             2008
 (Amounts in thousands)

 Nonentity Assets
 Intragovernmental Assets
    Fund Balance with Treasury                                       $                     10,630     $                     10,331
    Accounts Receivable                                                                          1                                3
    Total Intragovernmental Assets                                   $                     10,631     $                     10,334
    Cash and Other Monetary Assets                                   $                      1,356     $                        121
    Accounts Receivable                                                                 2,396,350                         908,914
    Total Nonfederal Assets                                          $                  2,397,706     $                   909,035
 Total Nonentity Assets                                              $                  2,408,337     $                   919,369
 Total Entity Assets                                                                  57,883,196                       47,669,561
 Total Assets                                                        $                60,291,533      $                48,588,930


Other Information

Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts
and is not available for use in operations. Deposit and suspense accounts are used to record amounts held temporarily until
ownership is determined. The USACE is acting as an agent or custodian for funds awaiting distribution.

Intragovernmental Nonentity Accounts Receivable consists of a receivable from the U.S. Coast Guard within the Department
of Homeland Security for the usage of dredge disposal areas. Nonentity Accounts Receivable are recorded in unavailable
receipt accounts and funds will be returned to the U.S. Treasury when collected. The USACE does not have specific statutory
authority to keep the receipts.

Cash and Other Monetary Assets reflect the disbursing officer’s accountability which is comprised of change funds for
recreation cashiers, disbursing officer’s cash, and foreign currency. The disbursing officer acts as an agent for the U. S. Treasury.

Nonentity Accounts Receivable represents all current and noncurrent receivables due from nonfederal sources. This includes
noncurrent receivables due from state and local municipalities for long-term water storage contracts; current receivables due
from state and local municipalities for water storage; long-term receivables for flood control, coastal restoration and hurricane
protection for the Louisiana coastal area; accrued interest receivable; penalties, fines, and administrative fees receivable; long-
term receivables for hydraulic mining; leasing of land acquired for flood control purposes and the allowance for doubtful
accounts. Nonentity Accounts Receivables are recorded in unavailable receipt accounts, including an offsetting custodial
liability due to the U. S. Treasury and funds will be returned to the U.S. Treasury when collected. The USACE does not have
specific statutory authority to keep the receipts.

Note 1.J and Note 5, Accounts Receivable, and Note 13, Due to Treasury – General Fund and Other Liabilities, provide
additional information related to long-term water storage agreements.




46 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Note 3.	 Fund Balance with Treasury
 As of September 30                                                             2009                           2008
 (Amounts in thousands)

 Fund Balances
    Appropriated Funds                                               $              22,349,179       $              12,835,109
    Revolving Funds                                                                    1,552,006                       1,369,281
    Trust Funds                                                                          74,694                         113,702
    Special Funds                                                                         9,179                          11,127
    Contributed Funds                                                                   850,191                         779,578
    Other Fund Types                                                                    104,375                         126,596
    Total Fund Balances                                              $              24,939,624       $              15,235,393


Status of Fund Balance with Treasury
 As of September 30                                                              2009                           2008
 (Amounts in thousands)

 Unobligated Balance
    Available                                                        $                 17,517,912 $                 11,481,219
    Unavailable                                                                               149                       211,498
 Obligated Balance not yet Disbursed                                                   11,126,133                     9,392,894
 Nonbudgetary FBWT                                                                         10,445                        10,053
 Non FBWT Budgetary Accounts                                                           (3,715,015)                  (5,860,271)
 Total                                                               $                 24,939,624 $                 15,235,393

Other Information

The Status of Fund Balance with Treasury reflects the budgetary resources to support the FBWT and is a reconciliation
between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect
the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in
U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the
public law that established the funds. The USACE is the lead agency for reporting the financial data for the Inland Waterways,
Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration trust funds. These trust funds remain
invested and restricted for use until transferred to meet current expenditure requirements.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those
received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit and clearing accounts.

Non FBWT Budgetary Accounts reduces the Status of FBWT and includes borrowing authority, investment accounts,
accounts receivable and unfilled orders without advance from customers.




                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   47
Note 4.	 Investments and Related Interest
                                                                                        2009
 As of September 30                                                                  Amortized
                                                                 Amortization       (Premium) /                          Market Value
 (Amounts in thousands)                              Cost          Method            Discount         Investments, Net    Disclosure

 Intragovernmental Securities
                                                                   effective
    Nonmarketable, Market-Based                 $ 5,239,501        interest     $      (41,650)       $   5,197,851 $ 5,363,161
    Accrued Interest                                   30,195          -                          0           30,195          30,195
    Total Intragovernmental Securities          $ 5,269,696                     $      (41,650)       $   5,228,046 $ 5,393,356


                                                                                        2008
 As of September 30                                                                  Amortized
                                                                 Amortization       (Premium) /                          Market Value
 (Amounts in thousands)                              Cost          Method            Discount         Investments, Net    Disclosure

 Intragovernmental Securities
                                                                   effective
    Nonmarketable, Market-Based                 $ 4,790,360        interest     $      (25,976)       $   4,764,384 $ 4,909,917
    Accrued Interest                                   25,220          -                          0           25,220          25,220
    Total Intragovernmental Securities          $ 4,815,580                     $      (25,976)       $   4,789,604 $ 4,935,137

Other Information

The federal government does not set aside assets to pay future benefits or other expenditures associated with earmarked funds.
The cash receipts collected from the public for an earmarked fund are deposited in the U.S. Treasury, which uses the cash for
general government purposes. Treasury securities are issued to the USACE as evidence of its receipts. Treasury securities are
an asset to the USACE and a liability to the U.S. Treasury. Because the USACE and the U.S. Treasury are both parts of the
government, these assets and liabilities offset each other from the standpoint of the government as a whole. For this reason,
they do not represent an asset or a liability in the U.S. Government-wide financial statements.

Treasury securities provide the USACE with authority to draw upon the U.S. Treasury to make future benefit payments
or other expenditures. When the USACE requires redemption of these securities to make expenditures, the government
finances those expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the
public or repaying less debt, or by curtailing other expenditures. This is the same way that the government finances all other
expenditures.

The breakdown of total investments among the trust funds for FY 2009 is as follows: $5.03 billion in the Harbor
Maintenance Trust Fund, $60.0 million in the Inland Waterways Trust Fund, and $131.6 million in the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund.

The breakdown of total investments among the trust funds for FY 2008 is as follows: $4.54 billion in the Harbor
Maintenance Trust Fund, $123.9 million in the Inland Waterways Trust Fund, and $118.3 million in the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund.

The U.S. Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of
New York on September 30, 2009, and September 30, 2008, respectively.




48 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Note 5.	 Accounts Receivable, Net
                                                                                           2009
 As of September 30
                                                                                 Allowance For Estimated
 (Amounts in thousands)                                     Gross Amount Due          Uncollectibles           Accounts Receivable, Net

 Intragovernmental Receivables                            $          594,679                        N/A        $              594,679
 Nonfederal Receivables (From the Public)                          2,419,528 $                   (3,974)                    2,415,554
 Total Accounts Receivable                                $        3,014,207 $                   (3,974)       $            3,010,233


                                                                                           2008
 As of September 30
                                                                                 Allowance For Estimated
 (Amounts in thousands)                                     Gross Amount Due          Uncollectibles           Accounts Receivable, Net

 Intragovernmental Receivables                            $          881,283                        N/A        $              881,283
 Nonfederal Receivables (From the Public)                            941,148 $                     (840)                      940,308
 Total Accounts Receivable                                $        1,822,431 $                     (840)       $            1,821,591

Other Information

As of September 30, 2009, and September 30, 2008, accounts receivable from the public, net of allowances, stemming
from long-term water storage and Louisiana coastal restoration, flood control and hurricane protection agreements include
$2.2 billion and $728.1 million respectively. These agreements have maturity dates ranging from 2 to 50 years, and interest
rates based on the U.S. Treasury effect rate at the time of the agreement.


Note 6.	 Cash and Other Monetary Assets
 As of September 30                                                                2009                               2008
 (Amounts in thousands)

 Cash                                                                   $                         47       $                         23
 Foreign Currency                                                                             1,309                                  98
 Total Cash and Foreign Currency                                        $                     1,356        $                       121

Other Information

Cash is the total of cash resources under the control of the USACE, which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total
U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

The USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency.
Foreign currency fluctuations require adjustments to the original obligation amount at the time of payment. The USACE
does not separately identify currency fluctuations.

The USACE translates foreign currency to U.S. dollars utilizing the U.S. Treasury prevailing rate of exchange. This rate is
the most favorable rate that would legally be available to the federal government acquisition of foreign currency for its official
disbursements and accommodation of exchange transactions. There are no significant effects from changes in the foreign
currency exchange rate.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report       49
Note 7.	 Operating Materials and Supplies
 As of September 30                                                                         2009                                  2008
 (Amounts in thousands)

 Operating Materials & Supplies:
    Items Held for Use                                                        $                       128,169      $                        126,665
 Total                                                                        $                       128,169      $                        126,665

Other Information

Operating materials and supplies (OM&S) is comprised of personal property to be consumed in normal operations. The
OM&S category includes materials used for constructing riverbank stabilization devices, spare and repair parts, miscellaneous
office supplies, and prepaid postage. Moving average cost flow assumptions are applied in arriving at the historical cost of the
ending OM&S and cost of goods consumed.

As of September 30, 2009 and 2008, there were differences between the carrying amount and the net realizable value of
OM&S of $14,900 due to excess, obsolete, or unserviceable items. There are no restrictions on the use of OM&S.

The USACE maintains OM&S stocks because many unique materials and supplies are not readily available in the market and
will eventually be needed.

As of September 30, 2009 and 2008, the USACE does not have inventories, stockpile materials, seized or forfeited properties,
or goods held under price support and stabilization programs, as defined in SFFAS No. 3, Accounting for Inventory and Related
Property.


Note 8.	 General Property, Plant & Equipment, Net
                                                                                               2009
                                                 Depreciation/                                             (Accumulated
 As of September 30                              Amortization    Service                                   Depreciation/
 (Amounts in thousands)                            Method        Life (yrs)       Acquisition Value         Amortization)             Net Book Value

 Major Asset Classes
    Land                                             N/A            N/A       $        8,958,792                        N/A       $       8,958,792
    Buildings, Structures, and Facilities            S/L         20 - 100             28,534,507       $    (14,443,620)                 14,090,887
    Leasehold Improvements                           S/L         lease term                41,587                 (35,751)                     5,836
    Software                                         S/L           2 - 10                  94,574                 (84,408)                    10,166
    General Equipment                                S/L           5 - 50              1,524,213                (771,677)                   752,536
    Construction-in-Progress                         N/A            N/A                3,165,519                        N/A               3,165,519
    Other                                                                                         8                         (2)                        6
 Total General PP&E                                                           $       42,319,200       $    (15,335,458)          $      26,983,742


 Legend for Depreciation Methods:
 S/L = Straight Line      N/A = Not Applicable




50 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
                                                                                      2008
 As of September 30                           Depreciation/                                       (Accumulated
                                              Amortization    Service          Acquisition        Depreciation/          Net Book
 (Amounts in thousands)                         Method        Life (yrs)         Value             Amortization)          Value

 Major Asset Classes
    Land                                          N/A            N/A       $    8,912,388                   N/A     $    8,912,388
    Buildings, Structures, and Facilities         S/L         20 - 100         28,620,411    $   (13,929,521)           14,690,890
    Leasehold Improvements                        S/L         lease term           41,016             (31,496)               9,520
    Software                                      S/L           2 - 10             86,305             (76,882)               9,423
    General Equipment                             S/L           5 - 50          1,487,133            (728,612)            758,521
    Construction-in-Progress                      N/A            N/A            2,203,089                   N/A          2,203,089
    Other                                                                          31,064                     (2)           31,062
 Total General PP&E                                                        $   41,381,406    $   (14,766,513)       $   26,614,893

Other Information

The USACE currently operates and maintains 75 hydroelectric power plants, generating approximately 24 percent of
America’s hydroelectric power. All power generated by these hydroelectric power plants is transmitted to four power marketing
administrations for distribution to power companies across the United States. The service life for USACE hydropower project
related assets is derived from guidance provided by the Federal Energy Regulatory Commission based on industry standards.
The hydropower project related assets make up $9.8 billion of the book value of the USACE’s PP&E in FY 2009 and
$9.7 billion in FY 2008.

As of September 30, 2008, the USACE had $31.1 million in assets awaiting disposal reported as Other. As of September 30,
2009, the USACE recognized a loss of $44.5 million on general PP&E that had been removed from service based on SFFAS
No. 6, Accounting for Property, Plant, and Equipment.

As of September 30, 2009 and 2008, approximately $26.3 billion of the acquisition value recorded in the General PP&E line
is being supported by alternate methods pursuant to the memorandum of agreement described in Note 1.L, General Property,
Plant, and Equipment.

There are no restrictions on the use or convertibility of general PP&E.


Note 9.	 Stewardship Property, Plant and Equipment (PP&E)
Information Related to Stewardship PP&E

Stewardship PP&E are assets whose properties resemble those of the General PP&E that are traditionally capitalized in the
financial statements. Due to the nature of these assets, however, valuation would be difficult and matching costs with specific
periods would not be meaningful. Stewardship PP&E includes heritage assets. Heritage assets are items of historical, natural,
cultural, educational, or artistic significance, e.g., aesthetic, or items with significant architectural characteristics. Heritage
assets are expected to be preserved indefinitely.

Relevance to the USACE Mission

The USACE, as a steward of public land, has the responsibility for ensuring that properties of a historical or traditional
nature located on USACE lands are preserved and managed appropriately. Cultural resource management is implemented
in a positive manner that fulfills the requirements of all laws, regulations, and policies, for all project undertakings in an
environmentally and economically sound manner, and in the interest of the American public.



                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   51
Stewardship Policy

In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 29, Heritage Asset and Stewardship
Land, all heritage assets information has been reclassified as basic, except for condition information, which is reclassified as
required supplementary information (RSI).

The USACE has the responsibility to manage cultural resources on USACE-owned lands. Engineering Regulations 1105-
2-100 and 1130-2-540 provide the basic guidance for the USACE Civil Works Program. The term cultural resources refers
to any building, site, structure, object, or other material significant in history, architecture, archeology, or culture. Historic
properties are sites that are eligible for inclusion in National Register of Historic Places. The National Register is an inventory
of historic properties important in our nation’s history, culture, architecture, archeology, and engineering. The National
Register office in the National Park Service maintains the inventory. Properties are either listed on the National Register of
Historic Places, have formally been determined eligible, or appear to meet eligibility criteria to be listed. Managing these
cultural resources and heritage assets is published in Army Regulations 200-4 and 870-20.

Heritage Asset Categories

     1. 	 Buildings and Structures. Buildings and structures are those listed on, or eligible for listing on, the National Register
          of Historic Places. Buildings and structures include a range of historic resources from a covered bridge in Sacramento
          District to early farming structures in the Savannah District. They also include some non-traditional structures, such
          as a snag boat that operated on the Mississippi River. There are 117 buildings and structures listed on the National
          Register and 236 determined eligible for listing. There are a total of 353 heritage assets in this category; this reflects
          no change from the prior fiscal year-end report.

     2. 	 Archeological Sites. Cemeteries and archeological sites are archeological properties listed on, or eligible for listing
          in, the national Register of Historic Places. The current National Register inventory for the USACE includes 489
          archeological properties determined to be eligible for listing, and 98 archeological properties listed. This total of 587
          archeological sites reflects an increase of one from the prior fiscal year-end report.

     3. 	 Other Heritage Assets (OHA). Museum collection items are unique for one or more of the following reasons:
          historical or natural significance; cultural, educational or artistic importance; or significant technical or architectural
          characteristics. These items are divided into two subcategories: fine art and objects. Other heritage assets include
          museum collection items that have historical or cultural significance, but lack formal listing and the demonstrated
          need for active maintenance. During FY 2009, the USACE established and reported a new category of OHA with
          217 cases.

                                            Heritage Assets as of September 30, 2009
                                            Buildings and Structures                 353
                                            Archeological Sites                      587
                                            OHA (Cases)                              217

Acquisition and Withdrawal of Heritage Assets

The USACE acquired one archeological site during FY 2009 and none during FY 2008. The USACE discovered the site on
USACE land during construction and determined to preserve the site. The USACE provided this information to the keeper of
the National Register of Historic Places at the Department of the Interior, National Park Service.




52 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Note 10.	 Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                 2009                           2008
 (Amounts in thousands)

 Intragovernmental Liabilities
    Debt                                                                 $                     8,074    $                   12,130
    Due to Treasury - General Fund                                                         2,396,351                       900,089
    Other                                                                                   222,199                        215,888
 Total Intragovernmental Liabilities                                     $                 2,626,624    $                 1,128,107
    Federal Employee and Veterans’ Benefits                                                 233,867                        253,356
    Environmental Liabilities                                                              1,034,792                       982,112
    Contingent Liabilities                                                                   45,920                         54,047
 Total Liabilities Not Covered by Budgetary Resources                    $                 3,941,203    $                 2,417,622
 Total Liabilities Covered by Budgetary Resources                                          3,329,620                      3,128,712
 Total Liabilities                                                       $                 7,270,823    $                 5,546,334

Other Information

Intragovernmental Liabilities – Debt is comprised of the amount owed by the USACE to the U.S. Treasury for capital
improvements to the Washington Aqueduct. Arlington County and the City of Falls Church, Virginia, provide funding to the
USACE to repay the debt. Refer to Note 11, Debt, for additional details and disclosures.

Intragovernmental Liabilities – Due to Treasury - General Fund includes offsetting custodial liability to accounts receivable.
The custodial liability is for amounts that will be deposited in the general fund of the U.S. Treasury when collected and
are primarily related to long term water storage and Louisiana coastal restoration, flood control and hurricane protection
agreements. Budgetary resources are not required for these types of liabilities.

Intragovernmental Liabilities – Other includes Judgment Fund liabilities-Contract Dispute Act (CDA), and workmen’s
compensation liabilities under the Federal Employees Compensation Act (FECA). The USACE is seeking supplemental
funding for the CDA liability. The FECA liability will not be funded until FY 2010.

Federal Employee and Veterans’ Benefits include actuarial liability for FECA. Refer to Note 13, Due to Treasury - General
Fund and Other Liabilities, for additional details and disclosures. The FECA actuarial liability is a future funded expense and
will be funded in future appropriations.

Environmental Liabilities represent estimated cleanup costs for environmental liabilities, which will be funded in future
appropriations. Refer to Note 12, Environmental and Disposal Liabilities, and Note 13, Due to Treasury - General Fund and
Other Liabilities, for additional details and disclosures.

Contingent liabilities represent probable losses related to lawsuits filed against the USACE. Contingent liabilities may be
funded in future appropriations. Refer to Note 14, Contingencies for additional details and disclosures.




                             Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   53
Note 11.	 Debt
                                                                                            2009
 As of September 30
 (Amounts in thousands)                                       Beginning Balance        Net Borrowing              Ending Balance
 Agency Debt (Intragovernmental)
 Debt to the Treasury                                     $              12,130 $                   (4,056)   $              8,074


                                                                                            2008
 As of September 30
 (Amounts in thousands)                                       Beginning Balance        Net Borrowing              Ending Balance
 Agency Debt (Intragovernmental)
 Debt to the Treasury                                     $              12,917 $                    (787)    $             12,130

Other Information

The outstanding debt consists of interest and principal payments due to the U.S. Treasury. The USACE executed three
promissory notes totaling $75.0 million with the U.S. Treasury for capital improvements to the Washington Aqueduct. The
USACE entered into agreements with Arlington County and the City of Falls Church, Virginia, to provide funding to the
USACE to repay the debt. The USACE recognized a receivable for $8.6 million in principal and current interest due from
Arlington County and the City of Falls Church, Virginia, September 30, 2009. The remaining debt balance is scheduled
to be paid off in FY 2023. Actual cumulative amount of funds borrowed from the U.S. Treasury is $74.9 million of which
$8.1 million is outstanding as of September 30, 2009, and $12.1 million is outstanding as of September 30, 2008. There were
no withdrawals from the U.S. Treasury for FY 2009 or FY 2008. Total principal repayments in FY 2009 were $4.1 million
and total principal repayments in FY 2008 were $787,000.


Note 12.	 Environmental and Disposal Liabilities
 As of September 30                                                                                   2009               2008
 (Amounts in thousands)

 Formerly Utilized Sites Remedial Action Program                                                $     1,020,737     $      969,347
 Other                                                                                                   14,055             12,765
 Total Environmental and Disposal Liabilities                                                   $     1,034,792     $      982,112



Assumptions and Uncertainties

Estimating environmental liabilities requires making assumptions about future activities and is inherently uncertain. The
cleanup estimates reflect local decisions and expectations as to the extent of cleanup and site reuse, and include assessments
of the effort required to complete the project based on data collected during the remedial investigation and feasibility study
phases of each project. For most projects, the volume of contaminated material to be removed and the cost to dispose of such
material, including transportation, are the elements of the estimates with the greatest uncertainty and potential for significant
increase in project costs. The estimates include contingency provisions intended to account for the uncertainties associated
with estimating these elements and other factors.

The initial estimate of cleanup costs for each site is necessarily based on incomplete data. Estimates are refined as alternative
approaches are evaluated and a preferred alternative is approved in a record of decision.




54 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
The environmental liability estimates are dependent on annual funding levels and achievement of work as scheduled.
congressional appropriations at lower than anticipated levels, unplanned delays in project completion, or future changes in
costs may cause actual costs to be higher than the recorded liability.

The USACE considers various key factors in determining whether future outflows of resources can be reasonably estimated,
including:

     n	 Completion of remedial investigation or feasibility study or other study,

     n	 Experience with similar site or conditions, and

     n	 Availability of remediation technology.


The environmental liabilities of $1.0 billion do not include sites where the USACE has identified likely contamination
resulting from past Tungsten Queen Mine related activities, but for which a reasonable estimate cannot be made.

Formerly Utilized Sites Remedial Action Program

The USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), established to respond to
radiological contamination from early U.S. Atomic Energy and Weapons Programs. For each FUSRAP site, the USACE
has received congressional authorization to ascertain the extent of environmental contamination; select a remedy with input
from state and federal authorities local stakeholders; perform the cleanup work; and dispose of wastes. After cleanup work is
completed at each site, the USACE transfers responsibility for long-term surveillance and monitoring to the U.S. Department
of Energy.

Changes in the FUSRAP liability during the fiscal years ended September 30, 2009 and 2008, resulted from inflation
adjustments to reflect changes in costs for the current year, cleanup activities performed, adjustments to estimates of soil
volumes, and new estimates for sites added to the program.

Other Environmental Liabilities

Other environmental liabilities relate to environmental contamination at current or former USACE project sites.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   55
Note 13.	 Due to Treasury – General Fund and Other Liabilities
                                                                                                   2009
 As of September 30
 (Amounts in thousands)                                                Current Liability   Noncurrent Liability       Total

 Intragovernmental
    Due to Treasury-General Fund                                      $         136,215    $     2,260,136        $   2,396,351
    Advances from Others                                              $         759,735    $                 0    $     759,735
    Deposit Funds and Suspense Account Liabilities                                 (137)                     0                (137)
    Disbursing Officer Cash                                                       1,356                      0                1,356
    Judgment Fund Liabilities                                                   171,911                      0          171,911
    FECA Reimbursement to the Department of Labor                                21,144               29,145              50,289
    Employer Contribution and Payroll Taxes Payable                              21,754                  0.00             21,754
 Total Intragovernmental                                              $     1,111,978      $     2,289,281        $   3,401,259
    Accrued Funded Payroll and Benefits                               $         501,931    $                 0    $     501,931
    Advances from Others                                                        158,429                      0          158,429
    Deferred Credits                                                            769,633                      0          769,633
    Deposit Funds and Suspense Accounts                                          10,630                      0            10,630
    Contract Holdbacks                                                           58,874                      0            58,874
    Contingent Liabilities                                                       45,920                      0            45,920
 Total Other Liabilities                                              $     2,657,395      $     2,289,281        $   4,946,676


                                                                                                   2008
 As of September 30
 (Amounts in thousands)                                                Current Liability   Noncurrent Liability       Total

 Intragovernmental
    Due to Treasury –General Fund                                     $         124,255    $        775,834       $     900,089
    Advances from Others                                              $         524,833    $                 0    $     524,833
    Deposit Funds and Suspense Account Liabilities                                 (273)                     0                (273)
    Disbursing Officer Cash                                                         121                      0                 121
    Judgment Fund Liabilities                                                   167,624                      0          167,624
    FECA Reimbursement to the Department of Labor                                20,337               27,806              48,143
    Employer Contribution and Payroll Taxes Payable                              17,500                      0            17,500
 Total Intragovernmental                                              $         854,397    $        803,640       $   1,658,037
    Accrued Funded Payroll and Benefits                               $         399,797    $                 0    $     399,797
    Advances from Others                                                        134,797                      0          134,797
    Deferred Credits                                                            755,426                      0          755,426
    Deposit Funds and Suspense Accounts                                          10,332                      0            10,332
    Contract Holdbacks                                                           48,871                      0            48,871
    Contingent Liabilities                                                       54,047                      0            54,047
 Total Other Liabilities                                              $     2,257,667      $        803,640       $   3,061,307




56 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Other Information

Intragovernmental - Due to Treasury – General Fund is comprised of the custodial liability to offset interest and accounts
receivable which, when collected, will be deposited in the U.S. Treasury. The USACE records a custodial liability for payables
from water storage and hydraulic mining contracts and for flood control, coastal restoration and hurricane protection measures
with the Coastal Protection and Restoration Authority of Louisiana.

Judgment Fund Liabilities - the USACE has recognized an unfunded liability arising from Judgment Fund Contract Disputes
Act (CDA) settlements in accordance with a provision of the CDA requiring agencies to reimburse the Judgment Fund for
payments to claimants in cases involving federal contract disputes. The USACE cannot fund the CDA claims since it is
funded for projects and does not receive funding for this type of claim. The USACE sought supplemental appropriations for
payment of CDA claims in FY 2000, FY 2006, and FY 2007, but these requests were not approved. The FY 2009 budget does
not provide funding for payment of the CDA claims.


Note 14.	 Contingencies

Legal Contingencies

The USACE is a party in various administrative proceedings and legal actions, with claims including environmental damage
claims, equal opportunity matters, and contractual bid protests. The USACE has accrued contingent liabilities for legal actions
where the USACE’s Office of the Chief Counsel considers an adverse decision probable and the amount of loss is measurable.
In the event of an adverse judgment against the government, some of the liabilities may be paid from the U.S. Treasury’s
Judgment Fund. The USACE discloses amounts recognized as contingent liabilities in Note 13, Due to Treasury – General
Fund and Other Liabilities.

The U.S. Army Claims Service supervises processing, investigates, adjudicates, and negotiates the settlement of non-contractual
administrative claims on behalf of and against the Department of the Army (including USACE); however, because of their
uniqueness, the hurricane Katrina-related administrative claims are processed by the U.S. Department of Justice (DOJ). By
law, administrative claims filed against the government are either adjudicated, denied, or are effectively denied if no action
is taken within six months from the claim filing date. Barring such resolution within six months from the date of filing,
claimants may file legal cases with the federal court. Filing of an administrative claim for resolution is a required precursor to a
claimant’s filing against the government in federal court.

Claims settled below the statutory threshold of $2,500 are paid using civil works appropriations; settlements above this
threshold are referred to the Judgment Fund for payment. With the exception of CDA settlements disclosed in Note 13,
amounts that are paid by the Judgment Fund are recorded as expenses and imputed financing sources.

Probable Likelihood of an Adverse Outcome

The USACE is subject to potential liabilities where adverse outcomes are probable, and claims are approximately $45.9 million
and $54.0 million as of September 30, 2009 and 2008, respectively, and the contingent liabilities were included in Note 13.

Reasonably Possible Likelihood of an Adverse Outcome

The USACE is subject to potential liabilities where adverse outcomes are reasonably possible and claims are approximately
$5.6 billion and $30.0 million as of September 30, 2009 and 2008, respectively.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report    57
Hurricane Katrina-Related Claims and Litigation

Various parties filed administrative claims and lawsuits against the USACE as a result of Hurricane Katrina in 2005. Most of
the Katrina-related litigation is consolidated before a single federal judge sitting in the Federal District Court in New Orleans.
The Court, for case management purposes, has classified the individual cases into seven categories and ordered the filing of
superseding, master complaints in most categories: Levee, Mississippi River Gulf Outlet (MRGO), Insurance, Responder,
Dredging Limitation, St. Rita Nursing Home, and Barge. The MRGO category, the Barge category and Robinson, involving
similar geographic areas, are most relevant to USACE at this point.

The government filed a motion to dismiss the MRGO case with regard to the application of the discretionary function
exception to the activities performed at the East Bank Industrial Area on September 15, 2009, with oral arguments held
on October 28, 2009. The Court has stayed the trial of the MRGO case pending resolution of the government’s motion.
Additionally, the United States has recently discovered that none of the three plaintiffs in the MRGO category who reside in
an area affected by a particular flood wall breach filed administrative claims – a prerequisite for filing suit in federal court –
before filing their suits. Accordingly, the government has moved to dismiss the count from MRGO case that pertains to this
particular flood wall breach, with arguments on this motion to be held on December 16, 2009.

On June 22, 2009, the Court severed the Barge case and stayed the third party claims of Lafarge against the United States. As
a result, the United States will not participate in the trial in this matter, set for February, 2010.

The trial of the Robinson case concluded on May 14, 2009, and both the plaintiffs and the government filed a post-trial
memorandum. On November 18, 2009, the court rendered an adverse decision finding the USACE liable for the damage to
certain properties during Hurricane Katrina. The DOJ and the USACE Office of Chief Counsel have reviewed the opinion
and intend to appeal the decision to the U.S. Court of Appeals for the Fifth Circuit. Accordingly, the USACE is presently
unable to determine the amount of loss that may result from this case.

In addition to the matters described above, the St. Bernard Parish Government filed a class action on behalf of the residents
of St. Bernard Parish and the Lower Ninth Ward of Orleans Parish, alleging that the presence of MRGO and its affect on the
surge from Hurricane Katrina amounted to taking without just compensation. The amount claimed is $5 billion.

The DOJ, which is responsible for litigating Katrina-related matters in federal court on behalf of the government, has
concluded that there is a reasonable possibility that the Katrina-related administrative claims and court cases currently asserted
could result in a loss to the federal government. The government is unable to estimate the amount of any loss that may result,
however, and the USACE has not recorded a provision for Katrina-related matters in the consolidated financial statements.

Other Litigation

In addition to the matters described above, the USACE is subject to other potential liabilities for which the exact amount or
range of loss is unknown.

Commitment and Other Contingencies

The USACE does not have undelivered orders for open contracts citing cancelled appropriations, which may remain unfilled
or unreconciled, and for which the reporting entity may incur a contractual commitment for payout.

The USACE does not have contractual arrangements, such as fixed price contracts with escalations, price redetermination, or
incentive clauses, which may require future financial obligations.




58 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Note 15.	 General Disclosures Related to the Statement of Net Cost
 As of September 30                                                              2009                           2008
 (Amounts in thousands)

 Intragovernmental Costs                                              $                 1,284,049    $                 1,434,065
 Public Costs                                                                           9,876,751                      8,087,251
 Total Costs                                                          $               11,160,800     $                 9,521,316
 Intragovernmental Earned Revenue                                     $               (3,047,876)    $              (2,180,957)
 Public Earned Revenue                                                                  (551,194)                       (20,194)
 Total Earned Revenue                                                 $               (3,599,070)    $              (2,201,151)
 Net Cost of Operations                                               $                 7,561,730    $                 7,320,165

Other Information

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the federal
government. Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The consolidated Statement of Net Cost is unique because its principles are driven on understanding the net cost of programs
and/or organizations that the federal government supports through appropriations or other means. This statement provides
gross and net cost information that can be related to the amount of output or outcome for a given program or organization
administered by a responsible reporting entity.

The USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets
or acquiring stewardship land.


Note 16.	 Disclosures Related to the Statement of Changes in Net
          Position

Other Information

Appropriations received on the Statement of Budgetary Resources (SBR) should not, and do not, agree with appropriations
received on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference is due to additional resources of $1.4 billion during FY 2009
and $1.6 billion during FY 2008 in appropriated trust, contributed, and special fund receipts included in Appropriation on
the SBR. These funds do not update the proprietary appropriations received amount reported on the SCNP. Refer to Note
17, Statement of Budgetary Resources, for additional disclosures and details.

Cumulative Results of Operations – Earmarked Funds ending balance on the SCNP does not agree with the Cumulative
Results of Operations – Earmarked Funds reported on the Balance Sheet because the cumulative results on the Balance Sheet
are presented net of eliminations, whereas Cumulative Results of Operations balance for earmarked and other funds on the
SCNP are presented before eliminations.




                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   59
Note 17.	 Disclosures Related to the Statement of Budgetary Resources
 As of September 30                                                                            2009                2008
 (Amounts in thousands)

 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
    End of the Period                                                                     $        9,481,104   $   7,735,527

Other Information

Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute budgetary
resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not subject to
apportionment because they are not appropriated funds. Funding sources for exempt category comes from sources outside the
federal government.

For FY 2009, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A SBR
includes: $12.4 billion for direct obligations; $10.5 billion for reimbursable obligations; and $58.9 million for reimbursable
obligations exempt from apportionment. The USACE did not report any direct obligations exempt from apportionment. The
USACE has no apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-
unpaid for both direct and reimbursable funds

For FY 2008, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category
A in the SBR includes: $9.3 billion for direct obligations, $11.5 billion for reimbursable obligations, and $141.0 million
for reimbursable obligations exempt from apportionment. The USACE did not report any direct obligations exempt from
apportionment. The USACE has no apportionments under Category B. Undelivered orders presented in the SBR include
undelivered orders-unpaid for both direct and reimbursable funds.

Intraentity transactions have not been eliminated because the SBR is presented as a combined statement.

Permanent Indefinite Appropriations. The USACE receives receipts from hydraulic mining in California; leases of land
acquired for flood control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of
navigable water including maintenance and operation of dams. These funds are available for expenditure.

There are no legal arrangements that affect the use of unobligated balances of budget authority.

There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133) for
FY 2009 and FY 2008. Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in the
SF133. This money is not from appropriated funds and is not included in the Office of Management and Budget’s data for
budget formulation. The USACE does include this appropriation in the SBR.

The President’s budget with actual figures for FY 2009 has not yet been published. The FY 2011 President’s budget will
include actual figures for FY 2009 reporting. The FY 2011 President’s budget can be found at: http://www.whitehouse.gov/
omb, early in FY 2010. The following chart is a reconciliation of the FY 2010 President’s budget actual figures for FY 2008 to
FY 2008 Statement of Budgetary Resources as required by OMB Circular No. A-136.




60 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
                                            Department of Defense
                                   U.S. Army Corps of Engineers - Civil Works
                     Reconciliation of FY 2008 Year-End SBR to FY 2010 President’s Budget
                                                      (Amounts in millions)


                          Budgetary    Obligations   Offsetting
                          Resources     Incurred     Receipts      Net Outlays
                          Line 23.90   Line 23.95    Line 02.99    Line 90.00          Explanation for reconciling differences
SBR                       $32,669       $20,976        $639         $4,985
Reconciling Difference     (154)         (141)                        91         The SBR includes Treasury symbol 96X6094
                                                                                 for advances from the District of Columbia
                                                                                 for work on the Washington Aqueduct. It is
                                                                                 not included in the President’s budget since
                                                                                 these are not appropriated funds.
Reconciling Difference                                                639        The SBR reduces net outlays by the amount
                                                                                 of distributed offsetting receipts. The
                                                                                 President's budget Line Item 90.00 does
                                                                                 not.
Reconciling Difference                                 (61)                      General funds clearing accounts are
                                                                                 included as distributed offsetting receipts in
                                                                                 accordance with DFAS year-end guidance.
                                                                                 It is not included in the President’s budget
                                                                                 amount.
Reconciling Difference                                1,692                      The President's budget line 02.99 includes
                                                                                 total receipts and collections for the trust
                                                                                 funds. The SBR includes only the USACE's
                                                                                 distributed offsetting receipts to South
                                                                                 Dakota Terrestrial Wildlife per Treasury
                                                                                 Financial Manual, Federal Account Symbols
                                                                                 and Titles (FAST Book). Other trust fund
                                                                                 receipts are included in the budgetary
                                                                                 resources, line 23.90.
Reconciling Difference                                   8                       Per the FAST Book, receipt account 96R
                                                                                 5125 is not a distributed offsetting receipt
                                                                                 account and is not included in the SBR as a
                                                                                 distributed offsetting receipt. It is included
                                                                                 in the President’s budget amount.
Reconciling Difference      (296)        (296)                                   2008 audit adjustments
Total                     $32,219       $20,539      $2,278         $5,715
President’s Budget         32,215       20,540       2,279          5,715
Difference                   ($4)         $1           $1             $0         Due to rounding.




                         Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   61
Note 18.	 Reconciliation of Net Cost of Operations (Proprietary) to
          Budget
 As of September 30                                                                  2009                  2008
 (Amounts in thousands)

 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 Obligations incurred                                                           $    23,049,926 $          20,975,901
 Less: Spending authority from offsetting collections and recoveries                (11,705,957)          (13,032,520)
 Obligations net of offsetting collections and recoveries                       $    11,343,969 $           7,943,381
 Less: Offsetting receipts                                                             (583,187)             (638,940)
 Net obligations                                                                $    10,760,782 $           7,304,441
 Other Resources:
 Donations and forfeitures of property                                                      2,825                 320
 Transfers in/out without reimbursement                                                 109,331               (74,931)
 Imputed financing from costs absorbed by others                                        275,785               244,698
 Net other resources used to finance activities                                 $       387,941 $             170,087
 Total resources used to finance activities                                     $    11,148,723 $           7,474,528
 Resources Used to Finance Items Not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided:
    Undelivered Orders                                                          $    (1,745,577) $         (3,325,059)
    Unfilled Customer Orders                                                         (1,659,428)            1,911,344
 Resources that fund expenses recognized in prior periods                               (23,819)              (57,251)
 Budgetary offsetting collections and receipts that do not affect Net Cost of
    Operations                                                                          131,123               122,110
 Resources that finance the acquisition of assets                                       (15,501)               (9,638)
 Other resources or adjustments to net obligated resources that do not affect
    Net Cost of Operations:
    Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
      Budget                                                                            (10,000)              (10,000)
    Other                                                                              (112,155)               74,612
 Total Resources Used to Finance Items Not Part of the Net Cost of
     Operations                                                                 $    (3,435,357) $         (1,293,882)
 Total Resources Used to Finance the Net Cost of Operations                     $     7,713,366 $           6,180,646




62 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Note 18.	 Reconciliation of Net Cost of Operations (Proprietary) to
          Budget - Continued
 As of September 30                                                                              2009                2008
 (Amounts in thousands)

 Components of the Net Cost of Operations That Will Not Require or Generate Resources in the Current
   Period:
 Components Requiring or Generating Resources in Future Period:
 Increase in environmental and disposal liability                                          $        52,680     $        331,475
 Increase in exchange revenue receivable from the public                                            26,794              763,926
 Other                                                                                                2,635                 2,946
 Total components of Net Cost of Operations that will Require or Generate
     Resources in future periods                                                           $        82,109     $     1,098,347
 Components not Requiring or Generating Resources:
 Depreciation and amortization                                                             $       736,832     $        620,612
 Revaluation of assets or liabilities                                                               38,311              220,637
 Other
    Cost of Goods Sold                                                                                  698                 9,427
    Operating Material and Supplies Used                                                                268                  142
    Cost Capitalization Offset                                                                    (874,336)         (1,081,514)
    Other                                                                                         (135,518)             271,868
 Total Components of Net Cost of Operations that will not Require or
     Generate Resources                                                                    $      (233,745)    $         41,172
 Total components of Net Cost of Operations That Will Not Require or
     Generate Resources in the Current Period                                              $      (151,636)    $     1,139,519
 Net Cost of Operations                                                                    $     7,561,730     $     7,320,165

Other Information

The following note schedule lines are presented as combined instead of consolidated due to intraentity budgetary transactions
not being eliminated:

     n	 Obligations Incurred

     n	 Spending Authority from Offsetting Collections and Recoveries

     n	 Obligations Net of Offsetting Collections and Recoveries

     n	 Offsetting Receipts

     n	 Net Obligations

     n	 Undelivered Orders

     n	 Unfilled Customer Orders


Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not Affect
Net Cost of Operations: Other – The FY 2009 and FY 2008 amounts include the net amount of assets transferred between the
USACE and other government agencies. The FY 2008 amount also includes asset donations.



                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   63
Composition of Components Requiring or Generating Resources in Future Periods: Other - The FY 2009 amounts include
the current year increase to unfunded Federal Employees’ Compensation (FECA) liability and the FECA actuarial liability.
The FY 2008 amount includes current year Judgment Fund Contract Disputes Act claims and current year unfunded expense
for the FECA actuarial liability.

Composition of Components not Requiring or Generating Resources: Other – The FY 2009 and FY 2008 amounts include
bad debt expense and cost capitalization offset expense. The cost capitalization offset account provides a mechanism to offset
all direct costs in the expense accounts when those costs are subsequently capitalized into an in-process account. Current year
costs associated with nonfederal cost share projects in the contributed fund and costs related to the acquisition of operating
materials and supplies in the revolving fund are also recorded as other expenses not requiring budgetary resources. In FY 2009,
costs associated with fish mitigation studies in the general fund are also recorded as other expenses not requiring budgetary
resources.


Note 19.	 Earmarked Funds
                                                                                          2009
 BALANCE SHEET
 As of September 30
                                                                 Contributed                                                    Consolidated
 (Amounts in thousands)                      Special Funds         Funds               Trust Funds       Eliminations              Total

 ASSETS
 Fund balance with Treasury                  $      9,179    $       850,191       $        74,694 $                    0   $       934,064
 Investments                                             0                     0        5,228,046                       0         5,228,046
 Accounts and Interest Receivable                   1,977              1,081              496,869                   (2)             499,925
 Plant, Property, and Equipment and
 Other Assets                                         938             40,166              908,490                       0           949,594
 Total Assets                                $     12,094    $       891,438       $ 6,708,099 $                    (2)     $     7,611,629
 LIABILITIES and NET POSITION
 Accounts Payable and Other Liabilities
 Other Liabilities                           $      1,031    $       805,644       $        70,176 $             (168)      $       876,683
 Total Liabilities                           $      1,031    $       805,644       $        70,176 $             (168)      $       876,683
 Cumulative Results of Operations                  11,063             85,794            6,637,924         1,000,386               7,735,167
 Total Liabilities and Net Position          $     12,094    $       891,438       $ 6,708,100 $          1,000,218         $     8,611,850


 STATEMENT OF NET COST
 Program Costs                               $     19,593    $       390,060       $       109,887 $         (34,069)       $       485,471
 Less Earned Revenue                                     0         (439,502)                         0            124              (439,378)
 Net Program Costs                           $     19,593    $       (49,442)      $       109,887 $         (33,945)       $         46,093
 Net Cost of Operations                      $     19,593    $       (49,442)      $       109,887 $         (33,945)       $         46,093


 STATEMENT OF CHANGES IN NET
    POSITION
 Net Position Beginning of the Period        $     12,030    $        45,106       $ 6,250,265 $                        0   $     6,307,401
 Net Cost of Operations                      $     19,593    $       (49,442)      $       109,887 $         (33,945)       $         46,093
 Budgetary Financing Sources                       18,724                      0           551,534           966,442              1,536,700
 Other Financing Sources                             (100)            (8,754)              (53,986)                     0           (62,840)
 Change in Net Position                      $       (969)   $        40,688       $       387,661 $       1,000,387        $     1,427,767
 Net Position End of Period                  $     11,061    $        85,794       $ 6,637,926 $           1,000,387        $     7,735,168




64 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
                                                                                           2008
 BALANCE SHEET
 As of September 30
                                                                  Contributed                                                    Consolidated
 (Amounts in thousands)                       Special Funds         Funds               Trust Funds       Eliminations              Total

 ASSETS
 Fund balance with Treasury                  $     11,127     $       779,578       $      113,702 $                     0   $       904,407
 Investments                                              0                     0        4,789,604                       0         4,789,604
 Accounts and Interest Receivable                    1,580                 148             540,733                       0           542,461
 Plant, Property, and Equipment and
 Other Assets                                        1,073             34,157              922,943                       0           958,173
 Total Assets                                $     13,780     $       813,883       $ 6,366,982 $                        0   $     7,194,645
 LIABILITIES and NET POSITION
 Accounts Payable and Other Liabilities
 Other Liabilities                           $       1,750    $       768,777       $      116,717 $              (133)      $       887,111
 Total Liabilities                           $       1,750    $       768,777       $       116,717 $             (133)      $       887,111
 Cumulative Results of Operations                  12,030              45,106            6,250,265         1,276,574               7,583,975
 Total Liabilities and Net Position          $     13,780     $       813,883       $ 6,366,982 $           1,276,441        $     8,471,086


 STATEMENT OF NET COST
 Program Costs                               $     22,090     $       285,677       $        92,294 $         (43,181)       $       356,878
 Less Earned Revenue                                      0           238,345                         0              88              238,433
 Net Program Costs                           $     22,090     $       524,022       $        92,294 $         (43,093)       $       595,311
 Net Cost of Operations                      $     22,090     $       524,022       $        92,294 $         (43,093)       $       595,311


 STATEMENT OF CHANGES IN NET
    POSITION
 Net Position Beginning of the Period         $    10,389     $       572,875       $ 5,727,337 $                        0   $     6,310,601
 Net Cost of Operations                       $    22,090     $       524,022       $        92,294 $         (43,095)       $       595,311
 Budgetary Financing Sources                       23,731                  147           1,035,407          1,233,479              2,292,764
 Other Financing Sources                                  0            (3,894)            (420,185)                      0          (424,079)
 Change in Net Position                       $      1,641    $     (527,769)       $       522,928 $       1,276,574        $     1,273,374
 Net Position End of Period                   $    12,030     $        45,106       $ 6,250,265 $           1,276,574        $     7,583,975



Other Disclosures

All intragovernmental activity within the USACE between earmarked and nonearmarked funds has been eliminated from the
consolidated total column, which causes assets to not equal liabilities and net position.

USACE earmarked funds are presented by fund type vice individual fund due to the volume of individual earmarked funds
based on SFFAS No. 27, Identifying and Reporting Earmarked Funds.

There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the financial
statements that significantly changes the purpose of these funds or that redirects a material portion of the accumulated
balances.




                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report              65
The USACE has the following Earmarked Funds as of September 30, 2009 and 2008:

Special Funds

Special Recreation Use Fees. Title 16 United States Code (USC) 4601-6a granted, the USACE authority to charge and collect
fair and equitable special recreation use fees at recreation facilities and campgrounds located at lakes or reservoirs under the
jurisdiction of the USACE. Types of allowable fees include daily use fees, admission fees, recreational fees, annual pass fees,
and other permit type fees. The revenue is received from the public and is an inflow of resources to the government. The
purpose of the fund is to maintain and operate the recreation and camping facilities.

Hydraulic Mining in California Debris. Title 33 USC 683, states that those operating hydraulic mines through which debris
flows in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall
pay a tax as determined by the Federal Energy Regulatory Commission (FERC). The tax is paid annually on a date fixed by
FERC. Taxes imposed under this code are collected and then expended under the supervision of the USACE and the direction
of the Department of the Army. The revenue is received from the public and is an inflow of resources to the government.
The purpose of the fund is for repayment of funds advanced by the federal government or other agencies for construction,
restraining works, settling reservoirs, and maintenance.

Payments to States. The Flood Control Act of 1954, Title 33 USC 701c-3 established, that 75 percent of all funds received
and deposited from the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including the
development of hydroelectric power, shall be returned to the state in which the property is located. The USACE collects
lease receipts into a receipt account. The revenue is received from the public and is an inflow of resources to the government.
Funds are appropriated in the amount of 75 percent of the receipts in the following fiscal year and disbursed to the states. The
funds may be expended by the states for the benefit of public schools and public roads of the county, or counties, in which
such property is situated, or for defraying any of the expense of county government.

Maintenance and Operation of Dams and Other Improvements of Navigable Waters. Title 16 USC 803f, 810, states that
whenever a reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now known as FERC,
shall assess charges against any licensee directly benefited, and any amount so assessed shall be paid into the U.S. Treasury.
The title further states that all charges arising from other licenses, except those charges established by FERC for purpose of
administrative reimbursement, shall be paid to the U.S. Treasury from which specific allocations will be made. From the
specific allocations, 50 percent of charges from all other licenses is reserved and appropriated as a special fund in the U.S.
Treasury. This special fund is to be expended under the direction of the Secretary of the Army (Secretary) for the maintenance
and operation of dams and other navigation structures that are owned by the U.S. or for construction, maintenance, or
operation of headwater or other improvements of U.S. navigable waters. The revenue is received from the public and is an
inflow of resources to the government.

Nonfederal Use of Disposal Facilities. The fund for nonfederal use of disposal facilities (for dredged material) was established
by Title 33 USC 2326a. This title provides that the Secretary may permit the use of any dredged material disposal facility
under the jurisdiction of, or managed by, the Secretary by a nonfederal interest if the Secretary determines that such use will
not reduce the availability of the facility for project purposes. The Secretary may impose fees to recover capital, operation and
maintenance costs associated with such use. Any monies received through collection of fees under this law shall be available to
the Secretary, and shall be used by the Secretary, for the operation and maintenance of the disposal facility from which the fees
were collected. The revenue is received from the public and is an inflow of resources to the government.

Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.

Contributed Funds

Rivers and Harbors Contributed and Advance Funds, authorized by Title 33 USC 701h, 702f, and 703, establishes funding
to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification and enlargement of


66 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
river channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state or political subdivision
thereof shall offer to advance funds for a flood control project duly adopted and authorized by law, the Secretary may, in his
discretion, receive such funds and expend the same in the immediate prosecution of such work. Advances are from the public
and are inflows of resources to the government. This fund utilizes both receipt and expenditure accounts in accounting for and
reporting the fund.

Trust Funds

The South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund. The fund was established by Public Law 105-277,
Sec. 603. Yearly transfers are made from the general fund of the U.S. Treasury to the trust fund for investment purposes.
Investment activity is managed by the U.S. Treasury, Bureau of Public Debt (BPD). When the fund reaches the aggregate
amount of $108.0 million, withdrawals may be made by the USACE for payment to the state of South Dakota. The state
shall use the payments to fund the annually scheduled work for wildlife habitat restoration. This fund utilizes both receipt and
expenditure accounts in accounting for and reporting the fund.

The Coastal Wetlands Restoration Trust Fund. The fund is authorized by Title 16 USC 3951-3956. This title grants parallel
authority to the USACE, along with the Environmental Protection Agency, and the Fish and Wildlife Service to work with the
state of Louisiana to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of no net loss of wetlands
in coastal Louisiana. The USACE is also responsible for allocating funds among the named task force members. Federal
contributions are established at 75 percent of project costs, or 85 percent if the state has an approved Coastal Wetlands
Conservation Plan. This fund is an expenditure account and receives funding transfers from the Sport Fish Restoration and
Boating Trust Fund.

The Inland Waterways Trust Fund (IWTF). The fund is authorized by Title 26 USC 9506. The title made IWTF available for
USACE expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections into the trust
fund are from excise taxes on fuel used in commercial transportation on inland waterways. The revenue is received from the
public and is an inflow of resources to the government. The collections are invested and investment activity is managed by the
BPD. This fund utilizes receipt and expenditure accounts in accounting for and reporting the fund.

The Harbor Maintenance Trust Fund (HMTF). The fund was established by Title XIV of the Water Resources Development
Act (the Act) of 1986, Public Law 99-662. The HMTF is authorized to recover 100 percent of USACE eligible operation
and maintenance (O&M) expenditures for the maintenance of commercial navigation in harbors and channels as well as
100 percent of the O&M cost of St. Lawrence Seaway by the St. Lawrence Seaway Development Corporation. As provided in
the Act, amounts in HMTF shall be available for making expenditures to carry out the functions specified in the Act and for
the payment of all expenses of administration incurred by the U.S. Treasury, the USACE, and the Department of Commerce.
Collections are made into the trust fund from fees assessed on port use associated with imports, imported merchandise
admitted into a foreign trade zone, passengers, and movements of cargo between domestic ports. The collections are invested
and investment activity is managed by BPD. The revenue is received from the public and is an inflow of resources to the
government. This fund utilizes receipt and expenditure accounts in accounting for and reporting the fund.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   67
Note 20.	 Leases
The USACE has no assets under capital lease.

Operating Lease Liability - Lessee:

As of September 30, 2009, USACE has various non-cancellable operating leases mainly for office space and storage facilities
maintained by many of the USACE districts. Many of these leases contain clauses to reflect inflation and renewal options.
The following schedule shows future General Services Administration lease payments due:

                                 (Amounts in thousands)

                                 Fiscal Year                                    Building Space
                                    2010                                   $              68,377
                                    2011                                                  70,428
                                    2012                                                  72,541
                                    2013                                                  74,717
                                    2014                                                  76,958
                                    After 5 Years                                       420,840
                                 Total Future Lease Payments               $            783,861

Operating Lease Liability - Lessor:

The USACE also has a small volume of operating leases for mostly easements. The following schedule provides future
projected receipts:

                                (Amounts in thousands)

                                 Fiscal Year                                     Land Rights
                                    2010                                   $              12,834
                                    2011                                                  11,236
                                    2012                                                  10,201
                                    2013                                                   8,669
                                    2014                                                   7,305
                                    After 5 Years                                          7,194
                                 Total Future Lease Payments               $              57,439




68 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
FY 2009 Required Supplementary Stewardship Information (RSSI)
                                            Nonfederal Physical Property
                   Yearly Investments in Physical Property Owned by State and Local Governments
                        For the Current and Four Preceding Fiscal Years ended September 30
                                                        (Amounts in millions)


         Categories                                    FY 2009          FY 2008      FY 2007     FY 2006       FY 2005
         Transferred Assets:
         1. National Defense Mission Related            $1,198          $1,135        $1,028      $1,229       $1,324
         Funded Assets:
         2. National Defense Mission Related                   0                0           0           0              0
         Total                                          $1,198          $1,135        $1,028      $1,229       $1,324

The USACE incurs investments in nonfederal physical property for the purchase, construction, or major renovation of physical
property owned by state and local governments, including major additions, alterations, and replacements, the purchases of
major equipment, and the purchases or improvements of other nonfederal assets. In addition, the USACE has the authority
to enter into cost-sharing agreements with nonfederal sponsors which are governed under numerous Water Resources
Development acts started with the Act of 1992. Nonfederal physical property investments include federally-owned physical
property transferred to state and local governments.

Under numerous authorities, the USACE provides design, build and construction services/management for the missions of
commercial navigation, flood/storm damage reduction, hydropower, regulatory, environmental, recreation and water supply.

Investment values included in this report are based on nonfederal physical property outlays (expenditures). Outlays are used
because current DoD accounting systems are unable to capture and summarize costs in accordance with federal accounting
standards requirements.

                                     Federal Mission Property, Plant and Equipment
                          Yearly Investment in Federal Mission Property, Plant and Equipment
                                       For Fiscal Year Ended September 30, 2009
                                                        (Amounts in millions)


         Categories                                 FY 2005         FY 2006         FY 2007     FY 2008       FY 2009
         1. Bank Stabilization Projects                $59              $67           $73         $57            $69
         Total                                         $59              $67           $73         $57            $69

Narrative Statement:

Investments in federal mission property, plant and equipment refer to those expenses incurred by the USACE for the
protection of the riverbanks of the Mississippi River and other navigable waterways inside the continental United States.
Stabilization and protection of the riverbanks are important to the flood control and navigation plans, serving to protect flood
control features and to insure the desired alignment of the river’s navigation channel. Stabilizing the riverbanks and channels
provides an efficient navigation alignment, increases the flood-carrying capacity of the river, and/or protects the levees system
to include the tributary basin improvements for major drainage. The process by which this is accomplished is by; cutoffs
(shortening the river and reducing flood heights), revetment (controlling the river’s meandering), dikes (directing the flow),
and improvement dredging (realigning the river/channel).

After major floods in the years 1882, 1912, 1913 and 1927, the Flood Control Act of 1928 was signed which committed the
federal government to a definite program of flood control. This legislation authorized the Mississippi River and Tributaries
Project, the nation’s first comprehensive flood control and navigation act.

Investments values included in this report are based on nonfederal physical property outlays (expenditures). Outlays are used
because current DoD systems are unable to capture and summarize costs in accordance with the federal accounting standards
requirements.


                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   69
70 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
FY 2009 Required Supplementary Information (RSI)
                                        General Property, Plant and Equipment
                                     Real Property Deferred Maintenance Amounts
                                               As of 30 September 2009
                                                       (Amounts in millions)


Deferred maintenance is classified as not performed when it should have been or as scheduled but delayed to a future period.
Deferred maintenance for FY 2009 is $1.8 billion for other structures. Operations managers identify the operation and
maintenance (O&M) needs at each project in the civil works inventory. The O&M needs are based on inspections of project
features, engineering analyses and historical experience.

Heritage Asset Condition

Condition of heritage assets is based on factors such as quality of design and construction, location adequacy of maintenance
performed, and continued usefulness. The USACE’s heritage assets overall condition is deemed to be fair.




                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   71
 U.S. Army Corps of Engineers - Civil Works

 Statement of Disaggregated Budgetary Resources
                                                                                                                      Borrowing                              Contributed
 For the year ended September 30, 2009 ($ in thousands)       FUSRAP        Special Funds       Trust Funds           Authority       Revolving Funds          Funds
 BUDGETARY FINANCING ACCOUNTS
 Budgetary Resources:
 Unobligated balance, brought forward, October 1          $       5,734     $      7,389    $       182,171       $               4   $      274,308     $       393,631
 Recoveries of prior year unpaid obligations                      2,284               10              6,964                       0          121,990              20,050
 Budget authority
       Appropriation                                            140,000           58,581            894,039                       0                 0            452,063
       Spending authority from offsetting
       collections
            Earned
                Collected                                         1,626                0                      0            4,357           8,313,069                  715
                Change in receivables from
                Federal sources                                        42              0                      0                   0              184                       2
            Change in unfilled customer orders
                Advance received                                       0               0                      0                   0            3,922                2,731
                Without advance from Federal
                sources                                           2,562                0                  0                    0              67,653                  40
            Expenditure transfers from trust funds                    0                0                  0                    0                   0                   0
       Subtotal                                           $     144,230     $     58,581    $       894,039       $        4,357      $    8,384,828     $       455,551
 Nonexpenditure transfers, net, actual                                0          (40,374)            89,916                    0                   0                   0
 Temporarily not available pursuant to Public Law                     0                0            (10,000)                   0                   0                   0
 Permanently not available                                            0                0                  0               (4,056)                  0                   0
 Total Budgetary Resources                                $     152,248     $     25,606    $     1,163,090       $          305      $    8,781,126     $       869,232

 Status of Budgetary Resources:
 Obligations incurred:
       Direct                                             $     140,317     $     22,212    $       996,705       $            0      $            0     $       379,031
       Reimbursable                                               3,612                0                  0                  301           8,485,607                 758
       Subtotal                                           $     143,929     $     22,212    $       996,705       $          301      $    8,485,607     $       379,789
 Unobligated balance:
       Apportioned                                                8,319            3,394             20,496                    0                 160                   0
       Exempt from apportionment                                      0                0            145,889                    4             295,359             489,443
       Subtotal                                           $       8,319     $      3,394    $       166,385       $            4      $      295,519     $       489,443
 Unobligated balance not available                                    0                0                  0                    0                   0                   0
 Total status of budgetary resources                      $     152,248     $     25,606    $     1,163,090       $          305      $    8,781,126     $       869,232
 Change in Obligated Balance:
 Obligated balance, net
       Unpaid obligations, brought forward,
       October 1                                          $      52,449     $      3,738    $       361,194       $               0   $    1,191,025     $       385,979
       Less: Uncollected customer payments
       from Federal sources, brought forward,
       October 1                                                  (2,464)              0                  0                    0              (96,052)                (32)
       Total unpaid obligated balance                     $      49,985     $      3,738    $       361,194       $            0      $    1,094,973     $       385,947
 Obligations incurred net (+/-)                                 143,929           22,212            996,705                  301           8,485,607             379,789
 Less: Gross outlays                                           (126,459)         (20,155)          (999,037)                (301)         (8,134,265)           (384,897)
 Less: Recoveries of prior year unpaid
 obligations, actual                                             (2,284)             (10)             (6,964)                     0         (121,988)            (20,050)
 Change in uncollected customer payments from
 Federal sources (+/-)                                           (2,604)               0                      0                   0          (67,839)                 (41)
 Obligated balance, net, end of period
       Unpaid obligations                                 $      67,635     $      5,784    $       351,898       $               0   $    1,420,379     $       360,821
       Less: Uncollected customer payments
       from Federal sources                                      (5,068)               0                      0                   0         (163,892)                 (73)
       Total, unpaid obligated balance, net, end
       of period                                          $      62,567     $      5,784    $       351,898       $               0   $    1,256,487     $       360,748

 Net Outlays:
      Gross outlays                                       $     126,459     $     20,155    $       999,037       $          301      $    8,134,265     $       384,897
      Less: Offsetting collections                               (1,626)               0                  0               (4,357)         (8,316,989)               (3,447)
      Less: Distributed Offsetting receipts                           0          (57,186)           (10,000)                   0                   0            (452,064)
      Net Outlays                                         $     124,833     $    (37,031)   $       989,037       $       (4,056)     $     (182,724)    $        (70,614)

 The accompanying notes are an integral part of these financial statements.




72 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
U.S. Army Corps of Engineers - Civil Works

Statement of Disaggregated Budgetary Resources
                                                                                    FUSRAP             General
For the year ended September 30, 2009 ($ in thousands)       General Funds           AARA               AARA          Combined 2009        Combined 2008
BUDGETARY FINANCING ACCOUNTS
Budgetary Resources:
Unobligated balance, brought forward, October 1          $       10,829,480     $              0   $              0   $    11,692,717      $    23,379,700
Recoveries of prior year unpaid obligations                         711,554                    0                  0           862,852            1,723,420
Budget authority
      Appropriation                                              10,868,143            100,000           4,500,000         17,012,826           33,885,652
      Spending authority from offsetting
      collections
           Earned
               Collected                                           3,550,130                   0            16,174         11,886,071           23,770,516
               Change in receivables from
               Federal sources                                     (251,218)                   0             4,909           (246,081)            (492,204)
           Change in unfilled customer orders
               Advance received                                      252,479                   0                 39           259,171              518,342
               Without advance from Federal
               sources                                           (2,206,086)                 0             217,232         (1,918,599)          (3,839,760)
           Expenditure transfers from trust funds                   862,543                  0                   0            862,543            1,725,086
      Subtotal                                           $       13,075,991     $      100,000     $     4,738,354    $    27,855,931      $    55,567,632
Nonexpenditure transfers, net, actual                               121,001                  0                   0            170,543              341,086
Temporarily not available pursuant to Public Law                          0                  0                   0             (10,000)             (20,000)
Permanently not available                                                 0                  0                   0               (4,056)              (8,112)
Total Budgetary Resources                                $       24,738,026     $      100,000     $     4,738,354    $    40,567,987      $    80,983,726

Status of Budgetary Resources:
Obligations incurred:
      Direct                                             $        8,676,506     $       59,235     $     2,154,724    $    12,428,730      $    24,717,143
      Reimbursable                                                1,985,662                  0             145,256         10,621,196           21,238,780
      Subtotal                                           $       10,662,168     $       59,235     $     2,299,980    $    23,049,926      $    45,955,923
Unobligated balance:
      Apportioned                                                13,928,675             40,765           2,438,374         16,440,183           32,872,047
      Exempt from apportionment                                     147,034                  0                   0          1,077,729            2,155,458
      Subtotal                                           $       14,075,709     $       40,765     $     2,438,374    $    17,517,912      $    35,027,505
Unobligated balance not available                                       149                  0                   0                149                  298
Total status of budgetary resources                      $       24,738,026     $      100,000     $     4,738,354    $    40,567,987      $    80,983,726
Change in Obligated Balance:
Obligated balance, net
      Unpaid obligations, brought forward,
      October 1                                          $         7,398,509    $              0   $             0    $     9,392,894      $    18,733,339
      Less: Uncollected customer payments
      from Federal sources, brought forward,
      October 1                                                   (5,319,470)                0                   0          (5,418,018)        (10,833,572)
      Total unpaid obligated balance                     $         2,079,039    $            0     $             0    $      3,974,876     $     7,899,767
Obligations incurred net (+/-)                                   10,662,168             59,235           2,299,980         23,049,926           45,955,923
Less: Gross outlays                                             (10,440,664)              (434)           (347,625)       (20,453,837)         (40,781,215)
Less: Recoveries of prior year unpaid
obligations, actual                                                (711,554)                   0                 0           (862,850)          (1,723,416)
Change in uncollected customer payments from
Federal sources (+/-)                                              2,457,304                  0           (222,141)         2,164,679            4,331,962
Obligated balance, net, end of period
      Unpaid obligations                                 $         6,908,461    $       58,801     $     1,952,354    $    11,126,133      $    22,184,631
      Less: Uncollected customer payments
      from Federal sources                                        (2,862,166)                 0           (222,140)        (3,253,339)          (6,501,610)
      Total, unpaid obligated balance, net, end
      of period                                          $         4,046,295    $       58,801     $     1,730,214    $     7,872,794      $    15,683,021

Net Outlays:
     Gross outlays                                       $       10,440,664     $            434   $       347,625    $    20,453,837      $    40,781,215
     Less: Offsetting collections                                (4,665,152)                   0           (16,213)       (13,007,784)         (26,013,942)
     Less: Distributed Offsetting receipts                           (63,937)                  0                 0           (583,187)           (1,166,374)
     Net Outlays                                         $        5,711,575     $            434   $       331,412    $     6,862,866      $    13,600,899




                                  Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report                      73
74 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
                                                 Inspector General
                                                Department of Defense
                                                  200 Army Navy Drive
                                             Arlington, Virginia 22202-4704



                                                                                                              November 24, 2009


MEMORANDUM FOR THE CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS


SUBJECT:	 Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil Works, FY 2009 and FY 2008
	         Basic Financial Statements (Report No. D 2010-018)


The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying U.S. Army Corps of Engineers, Civil Works, (USACE) Consolidated Balance Sheets as of September 30,
2009 and 2008, and Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position, and
Combined Statement of Budgetary Resources and related notes for the fiscal years then ended. The financial statements are
the responsibility of USACE management. USACE is also responsible for implementing effective internal control and for
complying with laws and regulations. Our responsibility is to express an opinion on these financial statements and to report
on the internal controls and compliance with laws and regulations based on our audit.


We conducted our audit in accordance with auditing standards generally accepted in the United States of America; the U.S.
Government Accountability Office “Government Auditing Standards;” and the requirements of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall financial statement presentation and assessing the internal control over financial reporting and
compliance with laws and regulations. We believe that our audit provides a reasonable basis for our opinion.


In our opinion, the financial statements referred to above present fairly, in all material respects, the financial position of
USACE as of September 30, 2009 and 2008, and the Net Cost of Operations, Changes in Net Position and Budgetary
Resources for the years then ended in conformity with accounting principles generally accepted in the United States of
America (U.S. GAAP) and the requirements of the OMB Circular A-136, Financial Reporting Requirements. In addition to
our opinion on the financial statements, we are including the required Report on Internal Controls and Compliance with
Laws and Regulations (Report). This report is an integral part of our opinion on the financial statements.



Matters of Emphasis
Based on the pervasive internal control weaknesses related to USACE’s financial reporting process and the extensive effort
needed to audit these basic financial statements, we have concerns about whether USACE will be able to sustain the level
of effort necessary to continue the annual audit process. USACE has not fully implemented an appropriate organizational
and internal control structure that is necessary for effective financial management and oversight. Although USACE financial
management oversight exists, weaknesses in the entity-level control structure continue to affect USACE’s financial reporting
process. Because of USACE’s unreliable entity-wide controls, USACE management adjusted material financial reporting
errors during annual audits rather than having adequate internal controls in place to prevent and detect these errors in the
normal course of business. More importantly, without first correcting these material internal control weaknesses, USACE may
not produce accurate, complete, and timely financial information for the financial statements, which could ultimately result in


                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   75
significant misstatements. Once internal control weaknesses are corrected, the audit will become more efficient and USACE
management will have more reliable financial information readily available for decision-making.


In addition, the USACE Management Discussion and Analysis (MD&A) does not include a robust discussion on the financial
statements in accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 15, as it only discusses
the Balance Sheet and no other statements. The MD&A also does not include a section for systems, controls, and legal
compliance as required by SFFAS No. 15. However, the MD&A, Required Supplementary Information (RSI), and Required
Supplementary Stewardship Information (RSSI) were not required in the basic financial statements but were required as
supplementary information by the Federal Accounting Standards Advisory Board and OMB Circular No. A 136. The scope
of our work included procedures in OMB Bulletin No. 07-04. We were not required to audit this information or express an
opinion on it under OMB Bulletin No. 07-04. Accordingly, we do not express an opinion on this information.



Summary of Internal Control
In planning our work, we considered USACE’s internal control over financial reporting and compliance with laws and
regulations. We did this to determine our procedures for auditing the financial statements and to comply with OMB
guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not express an opinion on
internal control over financial reporting and compliance with laws and regulations.


A material weakness is a significant deficiency, or a combination of significant deficiencies, resulting in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected.1 We identified the
following material weaknesses:


        n	 General Property, Plant, and Equipment

        n	 Environmental Liabilities

        n	 Entity-Wide Internal Controls

        n	 Financial Reporting

        n	 Long-Term Water Storage Agreements


A significant deficiency is a control deficiency,2 or a combination of control deficiencies, adversely affecting the entity’s
ability to initiate, authorize, record, process, or report financial data reliably in accordance with U.S. GAAP. Significant
deficiencies result in more than a remote likelihood that a misstatement of an entity’s financial statements that is more than
inconsequential will not be prevented or detected. We identified the following significant deficiencies:


        n	 Cost Share Revenue

        n	 Financial Management Systems




1
    The term “remote” is defined as when the chance of a future event or events occurring is slight. Therefore, the likelihood of an event is “more than remote”
       when it is at least reasonably possible.
2
    A control deficiency exists when the design or operation of a control does not allow management or employees, in the normal course of performing their
       assigned functions, to prevent or detect misstatements on a timely basis.


76 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant deficiencies.
The Attachment offers additional details on significant deficiencies, five of which we considered to be material internal control
weaknesses.



Summary of Compliance With Laws and Regulations
As part of obtaining reasonable assurance about whether the USACE FY 2009 and FY 2008 Financial Statements were free
of material misstatement, we performed tests for compliance with certain provisions of laws and regulations, including those
specified in OMB Bulletin No. 07-04. We did not determine, however, whether USACE complied with all applicable laws
and regulations related to financial reporting. Providing an opinion on compliance with laws and regulations was not an
objective of our audit, and accordingly, we do not express such an opinion. However, we noted instances of noncompliance
with the following laws and regulations:


     n	 Federal Managers’ Financial Integrity Act of 1982,
     n	 Federal Financial Management Improvement Act of 1996,

     n	 Energy and Water Development Appropriations Act,

     n	 Debt Collection Improvement Act of 1996,

     n	 South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund, and

     n	 Antideficiency Act.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   77
Management’s Responsibilities
Management is responsible for:


    n	 preparing the financial statements in conformity with U.S. GAAP;

    n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
         objective of the Federal Managers’ Financial Integrity Act are met; and

    n	 complying with applicable laws and regulations.


We provided a draft of this report to the Chief of Engineers, U.S. Army Corps of Engineers, who provided technical
comments that we incorporated into the report as appropriate.




                                                        Patricia A. Marsh, CPA
                                                        Assistant Inspector General
                                                        Defense Business Operations




Attachment:
As stated




78 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
  Report on Internal Control and Compliance with Laws
                     and Regulations

Internal Control
Management is responsible for developing and maintaining effective internal control and for providing reasonable assurance
that accounting data are accumulated, recorded, and reported properly; assuring that the requirements of applicable laws and
regulations are met; and safeguarding assets against misappropriation and abuse. Because of USACE management’s assertion
that the FY 2009 and FY 2008 Basic Financial Statements were free of material error, we performed auditing procedures to
determine whether the financial statements were presented fairly in all material respects. In planning our audit, we considered
USACE internal control over financial reporting and compliance with laws and regulations to determine our procedures for
auditing the financial statements and to comply with Office of Management and Budget (OMB) guidance. But the purpose
of our audit was not to express an opinion on internal control or compliance with laws and regulations. Accordingly, we do
not express an opinion. However, we identified internal control weaknesses over financial reporting that we considered to be
significant deficiencies, five of which we considered to be material weaknesses.


We conducted our audit in accordance with auditing standards generally accepted in the United States of America; the
Government Accountability Office “Government Auditing Standards;” and the requirements of OMB Bulletin No. 07-04. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and disclosures
in the financial statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation and assessing the internal control over financial
reporting and compliance with laws and regulations. We believe our audit provides a reasonable basis for our opinion.


Our testing of USACE internal controls included those procedures in OMB Bulletin No. 07-04 that were designed to
determine whether an agency’s internal control provides reasonable, but not absolute, assurance that:


     n	 Transactions are properly recorded, processed, and summarized to permit the preparation of the financial statements
         in accordance with U.S. GAAP, and to safeguard assets against loss from unauthorized acquisition, use, or
         disposition.


     n	 Transactions that could have a direct and material effect on the consolidated and combined financial statements are
         executed in accordance with laws governing the use of budget authority and with laws, regulations, and Government-
         wide policies identified in Appendix E of OMB Bulletin No. 07-04.


We did not test all internal controls relevant to the operating objectives broadly defined by the Federal Managers’ Financial
Integrity Act (FMFIA) of 1982. Rather, we focused our internal control testing on controls over financial reporting and
compliance with laws and regulations.


We reported our audit findings on the unreliability of the USACE control environment before the FY 2009 audit. Our overall
FY 2009 audit method emphasized substantive tests of details on account balances because the USACE internal controls were
determined to be unreliable. As a result of our audit, USACE management posted material adjusting entries to the USACE
FY 2009 Financials Statements to conform with U.S. GAAP and to address the internal control deficiencies.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   79
Material Weaknesses
During the audit, we identified General Property, Plant, and Equipment (General PP&E), Environmental Liabilities,
Entity-wide Internal Controls, Financial Reporting, and Long-Term Water Storage Agreements as material weaknesses.
USACE management reported only General PP&E as a material weakness in its FY 2009 Annual Statement of Assurance on
Management Controls.



General Property, Plant, and Equipment

The USACE General PP&E line item is the single largest category of assets on USACE FY 2009 Basic Financial Statements.
Its main components are Construction-in-Progress (CIP), Buildings and Other Structures (B&S), Land, and Equipment.
Effective control and accountability over General PP&E assets are, therefore, a key USACE management imperative. During
our FY 2009 audit, we noted several findings on internal controls related to the accuracy, existence, rights, and completeness of
General PP&E, some of which were noted in prior-year audits.


Lack of Controls Over Construction Assets
USACE did not fully implement the CIP quarterly review process. The quarterly CIP reviews are intended to verify that costs
in the CIP account are part of active, ongoing projects, and that these costs are not identified with any asset previously placed
in service, or do not represent a completed asset that should have been placed in service. The review should also identify
expenses that USACE incorrectly classified as CIP. USACE established a 30-day time frame for placing assets or projects
in service for their intended use. However, our review of 19 CIP projects identified three completed projects included in
CIP. The three projects were completed before FY 2009 and should have been removed from CIP and placed in service. In
addition, projects not intended for use by USACE were improperly included in CIP.


Lack of Supporting Documentation
USACE was unable to provide supporting documentation for all the transactions in our CIP, B&S, and Equipment samples.
A lack of documentation to support the asset costs and transactions authorization increases the risk that incorrect costs were
capitalized or that unauthorized users approved incorrect costs. Our audit identified that documentation to support the useful
lives, costs, and transaction amounts for General PP&E was not readily available and, in some instances, not provided. As a
result, there were a significant number of testing exceptions noted for General PP&E, which identified weaknesses in internal
controls.


Lack of Supervisory Review Over General Property, Plant, and Equipment Transaction Data Entry
USACE did not adequately validate the accuracy or completeness of information entered into the Corps of Engineers
Financial Management System (CEFMS), which is USACE’s primary accounting system. This occurred because USACE
did not consistently conduct an independent review of asset information entered into CEFMS across all districts. Adequate
supervisory review is necessary to ensure the correct treatment of accounting transactions. Our audit identified the following
types of errors that may have been prevented had USACE management completed consistent review procedures:


     n	 Asset classifications were incorrect.

     n	 Operation and maintenance costs were erroneously capitalized.

     n	 Transaction amounts did not agree with the supporting documentation for several assets.

     n	 Depreciation amounts of assets placed into service were incorrect due to wrong useful life.

     n	 The useful life from additions and betterment costs was not adjusted.

     n	 The fully depreciated value of transfer-in assets from other Federal agencies was not recognized.

     n	 Assets no longer in use by USACE were inadequately capitalized.

80 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Erroneous asset classification, capitalization amounts, and useful life could yield inaccurate depreciation rates. Inaccurate
depreciation rates inadequately portray the General PP&E balance and expenses for the accounting period.


Lack of General Property, Plant, and Equipment Reconciliations
General PP&E reconciliation was not adequately performed. During FY 2009, USACE implemented a corrective action
plan (CAP) that involved General PP&E reconciliations. This CAP required that each USACE district review, document,
approve, and date each of the asset reconciliation reports and that each report have a reviewer signature, a date of completion,
a documented resolution to each variance, and an approval signature and date by someone one level higher than the reviewer
within 15 days after the end of the quarter. However, USACE management did not implement policies and procedures
related to timely recording and review of PP&E reconciliations. Our audit noted instances where reconciliation reports were
not signed in a timely manner, reports did not resolve all prior variances, and districts did not perform complete reconciliation
reports. Lack of management review of General PP&E reconciliations and timely resolution of variances can result in
misstatements in General PP&E account balances.



Environmental Liabilities

The Atomic Energy Commission created the Formerly Utilized Remedial Action Program (FUSRAP) to identify, investigate,
and take appropriate cleanup action at sites with a low concentration of radioactive contamination resulting from the early
atomic weapons programs. Since October 1977, USACE has continued the cleanup efforts at these sites and any additional
sites that have been identified. These projected cleanup costs related to environmental liabilities are funded through the Civil
Works appropriation. In addition, there are also non-FUSRAP environmental liabilities, which involve the cleanup of USACE
facilities and property in accordance with Federal, State, and local environmental laws and regulations. We identified the
following material weaknesses in the USACE internal controls related to environmental liabilities.


Accounting for Cleanup Costs Related to Government-Acknowledged Contamination.
USACE incorrectly recognized Government-acknowledged liabilities. Government-acknowledged liabilities result from
the Government’s decision to respond to events unrelated to the Government’s operations. Statement of Federal Financial
Accounting Standards (SFFAS) No. 5 makes a distinction between the accounting treatment for liabilities arising from
Government-related events and those arising from Government-acknowledged events. A Government-related liability results
from Federal operations regardless of whether it is intentional or unintentional. Government-related liabilities should be fully
recognized when the liability is measurable and probable. In contrast, only the actual work performed, but unpaid as of year-
end, should be recognized as a liability for Government-acknowledged liabilities.


Accounting for Employee, Operations, and Maintenance Costs Associated With Environmental Liabilities
USACE did not record a liability for the costs to operate and maintain a legacy waste facility because USACE regarded such
costs as current period costs. In addition, USACE did not record costs associated with Headquarters employees responsible for
program management because it was not aware that such costs should be included in the liability and because it determined
the amount to be immaterial.


Recognition of Environmental Liabilities
USACE did not recognize a remediation liability for three FUSRAP projects for which future remediation costs were probable
and measurable as of September 30, 2008. Of the three projects, USACE did not record two as of June 30, 2009, because
USACE policy for recognition of environmental liabilities for FUSRAP projects is subject to the completion of project
feasibility studies, rather than the probable and measurable recognition criteria described in SFFAS No. 5. USACE correctly
recorded the third project as of June 30, 2009.


USACE also misinterpreted Federal Accounting Standards Advisory Board Technical Release No. 2, Determining Probable
and Reasonably Estimable for Environmental Liabilities in the Federal Government, and inappropriately limited the recognition
criteria to those sites with completed project feasibility studies.



                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   81
Entity-Wide Internal Controls

There are five integrated components of internal control: Control Environment, Risk Assessment, Monitoring, Information
and Communication, and Control Activities. Taken together, they provide management with reasonable assurance that
USACE achieves its objectives related to effectiveness and efficiency of operations, compliance with applicable laws and
regulations, and reliability of financial reporting. During the FY 2009 audit, we continued to find deficiencies in four of the
five components of USACE internal controls. USACE has not fully implemented an appropriate organizational and internal
control structure that is necessary for effective financial management and oversight. Although USACE financial management
oversight exists, weaknesses in the entity-level control structure continue to affect USACE financial management as noted
below.


Control Environment
USACE has not fully implemented a financial management structure where U.S. GAAP is effectively applied. USACE
management has not completed a review to assess the appropriateness of existing non-U.S. GAAP financial policies and
procedures. In addition, USACE management was unable to provide a complete listing of noncompliant accounting
treatments with financial statement effects. Our audit also identified gaps in management’s implementation of accounting
standards and a lack of policies and procedures in several processes.


The USACE financial management structure lacks appropriate and clear internal reporting relationships. USACE
management has ineffective financial guidance and oversight over the USACE districts and divisions that provide financial
information. In addition, the review of adjustments made in the financial reporting process is ineffective.


Risk Assessment
USACE has not fully implemented an ongoing, entity-wide risk assessment process and has not developed or fully
implemented adequate controls in relation to information systems and communication relevant to financial reporting.


Monitoring
USACE has not implemented entity-level monitoring controls. Specifically USACE lacks:


     n	 a process to monitor and control timely completion of the action plan milestones and update the status of
         completion;

     n	 oversight over the review of adjustments made in the financial reporting process;

     n	 an effective process for a timely review of offline financial statements;
     n	 oversight over the processes prescribed by and reporting related to FMFIA and Federal Financial Management
         Improvement Act (FFMIA);

     n	 proper training for employees to prevent Antideficiency Act (ADA) violations from occurring;
     n	 an effective process to identify environmental liabilities for which USACE may be responsible;

     n	 an effective process for financial reporting related to, and the disclosure of, Long-Term Water Storage Agreements;

     n	 an effective process for maintaining supporting documentation for, and the management review of, General PP&E;
         and

     n	 an effective process for maintaining supporting documentation for Work-in-Kind (WIK) and Land, Easements,
         Rights-of-Way, Relocations, and Dredged Materials (LERRD) related to cost share agreements and the management
         review of cost share agreements.



82 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Information and Communication
USACE has not developed or fully implemented adequate controls in relation to information systems and communication
relevant to financial reporting as evidenced by the weaknesses noted in the entity’s information technology area.


Because of USACE’s weak entity-wide controls, USACE management adjusted material financial reporting errors during
annual audits rather than having adequate internal controls in place to prevent and detect these errors in the normal course of
business. More importantly, USACE may not produce accurate, complete, and timely financial information for the financial
statements, which could ultimately result in significant misstatements.



Financial Reporting

USACE has a complex financial reporting process that includes summarizing accounting transactions from 59 CEFMS
databases, using the Corps of Engineers Enterprise Management Information System. The accounting transaction data are
further summarized in the Corps of Engineers Enterprise Management Information System and compiled into the Defense
Departmental Reporting System (DDRS), which generates the USACE financial statements. DDRS prepares financial
statements in accordance with DoD policies and procedures for internal DoD-wide reporting. However, because of the
complexities of the process and system constraints, the financial statements produced do not comply with OMB and Financial
Accounting Standards Advisory Board requirements.


In addition to preparing the DDRS financial statements for internal DoD-wide reporting purposes, USACE management
prepares separate stand-alone year end comparative financial statements that conform to OMB and Department of the
Treasury Financial Management Service guidance for audit and external reporting purposes. This requires a significant amount
of manual data input by USACE Finance Center staff within a compressed reporting time frame. The manually intensive
process creates a greater risk of error. Inconsistent execution of review procedures and similar control activities over financial
statement preparation increases the risk that an error will exist within the financial statements and remain undetected.


Review and Approval of Manual Journal Vouchers
USACE lacks internal control procedures over CEFMS manual journal entries. Manual CEFMS journal entries are initiated
at the district-level and are made to correct imbalances or errors. These journal entries are entered into CEFMS without
appropriate support, review, or approval. The lack of appropriate support, review, and approval of manual journal entries
could lead to a material misstatement in the financial statements.


Reconciliations in the Defense Department Reporting System
USACE recorded unsupported journal voucher entries to eliminate variances in account balances. Specifically, USACE
recorded unsupported adjustments to eliminate the variance between the Revolving Fund account balance in CEFMS and the
Funds Balance with Treasury. In addition, USACE eliminated variances between trading partner activity amounts in DDRS
and the amounts represented in the DDRS trial balance for Federal expenses by recording unsupported journal voucher entries
and reclassifying amounts between Federal and non-Federal expenses. Thus, if these transactions were entered into DDRS and
the activity was the result of erroneous transactions and records outside USACE, there is an increased risk that the USACE
Basic Financial Statements could be materially misstated.


Presentation and Disclosure
USACE omitted disclosures related to Inventory, Heritage Assets, and Required Supplementary Information. USACE did
not disclose Operation, Maintenance, and Supplies (OM&S) in accordance with U.S. GAAP. During the audit, we noted
two stock items that should be classified as OM&S held for future use. These items were included in the OM&S line item
on the face of the financial statements but not separately disclosed in the footnotes as required by SFFAS No.3, Accounting for
Inventory and Related Property. In addition, USACE did not:




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   83
     n	 separately disclose its allowance for obsolete or unserviceable OM&S in the footnote or show it as a separate line
         item on the face of the financial statements,

     n	 disclose a difference between the carrying amount of OM&S before identification as obsolete or unserviceable,

     n	 disclose balances for each of the categories of OM&S, and

     n	 disclose the decision criteria for identifying each category to which OM&S are assigned.


Also, USACE did not adequately disclose Heritage Assets in accordance with SFFAS No. 29, Heritage Assets and Stewardship
Land. Specifically, USACE did not adequately disclose stewardship PP&E policies, how stewardship PP&E relates to USACE
mission, or a description of the major methods of acquisition and withdrawal of stewardship PP&E.


Trust Fund Classification
The South Dakota Terrestrial Wildlife Habitat Restoration Fund (Restoration Fund) is inappropriately classified as an
earmarked fund as defined by U.S. GAAP. Specifically, USACE inappropriately recorded the interest earned on the
investments held in the Restoration Fund as an entity asset. However, USACE does not have the right (legal ownership) to use
the interest earned on the investments held in the Restoration Fund for USACE operations. Therefore, the interest earned on
the investments held should be recorded as a nonentity asset.


Prior-Year Recoveries
Our FY 2009 audit identified recovery transactions totaling $125 million that should have been recorded in FY 2008. In
addition, USACE did not record recoveries of $8.5 million in FY 2009. USACE made auditor proposed adjustments to
correct these balances.



Long-Term Water Storage Agreements

USACE has long-term agreements or promissory notes with other Federal entities for water storage facilities provided by
USACE. These agreements range from approximately 20 to 30 years. During our audit, we noted that USACE disclosures for
Long-Term Water Storage receivables were not in accordance with U.S. GAAP. USACE financial statements do not provide
information about the range of maturity dates, the extent of the agreements, the range of interest rates, or how interest rates are
determined.


In addition, USACE did not properly recognize long-term receivables in accordance with U.S. GAAP for two projects.
Specifically, USACE recorded accounts receivable (public) and advances from others (public) of $478 million. However,
USACE did not provide evidence of receipt of cash in advance and did not substantiate the amount recorded. Based on
our review of the agreements, there were provisions that should have been accounted for similar to cost share agreements
and provisions that should have been separately accounted for as promissory notes (notes receivable) from the third parties.
For the principal amount of the agreements associated with the provisions in the promissory notes where repayment spans
over 30 years and interest is to be assessed, $1.5 billion should have been recorded as Accounts Receivable and as due to the
Treasury General Fund. Because USACE did not separately account for the provisions as promissory notes from the third
parties, there was an understatement of Accounts Receivable-Public and due to Treasury General Fund of $1 billion and
$1.5 billion, respectively, as well as an overstatement in advances from others by $478 million. USACE made the auditor-
proposed adjustments to correct these balances at year-end.


Lastly, USACE did not record new agreements or changes to amortization schedules in a timely manner. Specifically, we
identified two agreements that were executed on January 16, 2009, but were not recorded in CEFMS until September 30,
2009.



84 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
Significant Deficiencies
During the FY 2009 audit, we identified USACE Cost Share Revenue and Financial Management Systems as significant
deficiencies. USACE management did not and was not required to report significant deficiencies in its FY 2009 Annual
Statements of Assurance on Management Controls.



Cost Share Revenue

USACE did not follow the matching concept when recognizing revenue for the cost share agreements in accordance with
U.S. GAAP. Cost share agreements are agreements with a third party where the third party is expected to cover a portion of
the total costs in cash, WIK, or LERRD. WIK and LERRD are elements that comprise the estimated total cost of the project
and are given consideration when initially determining cash needed in advance from the third party. USACE employs a WIK
first premise in recognizing cost share revenue. For example, if the estimated total cost of the project is $1 million and the
third party is expected to cover 50 percent of the estimated total cost of the project, the estimated share for the third party is
expected to be $500,000. If the third party and USACE agree that the estimated contribution of WIK and LERRD is worth
$300,000, the third party is expected to pay $200,000 in advance. Thus, 20 percent of the estimated total cost is expected in
cash. The 20 percent represents the share to be paid by the third party to cover actual costs incurred by USACE, and thus, the
revenue recognized for the period should equal 20 percent of actual costs incurred by USACE for the same period.


Although WIK and LERRD are elements of the total costs (that is, costs incurred that are directly paid by the third party
and costs incurred that are directly paid by USACE), WIK and LERRD are not part of the actual costs incurred on USACE
financial statements. Thus, the USACE method of applying WIK first results in the lack of full revenue recognition to match
actual costs incurred by USACE in the period.


In addition, our review of the financial statement presentation and disclosure of deferred credits and revenue associated with
cost share agreements determined that USACE did not properly calculate deferred credits as of September 30, 2009, and did
not consider the current-year effect of the prior-year adjustment to revenue for cost share activity. Specifically, we noted that
USACE determined deferred credits based on the ending balance of the Fund Balance with Treasury general ledger account, at
post-close summary level. This summary level account balance consists of the beginning deferred credits balance plus current-
year collections minus current-year disbursements. By using this account balance without evaluation of its components,
USACE did not use current year revenue as a factor in determining the year-end deferred credits balance. Instead, cash
disbursements to pay bills were inappropriately part of the deferred credits calculation.


Financial Management Systems

USACE financial management systems are not in compliance with DoD and National Institute of Science and Technology
requirements. Weaknesses existed in the policies and procedures governing security management, access controls,
configuration management, and segregation of duties. The lack of effective policies and procedures over security management
and access controls could result in inconsistencies in identifying and determining the individuals who should have access to
CEFMS. The lack of effective controls over configuration management increases the risk that unauthorized, untested, and
harmful CEFMS changes can occur that could impact the confidentiality, integrity, and availability of CEFMS data.


The lack of documented policies and procedures for handling segregation of duties could lead to an inconsistent application
of how segregation of duties are administered and increase the risk of excessive access that could impact the confidentiality,
integrity, and availability of CEFMS data.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   85
Compliance With Laws and Regulations
Management is responsible for complying with existing laws and regulations related to financial reporting. The purpose
of our work was to determine compliance with selected provisions of the applicable laws and regulations and to obtain
reasonable assurance about whether the USACE FY 2009 Basic Financial Statements were free from material misstatement.
We performed tests for compliance with provisions of laws and regulations that could have a direct and material effect on the
determination of financial statement amounts, as well as with other relevant laws and regulations specified in OMB Bulletin
No. 07-04. However, we did not determine whether USACE complied with all applicable laws and regulations related to
financial reporting. Providing an opinion on compliance with laws and regulations was not an objective of our audit, and
accordingly, we do not express such an opinion.


Our audit disclosed instances of noncompliance or other matters that Government Auditing Standards and OMB Bulletin
No. 07-04 required agencies to report.



Federal Managers’ Financial Integrity Act of 1982

USACE is not compliant with FMFIA. The USACE FMFIA process is not properly designed, not operating effectively, and
not sufficient to identify, evaluate, correct, and report all material weaknesses. USACE has not fully implemented its internal
control program to ensure that the entity takes appropriate action throughout the year to meet the objectives of FMFIA.


USACE asserts that internal controls meet the requirements of OMB Circular No. A-123, Appendix A, for Internal Controls
over Financial Reporting except for a material weakness related to General PP&E based on its FY 2008 audit report.
Although USACE performs its own assessment to determine that financial systems are effective and operating in compliance
with FMFIA, its primary source of information for its assurance statement is our audit report. Thus, the USACE FY 2009
Assurance Statement on Managers’ Internal Controls is not prepared in accordance with the requirements of OMB Circular
No. A-123 (the circular issued under the authority of FMFIA), Appendix A, Section V, Management’s Assurance Statement on
Internal Control over Financial Reporting.


Further, USACE does not report within its annual statement of assurance on whether the entity’s accounting system (financial
management system) conforms to the principles, standards, and requirements prescribed by the Government Accountability
Office as required by FMFIA, Section 4. Lastly, several of USACE’s cycle memoranda were incomplete or inaccurate and thus
did not meet the documentation requirements established by OMB Circular A 123, Appendix A, Section IV.


Federal Financial Management Improvement Act of 1996

USACE lacks sufficient controls to ensure compliance with all requirements of FFMIA. Specifically, USACE does not have
robust policies and procedures to ensure review and appropriate implementation of applicable accounting guidance. In
addition, USACE has not resolved CEFMS programming limitations so that transactions can be recorded in accordance with
the United States Standard General Ledger requirements. Because USACE has not ensured appropriate implementation
of applicable accounting guidance and has not resolved the programming limitations that exist in CEFMS, management
will need to continue to manually record significant DDRS journal vouchers so that activity is properly recognized and in
compliance with the United States Standard General Ledger.



Energy and Water Development Appropriations Act

We were unable to test USACE reprogramming actions in accordance with the Energy and Water Development
Appropriations Act. Reprogramming is the movement of funds to or from a program, project, or activity. We were unable
to test USACE reprogramming actions because USACE did not provide supporting documentation or assurance over the
completeness of the reprogramming population selected for test work. In addition, USACE lacked proper internal controls


86 Fiscal Year 2009 United States Army Annual Civil Works Financial Statement
over initiating and recording reprogramming actions in the financial system. USACE relied on its financial system for the
calculation of the baselines without maintaining readily available support for the calculations.



Debt Collection Improvement Act of 1996

In executing our procedures relating to USACE compliance with certain provisions of the Debt Collection Improvement Act,
we noted that, of the 32 debtor files tested as of September 30, 2009, USACE:


     n	 did not refer debts older than 180 days to Treasury in a timely manner for 10 debtor files;

     n	 inaccurately calculated penalties, interest, and administrative fees for 6 debtor files;

     n	 did not properly and timely use the salary offset program for 12 debtor files; and

     n	 did not provide statement of accounts or demand letters supporting the total amount due for 3 debtor files.



South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

USACE did not comply with Public Law 110-114, Title V, Section 5129, which requires that the Restoration Fund include
two asset accounts, one for principal of the investment and one for interest earned on the investment. Management did not
perform a thorough review of the guiding public law establishing the Restoration Fund to properly present the related financial
information in the USACE financial statements. As a result, the disclosure of nonentity assets and liabilities is understated by
the amount of interest associated with the Restoration Fund ($20.5 million as of June 30, 2009).



Antideficiency Act

USACE management self-reported four infractions related to ADA to the Assistant Secretary of the Army (Financial
Management and Comptroller). Two of the four instances involved the Revolving Fund Plant Replacement and Improvement
Program. Specifically, a possible violation of the ADA occurred when approximately $1 million of Revolving Fund General
and Administrative funds were used to fund a space compression project when the Revolving Fund Plant Replacement
and Improvement Program was the proper source of funding. In addition, a possible violation of the ADA occurred when
approximately $2.5 million was used from Operation and Maintenance and General Expense to fund the development
of an Enhanced Learning Network, and the proper funding source was again the Revolving Fund Plant Replacement and
Improvement Program. The third possible violation occurred when approximately $500,000 of obligations and expenses were
incurred related to the study and design of a USACE project prior to having the statutory authority to do so. After having the
statutory authority, USACE continued the study without a cost share partner to take on a percentage of the expenses. Lastly,
the Chicago District reported that a possible violation of the ADA occurred when approximately $39.3 million of Federal
obligations and expenditures were incurred in excess of the amount authorized.



Audit Disclosures
We will provide the recommendations for corrective actions associated with the USACE material internal control weaknesses,
other significant deficiencies, and noncompliance with laws and regulations addressed in this report to USACE management
in a separate letter.




                           Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   87
                    The Soldier’s Creed
                          I am an American Soldier.
                   I am a Warrior and a member of a team.
      I serve the people of the United States and live the Army Values.

                      I will always place the mission first.
                             I will never accept defeat.
                                    I will never quit.
                       I will never leave a fallen comrade.

               I am disciplined, physically and mentally tough,
                  trained and proficient in my warrior tasks
                    and drills. I always maintain my arms,
                         my equipment and myself.

                    I am an expert and I am a professional.

                     I stand ready to deploy, engage, and
                   destroy the enemies of the United States
                          of America in close combat.

                      I am a guardian of freedom and the
                             American way of life.

                           I am an American Soldier.




United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
